<html>
<title> - EMERGING DRUG THREATS AND PERILS FACING UTAH'S YOUTH</title>
<body><pre>[Senate Hearing 106-1033]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1033

          EMERGING DRUG THREATS AND PERILS FACING UTAH'S YOUTH

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           JULY 6 AND 7, 2000

                               __________

                   SALT LAKE CITY AND CEDAR CITY, UT

                               __________

                          Serial No. J-106-101

                               __________

         Printed for the use of the Committee on the Judiciary




                    U.S. GOVERNMENT PRINTING OFFICE
73-821                      WASHINGTON :  2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
 Internet: bookstore.GPO.gov Phone: (202) 512-1800 Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel




                            C O N T E N T S

                              ----------                              

                         THURSDAY, JULY 6, 2000
                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page

Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1

                               WITNESSES

Anonymous Person.................................................    43
Allred, Steve, Substance Abuse Prevention and Treatment Program 
  Manager, Utah County Division, Human Service...................    41
Bigelow, Sherryl, Mother of a Methamphetamine addicted Teenage 
  Daughter.......................................................    26
Greiner, Jon, Chief, Ogden City Police Department, Weber/Morgan 
  Task Force.....................................................    20
Marshall, Donnie, Administrator, U.S. Drug Enforcement 
  Administration.................................................     5
Morgan, Kent, Salt Lake County Assistant District Attorney, 
  Narcotics Unit.................................................    23
Taylor, Colleen, President, Utah, PTA............................    40
Warner, Paul, U.S. Attorney for Utah.............................    16
Wasden, Roy, Deputy Chief, Salt Lake City Police Department, Head 
  of Narcotics/Metro Task Force..................................    23
Welch, Shari, M.D., Emergency Room Physician, LDS Hospital.......    37

                          FRIDAY, JULY 7, 2000
                     STATEMENT OF COMMITTEE MEMBER

Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......    53

                               WITNESSES

Burns, Scott, Iron County Attorney...............................    65
Corry, Barbara, PTA Regional Director, Region 16, Cedar City, UT, 
  prepared statement.............................................    84
Green, Joseph R., District Director, U.S. Immigration and 
  Naturalization Service, Department of Justice, prepared 
  statement......................................................    56
Davis, Bradley, Convicted Methamphetamine Manufacturer and Dealer    89
Harmon, Sandy, Program Director for Substance Abuse Treatment, 
  Southwest Center...............................................    82
Houston, Jana, Family Devastated by Methamphetamine, prepared 
  statement......................................................    85
Milne, Tibby, Utah Council for Crime Prevention, prepared 
  statement......................................................    78
Mendrala, Don, Assistant Special Agent in Charge, Drug 
  Enforcement Administration.....................................    64
Peck, Russell, Captain, St. George Police Department, prepared 
  statement......................................................    67
Warner, Paul, U.S. Attorney for Utah, prepared statement.........    58

 
          EMERGING DRUG THREATS AND PERILS FACING UTAH'S YOUTH

                              ----------                              - 
- -


                         THURSDAY, JULY 6, 2000

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                Salt Lake City, UT.
    The committee met, pursuant to notice, at 1:10 p.m., at 
Highland High School, 2166 South 1700 East, Salt Lake City, UT, 
Hon. Orrin G. Hatch (chairman of the committee) presiding.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. Let's call this committee hearing to order.
    Good afternoon, we welcome you all to this hearing of the 
Senate Judiciary Committee. I'm holding these hearings both 
here and in Cedar City examining the existing and emerging 
threats posed by illicit drugs to Utah's young people.
    I'm glad to see so many people here who are as committed, 
as I am, to focussing attention, educational, and law 
enforcement resources on combating this problem.
    Let me just recognize some of the very important people we 
have in attendance today. Joe Green, if you could stand so 
everybody knows who you are. Joe is doing a great job, we 
appreciate having you here.
    Steve Branch, officer in charge of the Salt Lake City 
Education Service, also doing a great job for us.
    Greg Deardon, who I have a great deal of admiration for. 
Greg is over here, the commissioner for the Department of 
Public Safety for the State of Utah, he's doing a great job.
    Camille Anthony. Where's Camille? Back in the back. Camille 
is the executive commissioner of Criminal Juvenile Justice.
    Randal Anderson, U.S. Marshal. Where's Randy? There he is. 
We're honored to have you here. He's doing a terrific job as 
U.S. Marshal, one of the best employments we've ever made, I 
think.
    Margaret Nadol. Margaret, you bet. Margaret is the Young 
Women's General President of the Church of Jesus Christ of 
Latter Day Saints, and she has a tremendous influence over our 
youth all over the country, especially here in Utah.
    Mayor Janice Auger, the mayor of Taylorsville, doing some 
very interesting work in this area. And we're grateful to have 
all of you here today.
    Now, the goal of today's hearing is to begin a public 
dialogue on how we can work together to combat the too-little-
known dangers of a growing substance abuse problem in our 
country, but most of all in our community. A lot of Utahns 
don't realize how significant and serious this is.
    Most Utahns have never heard of methamphetamine. We know 
meth is a horrible drug and the labs where it's manufactured 
are producing tremendously toxic chemicals that pose risks to 
whole neighborhoods. Meth's association with criminal gangs is 
also very well known. The cycle of drug abuse and gang violence 
is readily apparent to our fellow Utahns, and to deal with our 
gang problem we also have to deal with a drug problem.
    Fewer, however, are aware meth is just one of the so-
called, ``club drugs,'' that are beginning to attract a whole 
new group of young people in Utah. The drugs known as ``club 
drugs'' include methamphetamine, Ecstasy, GHB and Rohypnol, and 
are often used at parties or night clubs.
    The symptoms of club drug use are showing up everywhere. 
Utah's emergency rooms, police departments, schools, and rape 
crisis centers have experienced increases in reported cases, 
and tragic consequences, of this drug use or should we say 
abuse.
    The Utah Rape Recovery Center, for example, received 
reports of 40 rapes so far this year that are suspected to have 
involved the club drug called GHB. That figure represents 35 
percent of rapes reported to the center this year. Meanwhile, 
last year, 7.3 percent of Utah high school students reported 
having used methamphetamine at least once, and according to the 
Drug Enforcement Agency (the DEA), law enforcement authorities 
seized 266 methamphetamine labs in Utah in 1999.
    A special danger inherent in these drugs is the fact that 
many users of club drugs would not consider taking cocaine, 
LSD, heroin, or marijuana, drugs that are perceived to be more 
dangerous. But because of misinformation about the risks, these 
young people knowingly ingest such substances as GHB, so-called 
``date rape'' drug, and are experiencing the problems 
associated with illicit drug abuse, including overdose, 
addiction, amnesia, sexual assault, and permanent brain damage. 
The lack of public awareness about club drugs is luring a whole 
new population of Utah's young people into the horrible 
consequences of illicit drug use.
    Methamphetamine is a powerfully addictive stimulant that 
produces increased wakefulness, increased physical activity, 
decreased appetite, increased respiration, hyperthermia, and 
euphoria. It can cause convulsions and can result in death.
    Ecstasy is a synthetic, mind-altering drug with 
amphetamine-like and hallucinogenic properties. Ecstasy has no 
accepted medical use and it causes health problems similar to 
those caused by the use of amphetamines and cocaine. 
Psychological difficulties include confusion, depression, sleep 
problems, drug craving, severe anxiety, and paranoia, effects 
which have continued weeks later. Ecstasy users have died from 
acute dehydration.
    GHB and Rohypnol are predominantly central nervous system 
depressants. Because they are often colorless, tasteless, and 
odorless, they can be easily added to beverages and ingested 
unknowingly, causing sedation, often rendering the victim--
usually a young woman--helpless. They have become notorious for 
their use in crimes, particularly rape, because these drugs 
produce amnesia, making it very difficult to arrest and convict 
the perpetrator.
    The novelty of these drugs is undoubtedly one reason for 
the recent surge in their use. Because these drugs are 
relatively new, young people may not perceive that taking them 
is unsafe; rather, they believe that their reported adverse 
effects are rare or exaggerated, and that such reactions could 
never affect them personally.
    As is so often the case, when a newer drug arrives on the 
scene, young people hear much more about its so-called benefits 
than about its potential harms. Young people are attracted to 
the seemingly increased stamina and intoxicating highs these 
drugs purport to offer to them. As Utahns, we all need to 
understand that using these drugs canhave serious, and 
potentially deadly, consequences, and we need to constantly work on 
this problem.
    Over the last several years we have worked hard to obtain 
more resources for the local law enforcement. The formation of 
the Rocky Mountain High Intensity Drug Trafficking Area, for 
example, has brought additional DEA resources to Utah to stop 
trafficking and close down labs. Just this week a new DEA 
office in Utah was opened.
    Additionally, Congress enacted the Methamphetamine Control 
Act, which I sponsored, to toughen meth penalties and place 
greater restrictions on the chemicals from which meth is made. 
This important law has allowed the DEA and other law 
enforcement entities to stop large quantities of precursor 
chemicals from being purchased in the United States for the use 
in manufacturing methamphetamine in Utah and elsewhere.
    In our further effort to combat meth, we have also passed 
the Methamphetamine Trafficking Penalty Enhancement Act and my 
bill, the Methamphetamine Anti-Proliferation Act of 1999. The 
latter bill, which passed the Senate unanimously last November, 
in addition to helping local law enforcement, contains several 
significant prevention and treatment provisions. We cannot 
simply punish our way out of this problem.
    Finally, we've enacted the Hillory J. Fairias and Samantha 
Reid Date-Rate Drug Prohibition Act of 2000. This, of course, 
names two victims of date rape, officially recognizes the harm 
caused by GHB and designates it specifically as a controlled 
substance.
    We've also worked to bring more Federal prosecutors and INS 
officers to Utah to facilitate action against those who are 
corrupting and endangering our youth.
    It is important that we all work together to respond to 
this new peril confronting our young people. The Federal 
Government can support State and local efforts. But it cannot 
be a substitute for those loving and dedicated parents, 
teachers, coaches, physicians, counselors, religious leaders, 
and police officers who serve daily on the front lines in the 
war against the life-threatening and life-ruining dangers 
facing our children and grandchildren.
    We need to educate ourselves about these dangers; gangs, 
teen pregnancy, teen suicide, drugs, and now, club drugs, so 
that we can better teach and guide our kids.
    I personally appreciate the local newspapers writing about 
these areas just this week. We love our children, and that's 
why we should do this. And as your Senator and Chairman of the 
Senate Judiciary Committee, I want to hear first-hand from 
Utahns who have observed the impact of these drugs in our 
State. That is why I have scheduled these hearings in Utah.
    We have two panels of distinguished witnesses to testify 
about the work they are doing to reduce the threat posed by 
these drugs to our young people, and I want to welcome our 
witnesses and extend my appreciation to them for being here 
with us today, and I look forward to their testimony.
    Now, let me just introduce our first panel of witnesses. 
This panel will discuss what is being done to address the drug 
problem and possible solutions to combat this problem. We are 
very pleased to have our first panel of witnesses.
    Donnie Marshall, the Administrator of the U.S. Drug 
Enforcement Administration. Mr. Marshall began his law 
enforcement career in 1969 as a special agent with the Bureau 
of Narcotics and Dangerous Drugs, the predecessor agency of the 
DEA. After a distinguished career with the agency Mr. Marshall 
was confirmed as the administrator just this year, making him 
the first DEA agent to climb through the ranks and become head 
of the administration. We are very fortunate to have him 
running the DEA. I appreciate his coming here today, I have 
great confidence in him and have a great deal of respect for 
him. Mr. Marshall, we're really happy to have you here in our 
home State.
    We would also like to welcome Paul Warner, the U.S. 
Attorney for Utah, doing a terrific job. Mr. Warner's 
aggressive efforts on prosecuting drug cases, gang crime and 
criminal re-entry cases are a significant cause of the recent 
decrease in crime rates in our State, and we're glad to have 
you here, Mr. Warner.
    Next we'll hear from Chief Jon Greiner, with the Ogden City 
Police Department on the Weber/Morgan Task Force. Chief Greiner 
has been effective in leading Ogden City Police in its fight 
against drugs, also in facilitating interagency cooperation in 
Northern Utah. Appreciate you, appreciate having you here, 
chief.
    Also here is Roy Wasden, the Deputy Chief of the Salt Lake 
City Police Department, Head of Narcotics/Metro Task Force. 
Happy to have you with us.
    Finally we are pleased to have Kent Morgan, who's the Salt 
Lake County Assistant District Attorney in charge of the 
narcotics unit. Mr. Morgan has experience with the prosecutor 
and handled a number of high profile cases in the District 
Attorney's Office.
    We have tremendous respect for you three gentleman and the 
work that you're doing. So we want to welcome you here, good 
afternoon to each of you, welcome to the hearing on Emerging 
Drug Threats and Perils Facing Utah's Youth.
    Mr. Marshall, we'll start with you.

 PANEL CONSISTING OF DONNIE MARSHALL, ADMINISTRATOR, U.S. DRUG 
  ENFORCEMENT ADMINISTRATION; PAUL WARNER, U.S. ATTORNEY FOR 
 UTAH; CHIEF JON GREINER, OGDEN CITY POLICE DEPARTMENT, WEBER/
  MORGAN TASK FORCE; ROY WASDEN, DEPUTY CHIEF, SALT LAKE CITY 
POLICE DEPARTMENT, HEAD OF NARCOTICS/METRO TASK FORCE; AND KENT 
MORGAN, SALT LAKE COUNTY ASSISTANT DISTRICT ATTORNEY, NARCOTICS 
                              UNIT

                  STATEMENT OF DONNIE MARSHALL

    Mr. Marshall. Thank you, Senator Hatch, and I appreciate 
the opportunity to be here today. It really is a privilege to 
be here to discuss what I think is the most serious social 
threat we've had in our country, now the drug threat in the 
Nation, particularly the drug threat in Utah.
    Before I start I want to thank you, Senator Hatch, for your 
support to drug law enforcement and to DEA. I want to thank you 
for your leadership on the methamphetamine issues and now on 
the club drugs and MDMA and Ecstasy issues. These are really 
troublesome issues, I think for the country and for Utah, and 
I'm going to discuss each of these as we go.
    The methamphetamine problem, first of all, is not a new 
problem in this country. The methamphetamine problem was a 
problem when I began the job about 30 years ago, and back then, 
however, it was a little bit different.
    Back during even the height of the drug culture in the late 
1960s and early 1970s, your drug culture, for the most part, 
stayed away from methamphetamine because they had a saying back 
then that speed kills, and that culture stayed more with 
marijuana, cocaine and even LSD.
    It's ironic that even back then the drug culture recognized 
that methamphetamine was more dangerous than even those drugs. 
But more recently methamphetamine began expanding again in our 
country, about 6 to 7 years ago, it caught on in a big way in 
California in the west and spread rapidly through the Midwest, 
southwest and on to the southeast.
    Now, you in the Judiciary Committee and the Congress of the 
United States have helped us respond to this growing 
methamphetamine problem with legislation to combat 
methamphetamine, to combat the precursor chemicals, and to 
provide additional training and that sort of stuff.
    Now, those efforts, I think, have paid off in some ways. We 
have a long, long way to go and the use of and trafficking of 
methamphetamine are still expanding in this country, but there 
are a few isolated signs of progress, particularly against the 
super labs, the large labs that are operated by the Mexican 
based drug traffickers.
    What you see on this chart here is that we are 
experiencing, particularly coming out of those Mexican super 
labs, lower methamphetamine purities in this country. For 
instance, in 1994 we saw purities of about 71.9 percent, and in 
1999 we're seeing purities down in the 31.1 percent range.
    Another encouraging sign, we've seen a shift by the Mexican 
laboratory in particular from methamphetamine to amphetamine, 
and we've also seen the decline in the hospital emergency room 
statistics in 1998 and we hope that that will hold.
    Now, I believe that these positive signs are a result of a 
number of things. A result of the legislation that we've gotten 
in the last few years, they're a result of aggressive law 
enforcement, including law enforcement cooperation both here in 
Utah and nationwide, and particularly I think that they're the 
result of our ability to have impact on the availability of 
chemicals that are available to these labs.
    Chairman Hatch. Tell the folks what ``purity'' means.
    Mr. Marshall. Purity means simply the strength of the 
powder. If you have a gram of powder, for instance, if it's 71 
percent pure, that means that 31 or 29 percent of it is some 
other product, such as sugar or starch or that sort of stuff. 
Generally the less pure a drug is--the less pure a drug of any 
kind is--the less dangerous it is, and that holds true for 
cocaine, heroin and certainly methamphetamine.
    Chairman Hatch. What else does it mean, the lower the 
purity that means we're----
    Mr. Marshall. The lower the purity, that basically means 
that the traffickers have difficulty in producing a high purity 
drug, and I think that's what we're seeing here.
    Chairman Hatch. So purity means we're really in the--the 
low purity means we're making head way?
    Mr. Marshall. Exactly.
    Chairman Hatch. That's what I wanted to focus on.
    Mr. Marshall. Now, I talked about the progress in the 
Mexican area, and that's good news. But unfortunately, I think 
the progress in that area has lead to more laboratories that 
are operated by what we call the ``mom and pop operations,'' 
and these are less sophisticated laboratories, they're smaller 
laboratories, and they're generally laboratories that are 
operated by methamphetamine users. And they will typically 
produce 1 or 2 ounces of methamphetamine, enough to satisfy 
their own habit, and sell enough to get money to then do their 
next batch of methamphetamine.
    Now, the decline in the Mexican laboratories has resulted 
in an increase in the mom and pop laboratories, and 
unfortunately what that means is that there are more 
laboratories out there, and that means also that there's a 
greater risk to the public safety and there's a greater risk to 
officer safety as a result of the greater number of 
laboratories.
    What it also means is that the operators of these 
laboratories are harder to attack because, unlike the Mexican 
organization, there's really not a large criminal organization 
associated with these labs. They're usually independent 
operators, which makes it harder for law enforcement to find 
them and attack them.
    So the bottom line is that we have a lot more work to do in 
the area of methamphetamine. I'm hopeful that the 
Methamphetamine Anti-Proliferation Act of 1999 will be passed 
very soon and that will give us additional funding for law 
enforcement investigation; it will help lab clean up, help the 
law enforcement training prevention program, and perhaps most 
importantly it would ban the exchange of methamphetamine 
recipes on the internet.
    Now, turning to the other problem that we're looking at 
this afternoon; Ecstasy and the ``club drugs,'' and there are 
many of them. GHB, Ketamine, MDMA. To me these drugs are more 
frightening even than methamphetamine because they are 
literally a wolf in sheep's clothing.
    What we see in the world today, in the U.S. today, is that 
there is a perception, a decreased perception of the risk of 
using these drugs on the part of our young people in this 
country. There's a portrayal of these drugs, particularly 
Ecstasy, as a ``feel good drug,'' as a ``hug drug,'' a 
portrayal as really a harmless drug.
    I recently, for instance, saw an article in Time Magazine, 
it was actually a cover story on the drug Ecstasy, and in some 
places it was a reasonably balanced portrayal of Ecstasy. But 
there was one quote in a Time Magazine article, this is the 
mainstream press of the country, there was one quote that just 
jumped off the page at me. The quote was as follows, that 
Ecstasy, ``Appears to have few negative consequences.''
    Nothing could be further from the truth. There's a movie 
out--actually a number of movies--but there's a particular 
movie by the name of Groove that has not yet been released but 
has been received for reviews of this movie, and generally the 
reviews say that the movie is not really about drugs, it's not 
really about Ecstasy, it's about the culture of music and the 
culture of clubs and the culture of raves. But in these 
reviews, when you look down at the very end kind of in the fine 
print, the one that I have here with me today says that the 
Groove movie is rated R because, ``It includes party language 
and many, many drug references.'' And yet the movie is being 
reviewed and sold as a kind of a harmless fun-type of movie.
    Now, I'd also like, if I could, to show you a shortvideo 
clip. It's about 3 or 4 minutes long and it shows the nature of the 
recent news coverage that we've had in this country over the last 
several months, and in this clip--do we have time do that, sir?
    Chairman Hatch. Yes.
    Mr. Marshall. In this clip you will see how the rave club 
scene and the party scene, and even the Ecstasy scene, you'll 
see how they can be perceived by young people as harmless or 
even luring. But you're also going to see in this clip some 
very alarming scenes about the dangers and the dark side of 
Ecstasy.
    If we could run that video, please.
    [Videotape shown.]
    Mr. Marshall. That, to me, is a very sobering clip about 
the realities of Ecstasy. I want to point out that the heart of 
the marketing strategies of these Ecstasy traffickers is in 
fact the portrayal of this drug as a harmless drug.
    I have with me some samples of Ecstasy, and you can see 
here--I'll pass them up to you in a moment--but these pills are 
packaged in a way that they will be attractive to young people. 
They have logos such as Warner Brothers, Calvin Klein, Tweety 
Bird, Tony the Tiger, and ironically, they even have one with 
the DEA logo on them. They are clearly designed to attract 
young people.
    Now, as a part of the marketing of Ecstasy, the organizers 
of these rave parties and that sort of stuff, they package it 
in such a way that it might be attractive, not only to the 
young people but to parents as well. And the reason it might be 
attractive to parents is because there is open advertising of 
these raves as a music event, and anything that is openly 
advertised and not clandestine would give the appearance of 
something not too risky. They advertise no alcohol at these 
events, which there is not.
    They all too frequently hold these events in a respectable 
venue. I've seen one case where a rave was held at a city 
convention center. They often advertise that there's security 
at these events, which there often is, in the form of off-duty 
police officers who themselves are ill informed about what's 
really going on there.
    So parents might think that these things are a safe place 
to send even their younger kids, but I'm telling you nothing 
could be further from the truth, because Ecstasy itself, as 
we've seen in these clips, is a frighteningly dangerous drug, 
when you combine it with other of the date-rape drugs that you 
referred to, Senator, and when you combine it with the sexual 
predators that hang out around these rave clubs, it is an 
absolutely horrifying drug.
    In fact, I just saw a story right here in Salt Lake from 
Friday, June 30, about a young lady who almost died after she 
was unknowingly drugged with GHB at a club here in Salt Lake 
City, and that's an example--one more example of the 
frightening nature of this drug.
    Now, I want to close out--I'm almost done with my time--DEA 
is taking a leadership role in trying to combat Ecstasy. We 
recently concluded a nationwide investigation called 
``Operation Rave,'' and you can see here what we learned, a 
little bit about the Ecstasy traffic from ``Operation Rave.''
    We learned that it is produced primarily in Europe and 
Belgium and the Netherlands; that it is brought into the 
country primarily by European, Israeli and Russian organized 
crime. We have learned that it costs about 50 cents to a 
dollar, some cases $2 to produce a tablet. And then it sells 
retail in this country for $25 to $40 per tablet. So you can 
see the profits would be enormous.
    Now, in this particular investigation, which was 
nationwide, we seized about 620,000 tablets of Ecstasy and 
about $1 million in illegal proceeds from the Ecstasy 
trafficking organization. We're also, in July, planning to hold 
a national conference on the subject of club drugs, and we're 
going to invite a number of law enforcement people from around 
the country to this conference.
    Our purpose is to raise law enforcement awareness of club 
drugs and to devise, I think, more effective and more cohesive 
national strategies to combat these club drugs. So we are 
beginning to take action on this, and I feel like with the help 
of the Judiciary and you, Senator Hatch, and others, that 
hopefully we will be able to make some progress on the club 
drugs as we have hopefully done with methamphetamine.
    Again, I want to thank you for your support and I'd be 
happy to answer any questions at the appropriate time.
    [The prepared statement of Mr. Marshall follows:]

                Prepared Statement of Donnie R. Marshall

    Senator Hatch, distinguished members of the Committee: I am pleased 
to have the opportunity to appear before you today to discuss the 
emerging drug threats facing the youth of America today. I would first 
like to thank you personally and the Committee for it's continued 
support of the Drug Enforcement Administration (DEA) and overall 
support of drug law enforcement.
    As you are well aware, the alarming spread of illegal drug abuse by 
our youth is having a profound effect in communities throughout the 
United States. It is fair to say that the increasing use of synthetic 
or club drugs such as 3,4 Methylenedioxymethamphetamine (MDMA aka 
Ecstasy). GHB, Ketamine, LSD and methamphetamine by young adults is 
quickly becoming one of the most significant law enforcement and social 
issues facing our nation today. DEA reporting indicates widespread 
abuse within virtually every major city throughout the United States 
with indications of trafficking and abuse expanding to smaller cities 
across the nation. Perhaps most frightening is the decreased perception 
of risk that young teens have regarding the use of these drugs. Many 
mistakenly believe they are not as harmful or addictive as mainstream 
drugs.
    Of particular concern is the recent explosion of Ecstasy seizures 
and nationwide hospital emergency room mentions related to Ecstasy. 
Although available since the 1980's, its use has escalated in the 
1990's among college students and young adults, particularly those who 
participate in all-night dance parties called ``raves.'' Recent 
statistics indicate that between 1998 and 1999, past year use of 
ecstasy rose by a third among 10th graders, and by 56 percent among 
12th graders. The greatest number of MDMA users fell into the 18-25 
year old category with slightly greater than 1.4 million people 
reporting its use.
    While methamphetamine is not an entirely new problem in the United 
States, about six years ago an upsurge in methamphetamine trafficking 
and abuse began taking hold in many regions of the nation, starting on 
the West Coast, and rapidly expanding into the Midwest and Southwestern 
United States. DEA statistics indicate that in 1993, DEA seized a total 
of 218 methamphetamine labs nationwide. Current DEA statistics indicate 
that in 1999, DEA alone seized 2,021 clandestine laboratories and that 
the total number of laboratories seized by Federal, state and local law 
enforcement officers nationwide was 7,060 (note: 97% of all reported 
lab seizures were either methamphetamine or amphetamine labs). In Utah 
alone, DEA participated in the seizure of 208 clandestine laboratories 
in CY-1999. As such, due to the potential health and safety threat each 
pose to the general public, and in particular, America's youth 
population, I will focus my testimony today on methamphetamine and MDMA 
trafficking.
                                 part i
Methamphetamine nationwide
    Traditionally considered the ``poor-man's'' cocaine, 
methamphetamine is a central nervous system stimulant. Police reporting 
clearly indicates that methamphetamine addiction and trafficking has 
resulted in increased violence and severely impacted the quality of 
life in many American communities. Increasing methamphetamine 
production and abuse poses a unique challenge for drug enforcement in 
the United States. Law enforcement agencies must now face the burdens 
of additional specialized training for officers, hazardous waste 
disposal, environmental contamination, and additional public safety 
issues of fires, explosions, and poison gas, in addition to the crime, 
violence, and abuse problems typically associated with controlled 
substances.
    Until 1998, methamphetamine abuse in the United States was growing 
at a faster rate than any other illegal drug. Drug Abuse Warning 
Network (DAWN) statistics show more than a three fold increase in 
nationwide estimated emergency room admissions for methamphetamine from 
1991 to 1997. We are cautiously optimistic that precursor chemical 
controls and aggressive local law enforcement measures were the primary 
factors in reversing this trend and were the impetus for the dramatic 
drops in emergency room admissions which were noted in both 1996 and 
1998.
    There are at least three distinct components to combating the 
overall methamphetamine problem: comprehensive domestic and 
international precursor chemical control and enforcement, fighting 
organized, high volume drug traffickers and the identification and 
clean up of the growing number of smaller producing, ``mom and pop'' 
laboratories. Over the past several years, established Mexican drug 
trafficking organizations operating in Mexico and Southern and Central 
California have seized control of the illicit methamphetamine trade. 
Mexican drug trafficking organizations have the ability to exploit an 
existing, well established transportation and distribution network, on 
both sides of the border, and to illegally secure large amounts of 
precursor chemicals. Mexico based, poly-drug trafficking organizations 
have revolutionized the production of methamphetamine by operating 
large-scale laboratories in Mexico and California that are capable of 
producing unprecedented quantities of methamphetamine.
    Almost all of the ``super labs'' operating in the United States are 
located in California. Although Mexican organizations operate only a 
small percentage of the total methamphetamine laboratories seized 
nationally, these super labs produce an estimated 85% of the 
methamphetamine distributed in the United States. These criminal 
organizations have saturated the western United States market with 
methamphetamine, established their distribution cells in other regions 
of the United States, and are increasingly moving their methamphetamine 
to markets in the Midwestern and eastern United States.
    Another reason for the methamphetamine lab epidemic is the 
evolution of technology and the increased use of the Internet. With 
modern computer technology, and chemists willing to share their 
recipes, production information is now available to anyone with 
computer access. Aside from marijuana, methamphetamine is the only 
illegal drug abused by a noteworthy percentage of the population that 
an addict can produce themselves. A cocaine or heroin addict cannot 
make his own cocaine or heroin, but a methamphetamine addict only has 
to turn on their computer to find a recipe that details the chemicals 
and process needed. Many addicts have elected to produce the stimulant 
themselves.
    The growing popularity of methamphetamine has led to an alarmingly 
high number of clandestine laboratory seizures across the country. The 
number of clandestine labs (all types of illegal drugs) seized 
nationwide by DEA has increased from 306 lab seizures in Calendar Year 
1994 to 2,047 in 1999, a 569% increase. The statistics for 1999 also 
indicate that 97% of the clandestine laboratory seizures reported to 
the El Paso Intelligence Center in 1999 were methamphetamine and/or 
amphetamine labs. These labs are usually far smaller than the larger 
laboratories operated by the major methamphetamine trafficking 
organizations, but are equally as dangerous to law enforcement officers 
who encounter them.
    In 1997, DEA reported 31 fires and 11 explosions associated with 
the 1,451 clandestine drug lab seizures in which DEA participated. In 
1999, the National Clandestine Laboratory Database indicated that the 
number of reported incidents of fires increased to 64, explosions 101, 
and labs which had explosives and/or booby traps, 80. The National 
Database also revealed 877 incidents in which children were present 
during the seizure of a lab in 1999. The Drug Enforcement 
Administration and state and local police organizations also must deal 
with the dangerous and expensive hazardous waste cleanup problems 
created by clandestine labs.
    During the last two years, the national methamphetamine situation 
has changed significantly. Until 1999, the methamphetamine problem was 
increasing at a dramatic rate. The national purity level for 
methamphetamine, as well as amphetamine, has gone down dramatically in 
1999-2000. As previously stated, precursor chemical controls, the 
international ``letter of non-objection'' program, and chemical 
interdiction, combined with aggressive national and local law 
enforcement efforts, have produced positive results. The average purity 
of methamphetamine exhibits seized by DEA dropped from 71.9 percent in 
1994 to 31.1 percent in 1999. The average purity of amphetamine 
exhibits seized by DEA dropped from 40.5 percent in 1994 to only 20.8 
percent in 1999. Decreasing purity levels for methamphetamine and 
amphetamine should have some effect on the number of emergency room 
admissions and overdose deaths related to methamphetamine.
    Methamphetamine prices vary considerably by region. Nationwide, 
prices range from $3,500 to $30,000 per pound at the distribution 
level. Retail prices range from $500 to $2,500 per ounce and $25 to 
$150 per gram. Arrests in DEA methamphetamine investigations increased 
in Fiscal Year (FY) 1999, to 8,680, a 10% percent increase from the 
7,888 arrests in FY 1998, but a 41% increase over the 6,145 arrests in 
FY 1997, and a significant 113% increase over the 4,069 arrests in FY 
1996.
The methamphetamine situation in Utah
    Methamphetamine remains the most threatening drug in Utah. Mexican 
poly-drug trafficking organizations continue to dominate 
methamphetamine distribution. Methamphetamine produced in Mexico and 
southern California by Mexican nationals is readily available in ounce 
and multi-pound quantities. Utah also is a source state for precursor 
chemicals.
    Geographical remoteness in Utah creates an ideal environment for 
clandestine laboratory operations, and an increase in laboratories has 
occurred during the past few years. With this increase in 
methamphetamine laboratories, an increase in the availability and use 
of methamphetamine in Utah has occurred. Methamphetamine is now one of 
the top four drugs abused in Utah high schools.
    In 1989, the Utah legislature implemented a precursor chemical 
control bill regulating ephedrine, pseudoephedrine and iodine. These 
laws placed restrictions on the sale of various precursor chemicals. 
Over the last decade, this bill has had a positive impact on reducing 
the availability of chemicals necessary for the manufacture of 
methamphetamine. It now appears that the increased difficulty in 
obtaining precursors has caused prices of methamphetamine to rise. 
Additionally, the difficulty in obtaining precursors has caused the 
average purity of methamphetamine to drastically decrease. In FY 1997, 
average purity was 43 percent. Average purity dropped to less than 27 
percent in FY 1999 in Utah.
    Since the DEA-Metropolitan Narcotics Task Force was created in July 
1993, the number of clandestine drug laboratory investigations has 
continued to increase, making Utah the number one state for per capita 
methamphetamine laboratories. It should be noted that, in 1997, Gen 
Barry McCaffrey, Director of the Office of National Drug Control 
Policy, recognized the DEA Metro Narcotic Task Force as one of the 
finest multi-jurisdictional task forces in the country.
    The Salt Lake office was upgraded to District Office status in May 
2000. Currently, 19 Special Agents, as well as other personnel, are 
assigned to this office, with 2 of the Agents posted to duty at St. 
George, Utah. Drug Enforcement Administration personnel participated in 
the seizure of over 100 clandestine laboratories in the state of Utah 
in both 1997 and 1998, and Utah reported 208 clandestine lab seizures 
to DEA in 1999.
Congressional action
    In the last several years, Congress enacted important legislation 
to help prevent methamphetamine manufacture, to deter trafficking in 
methamphetamine and its precursor chemicals, and to encourage effective 
prevention, education, and treatment of methamphetamine abuse. The 
regulatory and enforcement framework for precursor control was 
established with the ``Chemical Diversion and Trafficking Act of 1988'' 
(Pub.L. 100-690). Twelve more chemicals were added to the regulatory 
scheme by amendments in the ``Crime Control Act of 1990'' (Pub.L. 101-
647). The first bill specifically targeting the illicit production of 
methamphetamine (and the related drug methcathinone, which has 
virtually disappeared as a clandestine product) was the ``Domestic 
Chemical Diversion Control Act of 1993'' (Pub.L. 103-200). The 1993 
amendment began to close the ``legal drug exemption'' that had allowed 
traffickers to avoid regulatory requirements by buying their chemicals 
through thousands of ``legal'' FDA-approved tablets. The bill brought 
over-the-counter, single-entity ephedrine products under DEA regulatory 
control, and permitted DEA to add other products by regulation. It also 
required registration of handlers of ``list I'' (formerly precursor) 
chemicals similar to those for controlled substances. In 1996, Congress 
enacted a major piece of methamphetamine-related legislation, the 
``Comprehensive Methamphetamine Control Act of 1996'' (Pub.L. 104-237), 
most of which became effective on October 3, 1996. The most recent 
enactment, the ``Methamphetamine Penalty Enhancement Act of 1998'' 
(Pub.L. 105-277, Div.E), lowered certain quantity thresholds for 
mandatory minimum trafficking penalties.
    The Senate Judiciary Committee, under Chairman Hatch, has developed 
landmark methamphetamine legislation, The Methamphetamine Anti-
Proliferation Act of 1999 [S.486]. This bill substantially contributes 
to national methamphetamine enforcement efforts by directing the 
Sentencing Commission to increase base level penalties for amphetamine 
so they are commensurate with those for methamphetamine, and setting 
higher sentencing thresholds for the manufacture of methamphetamine or 
amphetamine if it is determined that the criminal offense creates a 
substantial risk to human life or the environment, or if this risk is 
to a minor or incompetent person. It also prohibits the teaching, 
demonstrating, or disseminating of information on the manufacture or 
use of controlled substances to a person, knowing that the person 
intends to use this information to commit a federal crime. Furthermore, 
the bill provides for increased drug prevention, treatment, including 
medications development, and research.
                                part ii
MDMA: The drug
    Primarily illicitly manufactured in and trafficked from Europe, 
3,4-Methylenedioxymethamphetamine (MDMA), a Schedule I drug under the 
Controlled Substance Act (CSA), is the most popular of the club drugs. 
Its origins can be traced to Germany in 1912 where it was patented but 
never studied or marketed for human consumption. In the 1970's and 
early 1980's some health care professionals experimented with the drug 
in ``introspective therapy'' sessions, outside of FDA-approved 
research. DEA reporting indicates widespread abuse of this drug within 
virtually every city in the United States. Although it is primarily 
abused in urban settings, abuse of this substance also has been 
reported in rural communities. Although prices in the United States 
generally range from $25 to $40 per dosage unit, prices as high as $50 
per dosage unit have been reported in Miami.
    The drug is a synthetic, psychoactive substance possessing 
stimulant and mild hallucinogenic properties. Known as the ``hug drug'' 
or ``feel good'' drug, it reduces inhibitions and produces feelings of 
empathy for others, the elimination of anxiety, and extreme relaxation. 
In addition to chemical stimulation, the drug reportedly suppresses the 
need to eat, drink or sleep. This enables club scene users to endure 
all-night and sometimes 2-3 day parties. MDMA is taken orally, usually 
in tablet form, and its effects last approximately 4-6 hours. Taken at 
raves, the drug may lead to severe dehydration and heat stroke, since 
it has the effect of ``short-circuiting'' the body's temperature 
signals to the brain. An MDMA overdose is characterized by rapid 
heartbeat, high blood pressure, faintness, muscle cramping, panic 
attacks, and in more severe cases, loss of consciousness or seizures. 
One of the side effects of the drug is jaw muscle tension and teeth 
grinding. As a consequence, MDMA users will often use pacifiers to help 
relieve the tension. The most critical, life-threatening response to 
MDMA is hyperthermia or excessive body heat. Recent reports of MDMA-
related deaths were associated with core body temperatures ranging from 
107 to 109 degrees Fahrenheit. Many rave clubs now have cooling centers 
or cold showers designed to allow participants to lower their body 
temperatures.
    The long-term effects of MDMA are still under evaluation; however, 
research by the National Institute of Mental Health in Bethesda, 
Maryland, in 1998 directly measured the effects of the drug on the 
human brain. The study revealed that the drug causes damage to the 
neurons (nerve cells) that utilize serotonin to communicate with other 
neurons in the brain, and that recreational MDMA users risk permanent 
brain damage that may manifest itself in depression, anxiety, memory 
loss, learning difficulties, and other neuropsychiatric disorders.
    MDMA can produce stimulant effects such as an enhanced sense of 
pleasure, self-confidence and increased energy. Its hallucinogenic 
effects include feelings of peacefulness, acceptance, and empathy. 
Users claim they experience feelings of closeness with others and a 
desire to touch them. As such, because of the feelings attained by the 
MDMA user, there exists a misconception that these drugs are relatively 
safe. However, various researchers have shown that use of club drugs 
can cause serious health problems and, in some cases, even death. Used 
in combination with alcohol, some of these club drugs can be even more 
dangerous. Furthermore, MDMA's long-term psychological effects can 
include confusion, depression, sleep problems, anxiety and paranoia.
    The ecstasy drug market in the United States is supplied and 
controlled by Western European-based drug traffickers. In recent years, 
Israeli Organized Crime syndicates, some composed of Russian emigres 
associated with Russian Organized Crime syndicates, have forged 
relationships with the Western European traffickers and gained control 
over a significant share of the European market. Moreover, the Israeli 
syndicates remain the primary source to the U.S. distribution groups. 
The increasing involvement of organized crime syndicates signifies the 
``professionalization'' of the MDMA market. These organizations have 
proven to be capable of producing and smuggling significant quantities 
of MDMA from source countries in Europe to the United States. DEA 
reporting indicates their distribution networks are expanding from 
coast to coast, enabling a relatively few organizations to dominate 
MDMA markets nationwide.
    MDMA is clandestinely manufactured in Western Europe, primarily in 
the Netherlands and Belgium. It is estimated that 90% of MDMA 
distributed worldwide is produced in these countries. MDMA production 
is a relatively sophisticated chemical process making it difficult for 
inexperienced individuals to produce MDMA successfully. However, there 
are several manufacturing processes for MDMA and a multitude of 
``recipes'' that are posted on the Internet. Most of the MDMA 
laboratories are capable of producing 20-30 kilograms on a daily basis, 
although law enforcement authorities have seized some labs with the 
capability of producing 100 kilograms per day.
    Normally, the MDMA is manufactured by Dutch chemists and 
transported and distributed by various factions of Israeli Organized 
Crime groups. These groups recruit and utilize Americans, Israeli and 
western European nationals as couriers. These couriers can smuggle 
anywhere from 10,000 to 20,000tablets (2.5-5 kilograms) on their person 
and up to 50.000 tablets (10 kilograms) in specially designed luggage. 
In addition to the use of couriers, these organizations use the parcel 
mail. DHL, UPS. and U.S. Postal Service, Due to the size of the MDMA 
tablet, concealment is much easier than other traditional drugs 
smuggled in kilogram-size packages (cocaine, heroin and marijuana).
    What brings these Drug Trafficking Organizations together is the 
enormous profit realized in these ventures along with the fact the MDMA 
is not produced in the United States. Although estimates vary, the cost 
of producing an MDMA tablet run between $.50-$1.00. The wholesale, or 
first level price for MDMA tablets have ranged from $1.00-$2.00 per 
tablet, contingent on the volume purchased. This potential four-fold 
profit provides huge incentives for the laboratory owner or chemist. 
Furthermore, manufacturing laboratories can realize these profits 
without coming into contact with anyone except the first level 
transportation or distribution representatives. Once the MDMA reaches 
the United States, a domestic cell distributor will charge $6-$8 per 
tablet. The retailer then turns around and distributes it for $25-$40 
per pill. Clearly, there is a tremendous profit realized in each 
function in MDMA trafficking from the producer or clandestine 
laboratory operator to the transporter to the wholesaler to the 
retailer, then on to the consumer.
Overview of other ``Club'' drugs: An emerging epidemic
    The use of synthetic drugs has become a popular method of enhancing 
the club and rave experience. These rave functions, which are parties 
known for loud techno-music and dancing at underground locations, 
regularly host several thousand teenagers and young adults who use 
MDMA, LSD, GHB, alone or in various combinations. Users of drugs such 
as MDMA report that the effects of the drug heighten the user's 
perceptions, especially the visual stimulation. Quite often, users of 
MDMA at clubs will dance with light sticks to increase their visual 
stimulation. Legal substances such as Vicks's VapoRub are often used to 
enhance the effects of the drug.
    ``Club'' drugs have become such an integral part of the rave 
circuit that there no loner appears to be an attempt to conceal their 
use. Rather, drugs are sold and used openly at these parties. 
Traditional and non-traditional sources continue to report the flagrant 
and open drug use at ``raves.'' Intelligence indicates that it has also 
become commonplace for security at these parties to ignore drug use and 
sales on the premises. Tragically, many teens do not perceive these 
drugs as harmful or dangerous. These drugs are marketed to teens as 
``feel good'' drugs. The following is a brief summary of other selected 
club drugs.
    Gamma HydroxyButyrate (GHB) is easily accessible at rave parties 
and is currently popular among teenagers and young adults alike. 
Commonly referred to as a date rape-drug, GHB was originally used as a 
substitute anabolic steroid for strength training. GHB has been used in 
the commission of sexual assaults because it renders the victim 
incapable of resisting, and may cause memory problems. GHB costs 
approximately $10-$20 per dose and is frequently mixed with alcohol. As 
of January 2000. DEA documented 60 GHB-related deaths nationwide. 
Additionally, the Utah State Medical Examiner's Office reported two 
GHB-related deaths in the last twelve months. The drug is used 
predominantly by adolescents and young adults, often when they attend 
nightclubs and raves. GHB is often manufactured in homes with recipes 
and ingredients found and purchased on the Internet. As a result of the 
Hillory J. Farias and Samantha Reid Date-Rape Prohibition Act of 2000, 
GHB was designate a Schedule I drug under the CSA.
    Gamma Butyrolactone (GBL), a List I chemical, is a precursor 
chemical for the manufacturer of GHB. Several Internet sites offer kits 
that contain GBL, sodium hydroxide or potassium hydroxide and 
directions for the manufacture of GHB. This process is relatively 
simple and does not require complex laboratory equipment. Upon 
ingestion, GBL is synthesized by he body to produce GHB. As a 
consequence, some party goers drink small quantities of GBL straight. 
GBL increases the effects of alcohol, and can cause respiratory 
distress, seizures, coma and death. The Salt Lake City Police 
Department Sex Crimes Unit reported twelve known date rape cases 
statewide involving GBL and GHB in the last year.
    d-lysergic acid diethylamide (LSD), listed as a Schedule I drug 
under the CSA, first emerged as a popular drug of the psychedelic 
generation in the 1960's. Its popularity appeared to decline in the 
late 1970's, an effect attributed to a broader awareness of its 
hazardous effects. Over the past decade, there has been a resurgence of 
LSD abuse, especially among young adults. Adverse effects of LSD 
include panic, confusion, suspicion and anxiety. Liquid LSD has been 
seized in Visine bottles at rave functions. LSD is also sold at raves 
on very small perforated paper squares that are either blank or have a 
cartoon-figure design. Most users of LSD voluntarily decrease or stop 
using it over time, since it does not produce the same compulsive, 
drug-induced behavior of cocaine and heroin.
    As of August 1999, Ketamine, also known as ``Special K.'' was 
placed in Schedule III of the Controlled Substance Act. Used primarily 
by veterinarians as an anesthetic, Ketamine produces hallucinogenic 
effects similar to PCP with the visual effects of LSD. Ketamine is 
diverted in liquid form, dried and distributed as a powder. Price 
average $20 per dosage unit. Ketamine is snorted in the same manner as 
cocaine at 5-10 minute intervals until the desired effect is obtained.
Legislative efforts
    Ecstasy, as well as all other club drugs, have been scheduled under 
the Controlled Substances Act (CSA), Title II of the Comprehensive Drug 
Abuse Prevention and Control Act of 1970. Recently, due to the 
exponential growth and abuse of Ecstasy and its devastating and 
potentially lethal effects. Senate bill S. 2612, was introduced by 
Senator Bob Graham and co-sponsored by Senator Charles Grasley. This 
bill calls for the United States Sentencing Commission to amend the 
federal sentencing guidelines to provide for increased penalties 
associated with the manufacture, distribution and use of Ecstasy. Those 
penalties would be comparable to the base offense levels for offenses 
involving any methamphetamine mixture. The bill would also assure that 
the guidelines provide that offenses involving a significant quantity 
of Schedule I and II depressants, including GHB and its analogues, are 
subject to greater terms of imprisonment than currently in place. 
Furthermore, the bill calls for greater emphasis to be placed on the 
education of young adults, the education and training of state and 
local law enforcement officials and adequate funding for search by the 
National Institute on Drug Abuse (NIDA).
    In addition to S. 2612, a companion bill has been introduced in the 
House by Congresswoman Judy Biggert. H.R. 4553 is almost identical to 
S. 2612, except it encompasses all ``club drugs'', to include 
paramethoxyamphetamine, commonly refereed to as ``PMA''. In recent 
weeks, it is believed that ``PMA,'' an Ecstasy analogue controlled by 
DEA since 1973, may be responsible for the death of three young people 
in suburban Chicago. The three victims, an 18-year old female and two 
males, 17 and 20 years of age, are said to have frequented the same 
nightclub. These deaths are being investigated by local authorities. At 
this time it appears that the drug users thought they were taking MDMA, 
but ingested PMA instead.
    Another bill relating to club drug abuse, the Hillory J. Farias and 
Samantha Reid Date-Rape Prevention Drug Act of 1999, (Public Law 106-
172), was signed by the President on February 19, 2000. This 
legislation directed DEA to place GHB (Gamma hydroxybutyric acid) in 
Schedule I (the DEA has since done so) and placed the precursor 
chemical GBL on chemical List I.
    Furthermore, Public Law 106-172 contains a statutory obligation 
that requires DEA to establish a special unit to asses the abuse of and 
trafficking in GHB, flunitrazepem, ketamine and other controlled 
substances (club or designer drugs) whose use has been associated with 
sexual assaults. In addition, the Attorney General was directed to 
develop a protocol for the collection of evidence and the taking of 
victim statements in connection with violation of the CSA--which 
results or contributes to sexual assault, crimes of violence or other 
crimes involving the abuse of GHB and the other designer drugs. In 
addition, DEA and the FBI are obligated to develop model training 
materials for law enforcement personnel involved in such 
investigations, and make such protocols and training materials 
available to Federal, state, and local personnel responsible for such 
investigations.
Enforcement initiatives
            Operation ``Flashback''
    In an effort to target organizations and individuals that 
distribute and manufacture ``club drugs,'' DEA established Operation 
``Flashback'' in July 1997. On July 2, 1998, MDMA was approved for 
inclusion under this Special Enforcement Program. Since February 1998, 
active investigations have increased from 6 to 140, indicative of the 
increased availability, and demand for, and law enforcement emphasis 
on, club drugs. Operation ``Flashback'' seeks to achieve the following 
five primary objectives:
    <bullet> Develop prosecutable cases against individuals and 
organizations that manufacture and distribute so-called club drugs.
    <bullet> Develop intelligence links between domestic wholesale 
distributors and the foreign source of supply.
    <bullet> Identify, arrest, and prosecute violators at a high level 
of distribution, including the clandestine lab operators.
    <bullet> Establish and coordinate an overall strategy for all 
domestic and foreign investigative efforts.
    <bullet> Identify the command and control infrastructures of 
organizations that are distributing so-called club drugs.
    Furthermore, this special Enforcement Program provides a mechanism 
to enforcement components in the field to fund undercover buys, 
confidential source payments, installation of pen registers and 
activation of Title III wiretaps. In addition, it acts as a central 
depository for any and all information related to club drugs. This 
database contains information on targets, organizations, arrests, 
seizures, modes of smuggling, types of drugs and the logos/brand names 
they bear.
    Presently, DEA has several ongoing investigations into these 
trafficking organizations. One particular investigation of note was 
conducted by DEA's Special Operations Division. The Special Operations 
Division is a joint national coordinating and support entity comprised 
of agents, analysts and prosecutors from DOJ, the USCS, the FBI and 
DEA. This investigation, entitled Operation Rave, focused on an MDMA 
distribution cell that operated throughout the northeast and Florida. 
The leader of this organization, an Israeli national, was responsible 
for the distribution of approximately 150,000 tablets of MDMA per week. 
This and related spin-off investigations resulted in the arrest of 105 
defendants, the seizure of 620,000 tablets of MDMA and approximately 
$935,000 in U.S. currency. The significance of this investigation was 
the fact that it identified, for the first time, the involvement of 
Israeli and Russian crime groups in MDMA trafficking.
    In addition, DEA, in conjunction with the United States Customs 
Service (USCS) recently seized two packages containing a total of 
110,000 MDMA tablets which originated in Madrid, Spain and were 
destined for Provo, Utah. Following a controlled delivery, two arrest 
were made leading to the identification of multiple individuals in Utah 
and Spain. To date, this investigation has revealed an organization 
financed by Israeli nationals who directed the manufacture of MDMA in 
Amsterdam and its transshipment throughout Europe. During the course of 
this investigation and based upon information furnished to German 
authorities, 23,000 additional ecstasy tablets destined for Utah were 
seized in Germany.
Demand reduction initiatives
    The increasing power and diversity of drug trafficking 
organizations operating throughout the United States and abroad demands 
an equally authoritative and creative response. These drug trafficking 
organizations seek to entrench criminal enterprise in modern society; 
they attempt to lure the youth of this country into the dark world of 
drug abuse and crime on a daily basis. As such, DEA is committed to 
developing and employing multi-faceted strategies to combat both drug 
trafficking and drug abuse. With this in mind, DEA's Demand Reduction 
program was created in 1986 in response to the widespread belief that 
both law enforcement and drug prevention were necessary components of a 
comprehensive attack against the drug problem in the United States. 
Given the age of the targeted user population of MDMA, DEA has created 
a very aggressive and comprehensive plan to bring this issue to the 
attention of the American public. It should be noted that DEA's 
Operations Division has organized a club drug conference scheduled for 
the latter part of July 2000 in the Washington, D.C. area. Participants 
will include law enforcement personnel from around the world, leading 
researchers, clinicians, prevention specialists, educators, and medical 
professionals to discuss the alarming resurgence in use of MDMA and 
other club drugs.
    In addition, the Salt Lake City District Office conducts Demand 
Reduction classes approximately four times per month. These 
presentations are directed primarily at the clandestine manufacture of 
methamphetamine and the dangers and methods of detection associated 
with these laboratories.
Conclusion
    Increasing methamphetamine production and abuse poses a unique 
challenge for drug enforcement, both in Utah and throughout the nation. 
Clandestine laboratories represent a substantial health and safety 
threat to communities. The flammable, explosive, toxic, and 
carcinogenic chemicals used in the manufacturing process pose an 
immediate and long-term threat to law enforcement, fire department, and 
emergency services personnel, as well as the general public. Fires and 
explosions are a constant threat in this type of environment. Moreover, 
the threat to the environment is substantial, due to the illegal and 
unsafe disposal methods of clandestine methamphetamine operators.
    MDMA abuse, although a relatively new phenomenon, has certainly 
taken parts of this country by storm. The magnitude of the current MDMA 
problem cannot be understated. The media coverage alone is indicative 
of the impact this drug has had on the United States. One only has to 
review the dramatic increase in seizures over the past twenty-four 
months to recognize the insidious upsurge of this drug. With the 2002 
Winter Olympics quickly approaching, Federal, state and local officials 
in Utah must prepare for the tremendous influx of people into this area 
and the potential for drug abuse.
    In conclusion, DEA will continue to utilize a multi-faceted 
approach employing both prevention and enforcement strategies in 
targeting MDMA and methamphetamine trafficking and abuse. In this 
regard, DEA is working in conjunction with law enforcement officials 
throughout Europe and Israel in an effort to identify, target, 
dismantle and prosecute those organizations responsible for the 
proliferation of MDMA throughout the U.S. and Europe. furthermore, DEA 
endorsed and implemented elements of the national Methamphetamine 
Strategy that focuses on international drug trafficking groups, 
independent domestic methamphetamine operations, and rogue chemical 
companies that are responsible for the smuggling, production, and 
distribution of methamphetamine in the United States. Providing 
assistance and training to state and local law enforcement efforts, 
such as those in Utah, is vital to DEA's methamphetamine strategy.
    I thank you for providing me the opportunity address the Committee 
and I look forward to taking any questions you may have on this 
important issue.

    Chairman Hatch. We'll turn the time to you, Mr. Warner, 
appreciate having you here.

                    STATEMENT OF PAUL WARNER

    Mr. Warner. Thank you, Senator.
    Good afternoon, Mr. Chairman, and thank you for the 
opportunity to appear before the Committee. I have the honor of 
being the U.S. Attorney for the District of Utah, and I greatly 
appreciate the opportunity to testify before the Committee on 
the critical problems of drugs and related crime in Utah.
    Before I begin my specific remarks on the drug crime 
problem in Utah, permit me to say, Senator Hatch, that I 
believe that few people serving in Washington are as well 
attuned to this issue as you are, and that few have done as 
much as you have done to address it. That support is needed and 
appreciated by law enforcement here in Utah, and I believe 
around the country.
    One focus of today's hearing is the explosion of so-called 
``club drugs,'' Ecstasy, GHB, and others. About 10 years ago I 
had the opportunity to prosecute what may have been the first 
Ecstasy case in Utah. It involved a young man who was 
manufacturing Ecstasy and selling it to support his cocaine 
habit. At the time the case was a rarity, and even today, we 
are fortunate that these club drugs have not yet emerged as 
strongly as they have in other areas of the country.
    Still, the problem is real, and poised to get worse. For 
instance, my office is prosecuting an Ecstasy importation 
scheme involving a significant quantity of the drug, which 
would have supplied thousands of users. These drugs were being 
imported from Europe into the United States, through Provo, 
under a complex scheme using private carriers such as Federal 
Express, DHL, and UPS as apparently unwitting couriers. It 
appears the drugs were destined for the streets of California.
    Even though in the case of Ecstasy apparently was not 
intended to be distributed here in Utah, in my view, it is only 
a matter of time before we see increased use of these drugs by 
Utah's kids. In fact, I understand that the Utah Highway Patrol 
recently made a significant seizure of Ecstasy intended for 
distribution in Utah during an automobile stop in Southern 
Utah. This matter is now being reviewed for federal charges.
    The target age group for Ecstasy is young people between 
the ages of 16 and 25. Our children here face most of the same 
pressures as youth across the country, so it is no surprise 
that these drugs would show up here. Indeed, because Utah still 
retains much of its small-town innocence from an earlier, less 
troubled era, our youth can be particularly susceptible to 
threats from invidious ``club drugs'' that are represented as 
``safe'' or ``clean.'' My office, in conjunction with our law 
enforcement partners around the State, will aggressively 
prosecute cases involving these drugs, in an effort to prevent 
the threat from taking hold here, as have other drugs such as 
methamphetamine.
    I have been a prosecutor for almost a quarter of a century, 
and I have been a federal prosecutor for the past 12 years. 
Before the president nominated me to be the U.S. Attorney here 
in Utah, I had served in the Utah U.S. Attorney's office as 
First Assistant, as chief of the Criminal Division, and as 
Violent Crimes Coordinator for the office. Based on my 
experience, I can tell you without exaggeration that the meth 
problem in Utah today is the most serious criminal threat we 
face in the public safety and the safety of our well-being of 
our children.
    There are two key components to the meth problem in Utah. 
While I believe that these components certainly exist in other 
areas of the country that are experiencing a serious meth 
proliferation problem, they also rest on factors somewhat 
unique to Utah. The first component is the home grown problem. 
The proliferation of clandestine meth labs. Indeed, Utah has 
the dubious distinction of having the highest per capita number 
of illegal methamphetamine manufacturing operations of any 
State in the Union, and ranks among the highest in the Nation 
in the absolute number of labs.
    This part of the problem involves U.S. citizens operating 
small labs and producing comparatively small amounts of very 
pure meth. Approximately 266 such labs were taken down in Utah 
in 1999, and approximately 178 have been taken down so far this 
year. The prevalence of these clandestine labs, sometimes 
called ``tweaker'' labs, after the common term for meth 
addicts, is a function of two facts; the highly addictive 
nature of methamphetamine, and the ability of addicts to 
manufacture the drug themselves, a factor not present with 
respect to drugs such as cocaine and heroin, for example.
    As the Committee knows, meth can be made using chemicals, 
equipment, and over-the-counter drugs, all of which are fairly 
easy to get. With your leadership, Senator, as well as efforts 
in the Utah legislature, some key ingredients such as 
pseudoephedrine are now harder to get in large quantities than 
they once were. However, determined lab operators are still 
able to get what they need. For instance, a common method used 
by tweakers to obtain pseudoephedrine is to go to every store 
in the neighborhood and buy up to the legal limit, 12 grams 
under Utah law. The recipe for meth is well-known among users, 
and I believe that as the purity of imported meth has 
decreased, the incentive for users to make their own has 
increased.
    The danger these labs pose to the community, and especially 
to children in the homes where labs are set up, cannot be 
overstated. First, while manufacturing meth is relatively 
simple, most of the tweakers operating these labs are not 
exactly rocket scientists. The process involves combining and 
heating very volatile chemicals, and produces highly toxic 
fumes and residues. Second, the very nature of the meth 
addiction unfortunately ensures that the children in the 
household will be ignored and abused. Our DEA agents can tell 
you heart rending stories about addicted children found in 
appalling conditions in many of the labs they respond to. In 
fact, there have even been reports of children in preschool and 
kindergarten playing make-believe games of cooking meth.
    The second competent of the meth problem in Utah is what we 
call ``Mexican meth.'' It results in part from our geographic 
location as a convenient transshipment point. The result is a 
significant number of what we call ``pipeline cases.'' This 
component of Utah's problem, and our responses to it, bear 
directly on controlling methamphetamine proliferation in Utah 
and throughout the United States. Meth is being produced in 
massive quantities in large labs in Mexico, as well as in 
Southern California and other western States. Utah's proximity 
to the national boarder, and the convergence of three primary 
travel corridors--I-70, I-80, and I-15--within the State 
combine to make Utah uniquely situated to serve as a major 
transshipment point for this Mexican meth.
    Unfortunately, we are finding that much of the drug is 
staying in Utah and other intermountain States as well. For 
example, after an 18-month investigation by the FBI and other 
law enforcement agencies, just last week we broke up two major 
and interconnected drug trafficking organizations operating in 
Salt Lake City and Ogden. The take-down of the Olmedo and 
Sanchez drug trafficking organization, or DTO's, resulted in 
the indictment and arrest of over 25 people and the seizure of 
at least 10 pounds of methamphetamine that had been imported 
into Utah, as well as other drugs. These drugs were being 
distributed here in Utah, as well as in Idaho and possibly 
Wyoming.
    It is also an unfortunate fact that much of this particular 
component of Utah's meth problem is a direct result of illegal 
entry by criminal aliens into the United States, who then come 
to Utah. Again, as a case in point, most of the individuals 
involved in the Olmedo DTO, as well as many of those used by 
the Sanchez DTO as runners and suppliers, were criminal aliens.
    Additionally, let there be no mistake, these DTO's have no 
effect on children involved, as well. The most pernicious 
effect is in passing on the culture of drugs and lawlessness to 
another generation. And again, without wishing to prejudice 
either the investigation or the prosecution of the recently 
dismantled DTO's, an example can be found in those cases. Two 
persons in the Sanchez DTO have been charged under the Federal 
law that provides additional penalties for anyone who employs 
or uses a minor in a drug trafficking crime. The children 
involved in these cases deserve a chance to have a different 
and better life than that of drug dealers.
    Let me take just a moment to describe some of what my 
office has been doing to address both the meth and the criminal 
alien problems, which are related. As you know, Senator Hatch, 
when I took office as U.S. attorney, I established two 
prosecutive priorities. These priorities are meth and 
aggravated re-entry immigration cases. With your support and 
the support of the Main Justice, these initiatives are bearing 
fruit.
    First, I was able to obtain two new drug prosecutors, which 
allowed me to establish within the office's Criminal Division a 
new drug section. Utilizing targeted resources provided by 
Congress and allocated by the Executive Office for U.S. 
Attorneys, this section is now staffed with four attorneys, 
including two who are dedicated to OCDETF cases. Even while 
still staffing up, the results of this section have been 
evident. For instance, fiscal year 1999, we indicted 
approximately 196 defendants in about 105 drug cases. This 
represents a 65 percent increase in the defendants and 38 
percent increase in cases over fiscal year 1998. Yet the 
numbers alone do not tell the whole story. During the last 12 
months we have successfully dismantled three major drug 
trafficking organizations, including the Sundowners Motorcycle 
Club drug trafficking organization, and the recent bust of the 
Olmedo and Sanchez DTO's, which I also stated.
    As a reflection of the growing problem with methamphetamine 
in Utah and the commitment by federal law enforcement to 
attacking the problem, allow me to provide a comparison of 
defendants indicted in OCDETF cases within the last 2 years. In 
fiscal year 1998, a total of 32 defendants were indicted in the 
District of Utah through OCDETF investigations, many of whom 
were indicted for methamphetamine offenses. By comparison, 
fiscal year 1999 OCDETF investigations resulted in the 
indictment of 91 defendants, and nearly all of those defendants 
were indicted for a meth offense. So far in the fiscal year 
2000, we have obtained indictments against 53 defendants in 
OCDETF cases, including the 31 defendants indicted as a part of 
the Olmedo and Sanchez DTO's.
    The point of relating these numbers is not only to inform 
the Committee of what we are doing to tackle the meth problem 
in Utah, but also emphasize the severity of the problem. Even 
with the substantial and ever increasing number of defendants 
and cases we are handling, sometimes it seems we're only 
scratching the surface of the problem. There seems to be an 
endless supply of new cases.
    The same can be said of the second prong of our initiative, 
which involves aggressively prosecuting criminal alien cases. I 
understand that this can be a sensitive subject, and that the 
link between these cases and the meth problem may not be 
readily apparent to some. It must be emphasized that the 
criminal alien initiative is not targeted at our law-abiding 
Hispanic population. It is that population we in large measure 
seek to protect. Indeed, the code name for the investigation 
into the Olmedo and Sanchez DTO's was ``Los Chacales,'' which 
in Spanish means, ``the Jackals,'' and is a derogatory term 
within the law-abiding Hispanic community for drug dealers. It 
is my view that because of the prevalence of Mexican men, and 
the convenience of Utah as transshipment and distribution 
point, the criminal alien and drug trafficking cases are 
intimately intertwined, and that we cannot get a handle on the 
meth problem without also attacking the criminal alien problem 
as well.
    Thanks to your commitment, Senator Hatch, and the 
commitment of the Attorney General, we have added 
personnelresources in the U.S. attorney's office as well as at the INS 
to aggressively pursue these cases. Again, we're showing results. In 
calendar year 1996, our office indicted 80 criminal aliens. In 1997 194 
such cases. In 1998, 313. In 1999 over 250. So far this calendar year 
about 120 have been brought so far. The vast majority of the criminal 
alien cases we are doing involve defendants with drug trafficking 
convictions, as well as lengthy criminal histories. In addition to the 
immigration offenses, many of these are methamphetamine related cases. 
Our program has been successful so far.
    Finally, Mr. Chairman, let me briefly note a third aspect 
of our drug crime initiative, the targeting of the illegal use 
and possession of firearms by criminals. The link between the 
illegal use and possession of firearms and drug crime is well 
known, and here in Utah, we have initiated Project CUFF--
Criminal Use of Firearms by Felons--to aggressively prosecute 
these cases. I am pleased to say that both the name of the 
initiative and the resources to pursue it are a result of your 
efforts in the Senate. And let me be clear, we are not 
prosecuting law-abiding citizens exercising their 
constitutional right to keep and bear arms. Rather, we are 
targeting those felons who use guns to commit crimes, thereby 
endangering whole community and denigrating the rights of 
everyone else. I have assigned a top AUSA to Project CUFF, and 
I am adding another one next month. The initiative has resulted 
in nearly 80 cases accepted for Federal prosecution since 
January.
    In conclusion, Mr. Chairman, our drug problem in Utah is 
severe, and poses serious threats to our youth. And as some 
aspects of the problem are unique to our district, the meth 
problem--and the bigger broader drug problem--certainly is not. 
Yet, we are taking steps to tackle the problem. It is a problem 
we are tackling on several fronts, including the home-grown, 
clandestine lab, the so-called Mexican meth, and staying ahead 
of the curve on the threat posed by the new generation of club 
drugs. Your leadership, and the support of the Department of 
Justice, has given us many tools and resources to do this. I 
can assure you that whatever new resources you send us, whether 
in the form of funding or prosecutors and staff, or in the form 
of improved laws such as your meth bill, Federal law 
enforcement in partnership with our State and local colleagues 
will put them to good use to turn the corner of proliferation 
of methamphetamine and other drugs in our communities.
    I thank you, Mr. Chairman, and would be pleased to answer 
questions at the appropriate time.
    Chairman Hatch. Thank you, Mr. Warner.
    Turn to Chief Greiner.

                    STATEMENT OF JON GREINER

    Mr. Greiner. Thank you, Senator Hatch. My name is Jon 
Greiner, Chief of Police of Ogden, UT and----
    Chairman Hatch. Pull that mic just a little closer.
    Mr. Greiner. I appreciate the opportunity to talk to the 
committee about the emerging drug threats on Utah's youth. Also 
appreciate the opportunity to address this meeting today. I 
offer this introductory statement. The statement given the 
celebration of this country's 226th birthday, that seems 
troubling to me as a military veteran and one who has spent the 
last 27 years in law enforcement.
    This is the statement: The single greatest threat to Utah 
and this country's youth today is the drug problems associated 
with methamphetamines. The formula to produce that illegal 
substance is; red, white and blue, one, two, three. That's 
right; red, white, blue, one, two, three. Sounds more like a 
football quarterback call, doesn't it?
    Doesn't it seem a little bit troubling that the sick 
demented under culture of society would use this expression to 
show how easy it is to produce this substance? The issue of 
attacking our core values.
    It surprises me that Utah ranks in the top five per capita 
for methamphetamine abuse and manufacture, given our culture. 
However, you only have to meet a meth user to understand how 
completely addictive this drug--this illegal drug is. During my 
career I have seen the user, I have been to the labs from 
houses to storage lockers. They can even put one in the trunk 
of a car now, as you can see by some of the equipment you have 
up front. The worst part is the precursors to make the meth 
which can be acquired at many local grocery, hardware or farm 
supply stores. The second problem is the clean up necessary 
after the products are blended or cooked together. The last 
issue is that most citizens don't relate to this problem, yet, 
because of the culture in Utah. So things are bound to get 
worse in terms of labs and addicts before they can get better. 
Utah citizens have to recognize this villain. These addicts are 
committing crimes. They also, some of them, are getting into 
gangs.
    In northern Utah we have a strike force of narcotics 
officers that work with DEA that works with the Attorney 
General that work with the two Utah counties of Weber and 
Morgan. In their weekly report to each chief of that local 
area, more than 30 percent of the cases and arrests involve 
methamphetamine. The other troubling piece of this report is 
that a disproportionate number of the people involved in this 
activity belong to a minority class of people in the State of 
Utah, and a significant number of that minority class involved 
with the meth are undocumented citizens who belong or associate 
with local gang members.
    On June 27, 2 weeks ago, the Weber/Morgan Task Force, in 
conjunction and assistance to the FBI, arrested 16 people in 
our geographical area and served warrants where meth was 
recovered, much of which Paul outlined just previously. The 
suspects were mostly Hispanic descent, many were illegal, and 
the area of drug dealing covered several western states and had 
connections into Mexico. The total arrests from the FBI 
operation will probably approach 40 people.
    The other emerging drugs of concern are the GHB and GBL 
drugs. GHB being Gama-Hydroybutric Acid and GBL being Gamma-
Butyrolactome, both of which are drugs of choice for date 
rapes.
    In 1996 the San Francisco Bay area poison control center 
saw their average of four to six GHB increase to eight to ten. 
In July of 1996 both Los Angeles and San Francisco had reports 
of about 30 per month. Northern Utah, as is all of Utah, is 
starting to see some of these same kinds of things happening. 
It is not uncommon to hear rape victims report that they had 
gone to a party and drank something. The next thing they 
remember is the morning after and they have been sexually 
assaulted.
    We have had the rave party reports and a few reports of the 
use of the new GHB or GBL drugs, more commonly referred to as 
liquid Ecstasy. GHB's similarity to Ecstasy isuncanny. Although 
it affects users like Ecstasy, the chemical composition is not. Ecstasy 
is a relative of the amphetamines alluded to earlier. GHB is found 
naturally in every cell in the human body. It is considered a nutrient 
that enhances the sense of touch, yet GHB has a sedative effect causing 
users to go to sleep or fall into a helpless, immobile state.
    We need to become better prepared at dealing with these 
issues as they emerge. On the enforcement side of this same 
issue, the Weber/Morgan strike force has had some good seizures 
of the date rape drug called Rohypnol before it got out to the 
mainstream of user, at least in our area the last 2 years.
    Many times you hear from law enforcement our needs and 
there has been an excellent relationship between our 
congressional representatives and law enforcement. We talked 5 
years ago about problems with undocumented citizens, and you 
called a special conference in Salt Lake City to help start 
addressing that. It appears that there will be some immigration 
and naturalization officers working in Northern Utah sometime 
this year. The result of this, Northern Utah has been benefited 
from some meth grant programs that are helping us identify 
users, labs, and precursor suppliers quicker. We are working on 
getting information into the hands of parents so that they can 
see what meth and the new designer drugs are all about. I offer 
to one of your aides one of the booklets we pass out to our 
DARE graduates, at every DARE graduation, as an example of 
that. We are working on ways to make identification of 
undocumented citizens more available to local law enforcement 
through fingerprint systems. The help is coming from our 
federal representatives for which we in law enforcement are 
very grateful. Please pay attention to the diminishing amounts 
of these grants. However, the Federal Byrne Grant reductions 
will cause the scaling back of drug and gang units statewide, 
which I'm sure Camille Anthony can address from her position.
    The war is on to protect our youth. Aristotle once said, 
``The fate of empires depends on the education of youth.'' The 
key to reduced demand for illegal drugs is an educated, well 
informed citizenry that is primarily our youth and then 
everyone else in the community are aware of the real dangers of 
substance abuse. With this awareness, each of us should be able 
to make our own informed decision and educate others on the 
perils of becoming involved in drugs. Beyond that--beyond that 
the battle lines are already drawn and we need to be as 
technically and tactically proficient as we can be to meet the 
enemy head on and diminish or destroy them.
    Remember, it's as simple as red, white, blue, one, two, 
three.
    I thank you for your time today on this critical topic 
concerning our future, and I would entertain any questions that 
you may have at the appropriate time.
    Chairman Hatch. Thank you. You did this magazine up here?
    Mr. Greiner. There's a national publication we work with, a 
national vendor to have that available. Our primary goal is to 
have that available to our youth and their parents at the 5th 
grade level of DARE so that they understand what it's all----
    Chairman Hatch. I hadn't seen this before. This is the 
first one I've seen. I'm just skimming through it but it really 
covers every peril. How do you get it?
    Mr. Greiner. I'll put you on the mailing list. Actually we 
sell the ad space and the advertisers in there pay for the 
magazine so they're free to the jurisdiction.
    Chairman Hatch. So anybody--when you say ``jurisdiction,'' 
you mean Weber County?
    Mr. Greiner. Yes, sir.
    Chairman Hatch. This is really excellent, thank you.
    Mr. Wasden, we'll turn to you.
    Mr. Wasden. Thank you, Senator.
    Chairman Hatch. Try to top that.

                    STATEMENT OF ROY WASDEN

    Mr. Wasden. I can't do it. I appreciate being able to be 
here. Thank you for your leadership. We've had tremendous 
success and through your leadership we've been spurred on in a 
number of efforts in Salt Lake and continuing in the last year, 
we have worked together to build a crime reduction strategy on 
the statewide level, with that have carried forward in county 
crime reduction strategy and universal crime reduction 
strategies.
    The drug problem is the number one component of crime. The 
estimates run at least 70 percent of all crime relates back to 
drugs in one form or another. Based on that recognition, the 
resources to deal with the crime related problems must exist. 
While we've made tremendous progress with the resources and 
recognition through the U.S. attorney's office and prosecution, 
there still is a tremendous need that is not being filled and 
that needs the continued attention of filling spaces and 
completing the open positions that have not been filled in 
local and federal offices, specifically the immigration 
services.
    I don't want to spend a great deal of time and repeat what 
you've been told, other than to tell you that it is accurate; 
that there is not enough information about the synthetic drugs, 
that in fact the traditional drug scene, cocaine, heroin, and 
now unfortunately methamphetamine, is being considered more of 
a traditional drug problem, those continue. The synthetic drugs 
are not well informed to our children. As we go through the 
DARE program with our children in schools, as we inform 
children and have DARE programs of parents, clearly there's a 
lack of information from every portion of the community in what 
these threats are and how to deal with the threat. Those 
programs must continue. We will never solve the problem 
attacking the supply site.
    Unfortunately my time in Salt Lake is very short, because 
of this reason in closing my office I've not been able to write 
my remarks for the hearings today. It will be with tremendous 
anticipation that I move to a new job in California, and I 
appreciate the opportunity of having worked with and addressed 
the problems, Senator, in this format. You have been a resource 
to law enforcement in Utah and I hope that I find that as I 
move to my new position.
    Chairman Hatch. We really appreciate the service you've 
given here, we are delighted to have you here with us today.
    Mr. Morgan, you are going to be clean up here.

                    STATEMENT OF KENT MORGAN

    Mr. Morgan. Thank you, Senator. I'm used to that.
    Chairman Hatch. If you can pull that mic up a little bit 
closer, I want everybody to hear you.
    Mr. Morgan. I'm, of course, referring to at home, not in 
the office.
    Senator, my job is to supervise the State's prosecution of 
all felony controlled substance violations that occur in Salt 
Lake County. Many of the cases that Mr. Warner has referred to 
we'll be talking about, at least briefly.
    I would like to mention to the Senate that the District 
Attorney's office files over 8,600 felony charges each year. 
That amounts to just over 6,300 cases. Of those total charges, 
more than half involve charges that allege one or more 
violations of the Utah Controlled Substance Act.
    Chairman Hatch. Would you agree with the 70 percent figure, 
pretty close to it?
    Mr. Morgan. As being the----
    Chairman Hatch. Related to drugs.
    Mr. Morgan. As other crimes, I certainly would. If we have 
a crime, a violent crime for example, a robbery, the motive for 
doing a robbery is because the person needs drugs, the easiest 
way to do that is to rob a drug store. The federal, State and 
local law enforcement agencies, prosecution officers and State 
crime laboratory personnel have recently become focused on the 
illicit and clandestine manufacture of methamphetamine in Salt 
Lake County.
    A disturbing trend shows that the manufacture, sale and use 
of this controlled substance have reached alarming proportions. 
The total number of cases filed since 1994 has steadily 
increased from 1,609 felony cases to over 3,300 cases last 
year. We find that the controlled substance case load appears 
to double probably every 5 years.
    There are four major crimes filed in a controlled substance 
case. These crimes are: Distribution or Arranging the 
Distribution of a Controlled Substance; the Possession of a 
Controlled Substance With the Intent to Distribute a Controlled 
Substance; the Possession or Use of a Controlled Substance, 
also known as simple possession; and the fourth one is, 
Manufacture or Production of a Controlled Substance.
    Distribution and Possession with Intent cases comprise 
about half of the controlled substance case load, with felony 
and possession constituting about one third of the case load. 
The remaining case load is composed of a variety of kinds of 
cases, those are clandestine laboratory, forgery, prescription 
or pharmaceutical frauds, things of that nature.
    Most disturbing are the statistics showing that prosecution 
of clandestine methamphetamine laboratories are increasing at 
an appalling rate and that methamphetamine use is replacing 
cocaine as a drug of choice by drug abusers in Salt Lake 
County.
    In 1994 through 1997, the Salt Lake District Attorney's 
office prosecuted between 17 and 23 clandestine laboratory 
cases each year. In 1998, this number increased to 91, and 
doubled to 161 in 1999, and that's out of the 200 some odd in 
this case, you can see quite a few of those are here in Salt 
Lake County. This trend continues to the first half of this 
year. Other sorts of violations just don't show the same 
increase in the rate of commission near that experienced with 
methamphetamine related crimes. The prosecution of 
methamphetamine labs is a complex process requiring 
considerable time and resources. There are no local resources 
to fund any additional county prosecutors. The District 
Attorney's office has had to resort to funding from the Salt 
Lake City Police Department for a one half time attorney 
position, and has been placed in the position of recruiting 
assistance from the Utah Attorney General's Office in order to 
be able to prosecute these offenses with any degree of the 
attention that is merited for these kinds of cases.
    A clandestine lab endangers not only the person and 
confederates conducting the illegal manufacture of the 
methamphetamine, but endangers innocent individuals in adjacent 
and surrounding buildings who are exposed to the carcinogens, 
dangerous chemical fumes and the risk of explosion. This danger 
continues long after the lab is discovered and is dismantled. 
It is not unusual to find the infant children and toddlers of 
the illegal meth lab cooks crawling through the glassware and 
chemicals such as red phosphorus and lye that have been used to 
manufacture the methamphetamine. These children are taken to 
the hospital to be decontaminated and given an examination. One 
case that comes vividly to mind left the children in a state 
with clumps of hair falling out of their heads and sores 
covering their little bodies. Property values plummet when 
homes in the middle of nice neighborhoods are condemned with no 
money available from the criminal or any other resource to do 
the necessary clean up. Trash from methamphetamine manufacture 
has been dumped in the dumpsters of elementary schools and in 
cemeteries.
    The harmful effects of methamphetamine abuse have long been 
established by the medical and legal community. It is 
distressing to observe that those who have been convinced to 
abandon the recreational abuse of cocaine, are now turning to 
the cheaper and more plentiful supply of locally produced 
methamphetamine. While 40 percent of controlled substance 
felony violations involve the illegal distribution or use of 
cocaine, felony crimes involving the legal manufacture, 
distribution or use of methamphetamine now exceeds 32percent of 
the controlled substance case load in the District Attorney's office. 
Heroin is involved in 7 percent of felony controlled substance 
violations, while marijuana and other kinds of drugs make up the 
remaining 21 percent of the controlled substance case load. A 
methamphetamine charge 10 or 15 years ago was a rare case indeed.
    A more recent occurrence in drug prosecution has involved 
the frightening use of so-called ``club drugs'' known as 
Ecstasy and allegations of the use of GHB, the ``date rape'' 
drug, because law enforcement is presently configured to 
intercept adults selling contraband controlled substances to 
adults in rather open and obvious markets, and it is not in a 
position to pose as an ``addict'' or teenager seeking thrills 
in a ``rave.'' The ability to prosecute what is now becoming 
wide-spread abuse has been slow in coming.
    The Salt Lake County District Attorney's Office has 
prosecuted only five MDMA, or Ecstasy cases, three of which 
were filed just last month. This does not mean that only a few 
violations are occurring in Salt Lake County. For example, this 
past year a local investigation, Mr. Warner referred to a local 
investigation out of our office that resulted in the seizure of 
250,000 Ecstasy pills that were shipped from Spain to Provo, 
UT. It was learned that these pills were legally manufactured 
in Holland, and were destined for illegal distribution in the 
United States. This investigation is continuing.
    The greatest difficulty in combating drug violations is to 
apply resources in an effective manner. The availability of 
Federal funds for direct prosecution efforts would be most 
useful. Federal prosecutions often depend on the ability of the 
State to obtain an underlying conviction. As I understand the 
bill, funds would be made available to combat trafficking in 
methamphetamine to hire not only law enforcement personnel, but 
to allow for hire new prosecutors, lab technicians and 
chemists. I applaud those efforts, and remain available to 
answer any questions you may have.
    Chairman Hatch. Thank you so much.
    Chief, I wonder if I could get you to just step aside for a 
minute. Sherryl Bigelow, a mother of a methamphetamine addicted 
teenage daughter, is scheduled to testify on the second panel, 
but she has to leave at 2:30 p.m., so I think--I think I'll 
take her testimony at this time because her testimony is 
something I think that will be beneficial to all parents and 
children in the audience and throughout the State. So I'd like 
to give her that chance now. I'd like you to come right back up 
so I can ask some questions of you.
    Mrs. Bigelow, we'll take your testimony at this time, if 
you pull the mike close to you.

   STATEMENT OF SHERRYL BIGELOW, MOTHER OF A METHAMPHETAMINE 
                   ADDICTED TEENAGE DAUGHTER

    Mrs. Bigelow. Thank you for accommodating my schedule.
    Chairman Hatch. Pull that even a little bit closer. I know 
it's hard.
    Mrs. Bigelow. As I've sat here and listened to these 
gentlemen give statistics and facts, I see the lab up there, 
it's just been very difficult because this is about my 
daughter. And while I told my story many times, it's always 
difficult.
    One of the saddest things of all to me is I'm not alone. 
There are thousands and thousands of other mothers who have 
sons and daughters that they love who have been taken away from 
them because of methamphetamines.
    My daughter is 19 now, and briefly I will tell you how she 
got started. This is what I'm aware of. When she went into 
seventh grade she had straight A's, she was a great student, 
had a lot of enthusiasm for sports and friends and animals. She 
came from a very typical home. My husband and I are still 
married after 24 years. Yesterday our oldest daughter entered 
the MTC, began serving a mission for her church. We're active 
in our church. I have four children, two cats and a dog. Very 
typical--typical family.
    Come eighth grade we started seeing a lot of red flags. Our 
daughter's clothing changed, her friends changed, she had a 
hard time going to school, didn't want to go to school, she had 
mood swings and we just assumed it was hormones and adjusting 
to middle school, and I immediately got her into some 
counselling. And our pediatrician, who is wonderful, directed 
us to some very good counselors.
    They diagnosed my daughter as having manic depression 
disease and being anorexic. We went into counselling for 3 
years. During the 3 years she had a couple of suicide gestures, 
both times was taken to the hospital, neither time was she 
tested for drug use. At no time during the 3 years of our 
intense counselling did a counselor say, this could be drugs, 
this could be meth. Couple of times I suspected.
    When she'd go into the pediatrician for kidney and liver 
tests for the anorexia, I asked if she would drug test her. And 
they couldn't drug test her without telling my daughter. My 
daughter's also very bright and she knew whenever she went into 
the doctor, she would just not use for three days before she 
got to the doctor, in case the drug test happened. So all of 
the drug tests that were done came up clean. When she applied 
for a job she didn't use for a few days before the job drug 
testing, and again it came up clean.
    So I assumed that it was the manic depression disease and 
being anorexic, and tried other things such as lettingher live 
with an aunt and uncle in Seattle for a summer. Nothing helped. I 
didn't know what else to do. We were at the end of our rope.
    Our darling daughter became angry, she became violent, she 
had no desire to go to school, she was failing classes. I 
assume when she was there, when I did get her there, she left 
as soon as I dropped her off or I found out later that she 
would use in the restrooms at the high school.
    At the end of her junior year I just started checking into 
places that deal with troubled teens or rehab, but as far as I 
knew my daughter was not drug addicted. We were just looking at 
the troubled teen issue.
    One place I felt very comfortable with, my husband went 
with me because it was so expensive and our insurance wouldn't 
cover anything and we could--just didn't know what else to do. 
So we went and I had my husband with me and we asked several 
questions, and finally they brought in a couple of girls that 
were in the program. And there were 50 girls at the time and 
they pulled in two girls who I'd never seen or met before, and 
as we told our story they were convinced that she was using 
drugs, my daughter was. But I still had no proof that she was.
    I didn't know what else to do, and we left the room and we 
were excused and said thank you for coming, Mr. and Mrs. 
Bigelow, and one of the girls put the names together and knew 
my daughter, and told us how involved our daughter was in 
crystal. And to tell you how naive I was, I couldn't even 
figure out what they meant by crystal. I'm thinking the little 
things that shimmer in the light. I'm going, oh, she doesn't 
have crystal in her room. Didn't make any sense to me until 
they put the word ``meth'' with it, and everything--everything 
was clear. Weight loss, not being able to sleep at night, the 
suicide gestures, the mood swings, the not going to school, the 
violent temper. Everything was so clear to me.
    Needless to say we had her in this rehab for 11 months. She 
has been out just a little over a year now. She did very well 
for the first few months and then started using again. She's 
19.
    While she was in the rehab we found out she had diabetes 
and also heart damage. She's not living at home, a couple of 
reasons; one is that she knows as long as she's using she can't 
be at home. She has two younger brothers and I don't want the 
influence of her use and the friends that she hangs out with, I 
don't think are healthy for my other children. I don't want 
them at my home. Plus it's really hard to live with a meth user 
when they're having a mood swing and are violent and angry and 
hateful.
    I don't know where she is. When she calls me it's from a 
pay phone or a friend's cell phone. I hear from her about once 
a week. If it goes longer than that I start calling police 
stations and hospitals to see if she's OK.
    The most frustrating thing we've been through is having no 
where to go financially with this. No help from insurance. And 
now that she's 19, I can't put her in another rehab. She's on 
her own. I hope that when the time comes that she's arrested 
that we can work out some kind of a deal to get her to drug 
court or something, because the only time I've seen her really 
humble is when she's out of her element, and I think if she 
were in a jail, I think that would be a really appropriate 
place for her to be humbled and want to change her life around.
    It has been so difficult for our family, for her brothers, 
for her family unit. She isolates herself from us. She didn't 
go with us to the MTC with her sister. And my daughter told me 
once, it feels like she doesn't have a sister. She has two 
brothers and her parents.
    My daughter is two people. She's the person who has the 
values of our family, who is kind hearted and loving; and then 
there's our daughter who's the meth user, and they are 
completely opposite as night and day. I miss my sober daughter 
and I fear for my drug addicted daughter.
    I will be happy to answer any questions before I leave.
    Chairman Hatch. Your testimony is very important because a 
lot of people don't realize--a lot of people in Utah don't 
realize--the tremendous difficulties that we have in this State 
from meth use. And these are descent kids that get sucked up 
into it, and next thing you know they're lost. Like you say, it 
completely changes their personality, it completely ruins their 
lives. I can't tell you how much we appreciate your willingness 
to come and tell us about this, because hopefully parents all 
over the State will start to realize that this is a real menace 
to our State, and not just here but all over, and I applaud 
your courage and welcome your desire to help other families 
recognize the signs of drug abuse and addiction, so that's 
important.
    You've listed a number of these signs, telltale signs 
parents should be looking for. I'd just like you to just take a 
minute again and list some of the signs that suddenly you 
realized amounted to methamphetamine, and then I'm going to ask 
these law enforcement people a little bit about it so everybody 
in Utah can understand this is not some little insignificant 
problem.
    Mrs. Bigelow. The first sign that we saw was change in her 
clothing, from being kind of the cute stylish look, she was 
wearing baggy clothes, really baggy T-shirts and pants. The 
second sign was the music that she listened to became hard 
rock, rapping gang kind of music, is what I call it. Then we 
saw the grades fail. Apparently she was smoking and using 
alcohol and marijuana for about a year before the grades fell.
    Chairman Hatch. Before she started on meth you say?
    Mrs. Bigelow. Well, it was probably even 2\1/2\ years 
before she started on meth. She escalated to that.
    Chairman Hatch. People don't realize, they take marijuana 
and think it's really not that bad a drug, but the fact of the 
matter is, it is a gateway to other drugs.
    Mrs. Bigelow. And so is tobacco and alcohol with kids who 
grow up in a family where that is not used, and so we looked at 
tobacco and alcohol as gateway drugs also for her in her 
situation.
    After the grades started failing the friends changed, and 
then she would want to be gone for sleep overs. She'd leave on 
Friday or Saturday night for a sleep over, and we would say, 
you know, it's your turn to have friends over at our house. But 
she never wanted to be at our house, that was a problem. We 
found out later, we get a lot of honesty when you're in rehab, 
that when we would drop her off at a friends or she'd say she'd 
be at a friends, she'd call us at 10 or 11 p.m., caller ID 
would show that's where she is, but she would immediately leave 
and be somewhere else for the entire night. When we would pick 
her up in the morningshe would be where we dropped her off at. 
So we had no idea that's what was going on. But not wanting to be at 
home.
    She refused to go on vacations with the family. We'd have a 
vacation planned and she would refuse to go. That should be a 
sign. They can't be away from their drugs that long, plus 
they're not comfortable around the family, they have to hide 
things somewhere.
    Then getting her to school was a real challenge. She would 
want to sleep and it was tough getting her out of bed. It's 
another thing that was interesting to me that teachers didn't 
pick up on it a little more or have a suspicion and call and 
say, hey, we think there's a problem. But her school attendance 
was crummy, her grades went from A's to B's to C's to D's then 
just completely failing.
    She was nonfunctioning. Suicide gestures, we had her in and 
no one drug tested her in the emergency room, and both times I 
assumed she was high. Suicide gestures should be a red flag.
    Arguing with the family, not getting along with people she 
used to get along with. Violent outbursts came later.
    One friend of mine the other day said, I see all these red 
flags but I keep waiting for one more before I know for sure. I 
keep waiting for one more. I wish that I would have known when 
she was in eighth grade or seventh grade instead of when she 
was 17 going on 18. I think we would have stood a better chance 
of getting her off if I had more time.
    Chairman Hatch. This has been very helpful, and one of the 
problems you're having is--you've had is getting the proper 
type of treatment if you don't have the resources to be able to 
pay for it. That's one reason we passed the methamphetamine 
bill, my bill last year got through the Senate, we still 
haven't got it through the House. There's millions of dollars 
in there for rehabilitation and treatment programs, and in fact 
the justice bill was held up on one issue, the gun issue. 
Recognize that we had more money for treatment in that bill 
than we do for law enforcement, although we have an adequate 
amount for both. And it's all got caught up in politics rather 
than doing what's right.
    But to make a long story short, you've been very helpful to 
us here today and to parents all over this State, and I know it 
takes courage for you to do this and we know it's terrible to 
have to relive it, but you're helping a lot of people here 
today, I just want to thank you personally. I think we promised 
you'd be able to go by 2:30 p.m., and we better let you go.
    Mrs. Bigelow. OK. Thank you.
    Chairman Hatch. Chief, if we could get you back. Thank you 
very much.
    Now, Mr. Marshall, you know, the administration has pointed 
out that we've had a 13 percent decrease since 1997 in drug 
abuse among teenagers, but that kind of hides the problem. For 
instance, use among teenagers since 1992 has increased 129 
percent for marijuana, 80 percent for cocaine, 100 percent for 
both crack and heroin.
    Additionally, the perception of youth drug use is confined 
to our Nation's urban areas is proven to be mistaken. According 
to a recent report funded by the DEA on illegal drug use among 
teens, it's notably higher in rural America than in urban and 
suburban areas. If we look at the map we had up there, it looks 
like the meth problem is primarily from the Mississippi River 
west, at least as far as methamphetamine lab shut downs go, but 
it's moving rapidly towards the east. Years ago it was 
basically just in the west, and it's just a matter of time 
before it engulfs the whole country.
    Now, the report of the DEA found that eighth graders living 
in rural areas as compared to eighth graders is urban areas, 4 
percent have tried amphetamines, including methamphetamine; 30 
percent are more likely to use cocaine; 30 percent are more 
likely to smoke marijuana; and 83 percent more likely to use 
crack cocaine.
    Now, this is particularly troubling to me and my 
constituents from the mostly rural State of Utah, and we're 
having lots of problems out here now. What do you think 
accounts for this drastic increase in rural drug abuse and what 
is your strategy for helping to bring this down or bring these 
numbers down, Mr. Marshall?
    Mr. Marshall. I think really a couple factors account for 
it. Number 1 is the ease of communications and information; 
perhaps the internet, perhaps just general communications in 
our country. People are better informed all over the country 
about what's going on; therefore, I think that people in rural 
areas who were not many years ago when I was a child, for 
instance, just not exposed to that sort of stuff.
    I think that the modern world has made our society more 
mobile and that sort of stuff, but I think more importantly, 
Senator, we're seeing in the drug world that the drug 
trafficking organizations themselves are becoming more 
aggressive at marketing their products, and I'll give you some 
examples of that.
    The Colombian groups, for instance, when they got into the 
heroin market, they began selling heroin, a kilo of heroin with 
every 500 kilos of cocaine as a condition of selling the 
cocaine to their established customers, and so those customers 
would then take the heroin, which at the time of a new product 
for the Colombian drug dealers, and they would have to create 
new markets for it.
    We've seen the Mexican drug trafficking organization, 
Mexican based drug trafficking organization, we've seen them 
actually try to create new market for methamphetamine, and 
that's what has accounted for the spread of methamphetamine. 
But most key is that a number of years ago in the smaller areas 
and in Salt Lake City, for instance, probably if a person 
wanted to introduce drugs into this community or Tyler, TX near 
where I grew up, there would have to be someone in that 
community that could reach out and know a section in Los 
Angeles or Houston or New York or Miami, you know, in order to 
bring drugs into these communities.
    What we see in today's world is that the drug trafficking 
organizations themselves are seeing opportunities to market 
their poison and they're actually moving their own organization 
representatives into many of these smaller and mid size cities, 
and they're consciously attempting to create new markets in 
these places. They feel like in a smaller place there might be 
less of a law enforcement threat, they feel like there might be 
less awareness, might be less vigilance against the problem, 
and I think they're consciously marketing this.
    Now, as far as DEA strategy. We're trying to increase our 
presence in smaller places. For instance, we've increased our 
presence in Salt Lake, we've recently opened an office in St. 
George, we would like to open an office in Ogden, we want to go 
in such places in the country asLufkin, TX and Tyler, TX and 
places like that with the presence, and we are submitting, once again, 
in budget year 2002 a Domestic Enforcement Initiative that would 
increase the number of agencies that we have on our payroll and will 
allow us to do that.
    Now, other things that we're doing, obviously we've talked 
a lot both over at the DEA office and here to a lesser degree, 
about law enforcement cooperation. And I think that DEA and 
federal government need to serve as catalyst to protect law 
enforcement cooperation, to promote intelligent sharing, to 
promote not a federal solution to these problems, but a 
national solution where we can all work better together.
    Chairman Hatch. We're happy to have you as the new leader 
of the DEA. You have the right idea, just exactly--you have so 
much experience, like I say, you're the first one who's come up 
through the ranks to become head of the DEA, and that's pretty 
impressive.
    Mr. Warner, you and I have worked on a couple of problems 
here. Tell the folks here in the audience how easy it is to get 
off of methamphetamine.
    I've put that in a sarcastic way, haven't I?
    Mr. Warner. I was going to say I wish that it were easy to 
get off methamphetamine.
    Our experience is not dissimilar to what Mrs. Bigelow 
described with her daughter's relapse. We have seen time and 
time again defendants in our criminal justice systems who are 
basically meth addicted and they're in our system and they're 
coming back to our system because they have been in both the 
criminal justice system as well as rehab, sometimes 
incarceration, sometimes in a private facility, but--and I 
don't have statistics----
    Chairman Hatch. How many years does it take to be able to 
rehabilitate some teenager that's been on meth, or anybody else 
for that matter?
    Mr. Warner. Well, in my experience just around 3 years 
because----
    Chairman Hatch. That's if you use an intensive Federal 
rehabilitation program?
    Mr. Warner. That's right. In terms of us seeing people that 
actually can successfully lick the problem, and obviously 
individuals differ, but we're talking long-term intensive.
    Chairman Hatch. And a lot of money.
    Mr. Warner. And a lot of money.
    Chairman Hatch. Do they completely lick the habit in 3 
years?
    Mr. Warner. I don't think----
    Chairman Hatch. The desire for these type of drugs?
    Mr. Warner. Obviously I'm a prosecutor, not a medical 
doctor. But my experience has been that's something they'll 
deal with the rest of their lives. Psychological addiction, 
even if they meet and beat the other, these are people we see 
in our system that are fighting this addiction for the 
remainder of their lives.
    Chairman Hatch. Doctors tell me you never get rid of the 
desire, you're just able to handle it better after you go 
through a true rehabilitation. Is that your experience, the 
rest of you? You're all nodding your heads yes.
    Let me ask you, Chief and Roy and Kent, as I mentioned in 
my opening statement, most Utahns know methamphetamine is a 
horrible destructive drug. I'm not sure that's a correct 
statement, some Utahns, not all. Among methamphetamine users 
there are innocent children and family members who do not use 
methamphetamine. You've mentioned getting parents who have set 
up a lab such as this in their home and they have little 
children addicted to methamphetamine, and that's happening all 
the time here in Utah. Am I wrong on that? You're all saying 
I'm not, I'm right.
    Can you please explain to the folks here, everybody who is 
interested in this, what kind of damage you've seen to the 
children, spouses and neighbors of people who produce 
methamphetamine in their homes.
    Chief and then Roy then Kent.
    Mr. Greiner. We're having a significant number of children 
that become instituted in foster care programs that are 
becoming what we, not affectionately, refer to as drug babies. 
Even my secretary who really loves children has found that more 
and more children that she picks up and helps in the foster 
care program are a result of these kinds of environments. 
They're children of people who are involved in the drug 
culture. They bring the product into their homes. It's so easy 
for them to make it any more, particularly the methamphetamine. 
But by accident they're getting themselves exposed, or if not 
procuring the life cycle of birth.
    It's a real problem and we're getting to the point where 
we're being just like big cities in rural Utah. We're getting 
those drug addicts as children who have, through no consequence 
of their own, been exposed. And that's just increasing every 
year.
    Chairman Hatch. Anybody else care to entertain that?
    Mr. Morgan. Why don't I. One of the consequences that 
you'll see is the labs set up----
    Chairman Hatch. You need to pull that up.
    Mr. Morgan. Thank you, Senator. When you see a lab put 
together, a meth lab, what they'll do is rent a home in a nice 
neighborhood; it's conceived from the police, everybody knows 
criminals aren't in our neighborhoods, and over a period of 
time cook whatever meth they need. They sell the 
methamphetamine and then usually about 3:00 in the morning on 
Friday we'll ruin their party and serve a search warrant. 
That's not the end of the game. What happens at that point is 
the drug enforcement agencies, the law enforcement agencies 
will take out, along with the State crime lab, any of the 
contaminated materials and chemicals that are used to directly 
make the methamphetamine. What's left behind is all the 
chemicals that were used that are now seeping into the walls.
    Chairman Hatch. They're highly toxic.
    Mr. Morgan. They're toxic carcinogens. They're now no 
longer explosive, but they stay in the walls and cause cancer 
and all kinds of problems.
    Chairman Hatch. Explosive. These things being set up, that 
is explosive?
    Mr. Morgan. While it's cooking, it's a bomb.
    Chairman Hatch. Bomb waiting to go off.
    Mr. Morgan. Right. These common chemicals like lye, red 
phosphorus, iodine, things of that nature, themselves in small 
amounts are very harmless. When you concentrate them and the 
leftover chemicals after the cooking process is going to be 
permeating off this room. We take the meth cooks to jail, DEA 
goes back to what they're doing, and the rest of us go back to 
what we're doing. Then the landlord shows up, and the landlord 
now has a multi--tens of thousanddollar bill he's going to have 
to do to clean the place up to even rent it, much less sell it to 
somebody else.
    In the meantime, he can't do anything because he doesn't 
have $30,000 in his pocket, and that home just sits there. It 
sits there for years at a time waiting until somebody will come 
in and take the loss and clean the place up so they can sell it 
to somebody else.
    It's right in the middle of the neighborhoods where we live 
and all the other property values around this house go down as 
well. That's just the economic consequences. And that's in 
addition to the human suffering.
    Mr. Wasden. Senator, Kent describes a real problem. Then 
there's the unscrupulous landlord who may well not clean it up 
and rent the property. The meth department and Salt Lake County 
are taking a strong role in becoming very involved as we close 
labs in determining and setting standards about how those 
properties need to be closed and made safe for the community. 
And that's an emerging problem.
    A couple numbers I want to give you. In February 1999 the 
meth and drug initiative, we've taken 155 children out of homes 
of--we now do a hair test on those children to see what is in 
their system. A long term hair test allows a longer period to 
review. Thirty-seven percent test positive for methamphetamine 
and will go through the withdrawal and have that on board as a 
dependent drug thing they'll have to deal with.
    Chairman Hatch. This is shocking when you think about it, 
but 2 years ago Utah was the third largest methamphetamine shut 
down State in the union. Where are we ranked today in the year 
2000, or even 1999, do you know?
    Mr. Wasden. In the number of lab shut downs, I think number 
one.
    Mr. Warner. Per capita we're probably at the top or near 
the top in terms of raw numbers. I heard around number nine in 
terms of just the raw numbers.
    Chairman Hatch. We're at the top or near the top for 
methamphetamine lab shut downs. If that doesn't tell us 
something, we don't know what will.
    Did you have a comment on that, Donnie?
    Mr. Marshall. I was just going to possibly get the chart 
back up, but I believe it is eight or nine or something like 
that. I know that number one is California and----
    Chairman Hatch. Compared to millions of people. If you take 
a per capita we're right in there.
    Mr. Marshall. I haven't done that kind of comparison. We'll 
do a little research on that and get you an answer for the 
record. And even looking at raw numbers, see Utah is one, two, 
three, four, five, I only see about five or six States that 
have higher than Utah.
    Chairman Hatch. It's shocking because this is a great 
State, we have great people in this State, very family 
oriented. But here we have one of the major methamphetamine 
shut downs of the States in the Union.
    We're running out of time and I want to get the second 
panel on, just want to ask just a little bit more here about 
club drugs from all of you, and then I'll submit questions in 
writing so we can make a record. If you could answer those in 
writing I'd sure appreciate it.
    But as we've heard about recent use, the highly potential 
toxic so-called club drugs they're designing, such as Ecstasy 
and GHB, that teenage use is soaring, it's out of control.
    Now, we have also been told by Utah law enforcement the 
problem is going on in Utah. Many teens do not perceive these 
drugs as harmful, as you noticed on the television clip that 
Mr. Marshall showed. They don't think of them as harmful or 
dangerous. They're using them at all night dance parties called 
raves, which occur every weekend across the country, including 
here in Salt Lake City. And indeed between 1998 and 1999 use of 
Ecstasy among twelfth graders increased by 56 percent and use 
among tenth graders increased about 33 percent. That's just in 
19--between 1998 and 1999.
    And while GHB has received recently more negative attention 
due to the several teen deaths attributed to its ingestion, it 
also remains ubiquitous or pervasive at these parties.
    Now, if each of you could just quickly respond to the 
following questions: Are you in fact seeing an increase in 
these club drugs, and if so what action is DEA and local law 
enforcement--what action are you taking to target these new 
drugs that are apparently being marketed to teens, and are law 
enforcement agencies working together to address the drastic 
rise in importation of Ecstasy, and last but not least, are 
these drugs being manufactured here in Utah, these club drugs, 
or are they primarily being imported from elsewhere or from out 
of State? Now, if the drugs are being imported into Utah, where 
are they coming from. That's a lot of questions, I thought I'd 
ask them all. Start with you, Mr. Marshall.
    Mr. Marshall. Let me address each of those. With regard to 
increased use. Absolutely we are seeing increased usage, not 
only in Utah but nationwide. I think that it is attributed to 
the fact that there's a lesser perception of risk of these 
drugs among teenagers, and I think that these drugs are being 
portrayed in the media and in movies on the supernet as 
harmless drugs.
    What are we doing about it? We have very recently, and I 
say very recently, going back about a year when we began to 
notice this as a--just a mushrooming problem, we actually 
headed up an investigation that targeted what we perceived at 
the time to be the biggest Ecstasy importation ring in the 
country. That was Operation Rave, and I referred to that in my 
statement so I won't repeat the results of that. But what we 
found was that in fact Ecstasy is being manufactured primarily 
in Belgium and The Netherlands, and it's being brought into 
this country by European, Russian and Israeli organized crime. 
We have seen a few instances of Ecstasy being manufactured in 
the United States.
    Now with regard to the other----
    Chairman Hatch. The Netherlands have become central because 
they have a wide open drug use. In other words, it's legal to 
use drugs.
    Mr. Marshall. Tremendous problem. They refer to it as a 
great experiment, how successful it is, but the surrounding 
countries----
    Chairman Hatch. I've had top law enforcement from France 
and the other surrounding areas say it's a cesspool there and 
it's affecting all the other nations. I don't mean to malign 
the Netherlands, but it's a dog gone mess, and now you're 
saying a lot of that mess is coming to our country because they 
allow the making of these drugs in that area.
    Mr. Marshall. No question about it.
    Now, what should we do to combat Ecstasy and these other 
drugs? Number 1, greater law enforcement and public awareness, 
and we're starting a campaign with the DEA to do that. The 
first step of that is a national club drug conference. Second, 
we need to have more law enforcement cooperative efforts 
against it. I think third we need to educate the public, 
teenagers and law enforcement as well as ourselves.
    I've got to tell you, many people in law enforcement are 
not yet aware of this problem, and they see these raves and 
they see the clubs and they simply don't realize what's going 
on there and what they're seeing, and I think we can do a 
better job and have started doing a better job focussing that 
kind of attention onto it.
    Chairman Hatch. Thank you. Anybody else care to comment?
    Mr. Wasden. Quickly, Senator. We're seeing the increase 
where there's raves, the drugs are--we have ongoing 
investigation. We've made the club drugs part of our initiative 
with the DEA and we just lack resources. We do not have the 
resources to--it's a whole new problem. We've had to have 
legislation passed in Utah recently that's gone into effect, 
and so these things are an emerging problem that we will need 
resources on and we need just a lot more help.
    Mr. Warner. Senator, I want to emphasize, I agree with all 
that's been said here. Unfortunately we in law enforcement and 
prosecution will never successfully, as has been stated, 
prosecute the drug problem out of business.
    It is a community problem. It is a society problem, and 
it's one that all facets of society has to come together on its 
education aspect is so critically important, because by the 
time we see the problem, you know, barn doors are open and the 
horses are gone and we see the unfortunate results. But the 
reality is many, particularly on these club drugs, it's really 
going after our youth, one of the most volatile segments of our 
society, and awareness and education have got to be an 
important part of that.
    Chairman Hatch. Very susceptible to that type of youth 
activity.
    Mr. Warner. Absolutely.
    Chairman Hatch. I happen to like our mayor in Salt Lake 
very well, but he's a little bit--he's disappointed in the DARE 
program, which is--do you have any advice on that, because I've 
always be a supporter of it, but you know, I don't--I'm not 
positive how well it's working. Mr. Wasden, you mentioned----
    Mr. Wasden. The DARE program has undergone criticism and 
some may have been appropriate. It's important to look at the 
agenda of the research and look at all the research if you're 
going to evaluate DARE, as well as recognize DARE is trying to 
move into the future.
    We have a long-term plan clearly focussed on young kids, 
elementary, junior and high school, and even into college, with 
information. And if that information isn't available, they'll 
go to the club when they're old enough and be offered the drug 
and not know about it and experiment, I mean, the information 
has to be there and available, whether through DARE or another 
program, we have to have the education.
    Chairman Hatch. Well, I don't know what to do. I've been a 
strong supporter of DARE and I don't want to ignore our mayor, 
because he understands this area and is very concerned about 
it. So it's my impression that it's a program that's been run 
for a few years, but it really is still just starting to 
generate what needs to be done.
    Is it making headway?
    Mr. Morgan. Let's keep in mind the people using club drugs 
aren't 18-year-old drug addicts on playgrounds near the corner. 
It is the 14-year-olds that are the people who are taking the 
drugs. And there is something very positive about the role of a 
policeman that a school can count on, depend on, and I think 
the criticism directed at DARE with the policeman being the 
teacher of the effects of drugs is ill founded and just ill 
advised, criticized on that basis.
    Chairman Hatch. I'm going to submit questions with regard 
to how gangs develop as a result of drug abuse and what happens 
when you have criminal aliens in the country that literally are 
bringing drugs with them causing underlying problems of our 
society, but I'll put those in writing. But I really want to 
express my appreciation to all of you being willing to appear 
today, and I hope that everybody in Utah pays strict attention 
to what you're telling us because we've got a real problem 
here, and we need to nip it in the bud before it goes much 
farther.
    Thank you all for being here, I really appreciate it. Let 
me just also recognize as being here in the audience Lamont 
Tyler, the Utah House of Representative. Mr. Tyler, where are 
you?
    We've got David Joe from the Salt Lake County District 
Attorney. Dave, where are you? He's been here.
    We've got Patrick Flemming, from the Utah Division of 
Substance Abuse. Mary Lou Everson. Vern Larsen from Safe and 
Drug Free Schools from the Utah State Office of Education. 
Janor Numus of the Utah Alcohol Foundation. And Jamie Roberts, 
director of the Rape Recovery Center in Salt Lake City. So 
we're really honored to have all of you here.
    Chairman Hatch. We're now pleased to introduce a second 
panel of witnesses. This panel will discuss the effects of the 
drug problems along the Wasatch front, and our first witness 
will be Dr. Shari Welch, an emergency room physician at LDS 
Hospital. I just came from the emergency room so I'll be 
interested in that. She's treated a number of GHB overdose and 
has seen firsthand the terrifying side effects of that drug 
that too few young people understand.
    Next I'd like to mention we're pleased to have with us 
Colleen Taylor, the president of Utah's PTA, working closely 
with parents and teachers around the State. Ms. Taylor has a 
good understanding of the various perils facing our Utah youth 
today, including drugs, and we're really honored to have you 
here.
    We also welcome Steve Allred who is the Utah County Human 
Services Specialist in drugs and alcohol. We commend his work 
in treating these conditions and we look forward to your 
sharing your expertise in this area as well.
    And finally we have a young person here today who's going 
to testify anonymously about his personal involvement in local 
clubs and raves, and his testimony is important because it will 
help all of us gain insight into the kinds of illegal drugs 
found in our area night clubs and parties, and I really 
appreciate his willingness to testify or to talk to us today. 
So I'd like to welcome each of you here.
    We'll start with you, Dr. Welch, first. Now if you could 
summarize your testimony, I know that we're supposed to finish 
at 3 p.m., we're not going to make it. But I'd like you to, if 
you could, summarize and then we'll go from there.

PANEL CONSISTING OF DR. SHARI WELCH, EMERGENCY ROOM PHYSICIAN, 
   LDS HOSPITAL; COLLEEN TAYLOR, PRESIDENT, UTAH PTA; STEVE 
   ALLRED, SUBSTANCE ABUSE PREVENTION AND TREATMENT PROGRAM 
 MANAGER, UTAH COUNTY DIVISION, HUMAN SERVICES; AND ANONYMOUS 
                          YOUNG PERSON

                  STATEMENT OF DR. SHARI WELCH

    Dr. Welch. Thank you, Senator. What I'd like to do, with an 
eye on the clock of course, is present to you how some of these 
patients look and why we are so worried in the emergency room 
about these club scene drugs.
    For us here locally, at least according to physicians in 
the University of Utah and at our hospital, LDS, it's really 
GHB. I know nationwide Ecstasy is making its way through, but 
GHB is really the problem we're dealing with, and actually Mr. 
Marshall kind of showed you some of that.
    I'd like to tell you about a case actually last week in the 
emergency room, because I think she's the prototype for what 
we're seeing with these drugs. It was a 19-year-old woman who 
had been planning on going dancing with her girlfriends, and 
this is someone who has no experience with drugs, she's lead a 
very sheltered life-style, she's active in her church, in 
sports and so forth, and then planned to go dancing at the 
clubs.
    She began sipping a Coke and her girlfriends started 
laughing, and when she asked what was the joke, what was so 
funny, they told her that they'd put something in her drink. 
And this was very atypical for this group of girls. She 
couldn't taste it, she couldn't smell it, couldn't see it, and 
so she finished the beverage not thinking anything would 
happen.
    The next thing that she recalled, she woke up in the 
emergency room at LDS on a respirator with parents worried at 
her bedside requiring life support to stay alive. This was 3 
hours later, and here's what had happened in between--and you 
have to appreciate that these are not things that we're used to 
seeing, drug scenes on the street. Usually by the time I have 
contact with someone using amphetamine or cocaine, by the time 
there are health problems they are well along in terms of their 
addiction and their life-style, they've committed to it.
    This GHB is something totally different. These are kids not 
doing drugs, they have no experience, they're making a wrong 
choice either directly or inadvertently and they're falling 
prey to it on the first go round.
    In any case, she came with the paramedics who were very 
worried, she was not breathing well. And the paradox of this 
drug is that you'll have periods where you are in a deep coma 
and not breathing, and then the thing, you know, fighting and 
combative, very difficult to manage these kids. They were very 
upset because they couldn't get her respirator and they were 
forced to inflict pain to keep her breathing.
    One thing we do in the ER is a sternal rub. We rub our 
knuckles against the breast bone to stimulate pain and keep 
someone breathing who's not otherwise breathing, and this is 
what it took. The paramedics were very upset. I said the fact 
that she's alive to worry about those bruises is good enough.
    We quickly put a respirator in, which is a very unusual 
event for someone under 20 years of age outside of the usual 
that I see car accidents and whatnot. I am seldom having to put 
a young person on a respirator, but we did that. I thought you 
can kind of feel the whole room relax once that problem is 
addressed. And I left the room to go talk to my staff and try 
to find parents. They called and said her heart rate is 30. 
Again, not a common problem for a very young person like this. 
I had to administer a life saving drug called atropine and put 
a pacemaker on her.
    I do not do this for people under 50 years of age. Very 
unusual. I'm telling you how dangerous this drug is. I left the 
room a third time and they called and said her body 
temperature's falling.
    This drug attacks every vital function, you can't maintain 
heart rate, breathing or body temperature. We've seen seizures 
with it, and if truth be told, it looks like a brain 
hemorrhage. In fact the first case that we saw at LDS Hospital 
with this myriad of--by the way, in California, in New York we 
think we're dealing with brain hemorrhage. The first night we 
saw one back 2 years ago we called a neurosurgeon, called the 
operating room and thought we were going with an acute 
neurosurgical problem, brain hemorrhage. And it was this drug.
    They also tend to urinate on themselves, we have to put a 
catheter, they can't control bladder function. They begin to 
vomit violently. We have to put a tube through the nose to 
drain the stomach. This starts off often for young people as a 
good time, turns out to be anything but, and they require 
absolute life support for just a short period of time, others 
continue.
    The dramatic thing about this drug, I will tell you, I was 
impressed last week when I saw--it was the same as the first 
time I saw it 2 years ago. All of a sudden they wake, they're 
totally awake as if the anesthetic has been turned off and they 
have no memory of anything that's transpired. So it's very, 
very dramatic, but this problem is different from what we've 
seen before.
    These are not seasoned drug users. The kids are 
misinformed, and I often--also have to tell you this, in the 
midst of resuscitation her boyfriend came running in and said, 
why are you doing that, you don't need to do that, youdoctors 
always do too much, she's not flat line. And I turned to him and said, 
if we waited until she was flat line she would be dead, and we had to 
usher him out of the room.
    But there's actually on the internet and on the street 
misinformation saying that these drugs are safe, take them, 
have a good time, they were once in health foods, go for it, 
have a good time. And the kids are just responding more to that 
than the realities of the drug.
    And I can say this drug is fast. Fifteen minutes to 
affecting respiration, heart rate, blood pressure, basic body 
functions. And I've had near misses, I'm very worried before 
the summer's out I'm going to have to go to what we call in the 
ER ``the cry room'' and break the worst possible news to family 
members. So far I'm going to the cry room and I'm saying your 
son or daughter's overdosed and they're on a respirator and we 
think everything is going to be OK. I'm worried I'll be going 
to the cry room before summer's over and have to tell some 
parents that their child, because of a mistake they've made, is 
now dead from this drug.
    Chairman Hatch. That's pretty dramatic. Was there anything 
else done to her, because often times these are date rape drugs 
and they're used by viscous people to commit rape.
    Dr. Welch. Actually luckily for her there was not. But that 
same night we had a 14-year-old that we also suspected was GHB, 
not as severe medical problems. But when we found her on the 
floor at a party, which a group of teenagers left as soon as 
the life squad arrived, her clothes had been almost completely 
removed. We were very worried for her and she was only 14 years 
old. It's definitely being used in another sinister scenario.
    Chairman Hatch. Well, your testimony is very important to 
us.

                  STATEMENT OF COLLEEN TAYLOR

    Ms. Taylor, I appreciate you being here.
    Ms. Taylor. I was truly appalled as I heard some of the 
testimony and I spoke earlier with Mrs. Bigelow, she mentioned 
something that kind of hit me difficult too. She said that some 
of--as her daughter started into that whole episode, at the 
very first when she was in eighth grade she was saying they're 
having a dance, they're letting us in for half price if we wear 
our CTR rings.
    Unfortunately to our predominant culture, that would be 
almost an OK to let your kids go to that party. And my 
understanding from her and so on, is that these rave clubs are 
truly preying on our young people. I think it's important, I 
hope today--actually a detective I spoke with just the other 
day actually showed me as a parent, a beaded necklace, a baby 
pacifier, things that would be--a tube of chapstick--stuff that 
would be around a home that parents should know that this is 
common paraphernalia for these kids who are using.
    I haven't seen that yet and those are the kind of things we 
really need to let parents be aware of, watching for those 
signs. And I hope the media after your presentation and so on, 
will really pick up and make a media blitz about this. I do 
feel like we do not tell parents enough. They will act better 
and do better for their children if they are given more 
information, but we can't work separate from parents.
    PTA stands for a lot of things, but it stands for 
prevention. So the more information for parents, for 
communities, is better not, you know, not on the other end as 
they mentioned at the very end of what has happened. Tim 
Condon, the Associate Director of NIDA, mentioned that 
accurate, credible information is the most powerful weapon to 
combat with the increasing use of these dangerous drugs.
    Hopefully the PTA will be able to open up further dialogue 
as we provide training and information to our parents, and as I 
spoke at the very first, the PTA is here to encourage parents 
to find out where their kids are going, who their friends are. 
Open communication with their kids. Also to be very up front 
about telling your kids not to ingest anything that would 
have--the first sign was these girls laughing, and it's 
difficult to believe that friends would, you know, play a joke 
on a good friend. So not just strangers that they need to be 
aware of, but friends too. Because of the negative information 
we've had about these drugs, that they are feel good drugs, 
they'll be OK.
    Unfortunately some of our young people think it's OK to pop 
a pill because parents pop pills all the time. Not necessarily 
bad drugs, but we're a pill using society. It's not shooting up 
or using, you know, some of the other paraphernalia that's been 
used in the past.
    One more thing that we really need to concentrate on is 
really listen to our teens. Often we're quick to jump in and 
say, let me tell you how you handle that. Start listening 
better to our teens, find out what's going on in their lives, 
why they're upset about things, before it gets too far.
    Real important skills that I push with the DARE program 
just a little bit, I've got six kids, the youngest is almost 
14. The DARE program gave them good skills, good conflict 
management skills, good peer pressure training that if we don't 
have someone provide for our children from kindergarten up, I'm 
not sure who else will. Parents help a lot too, they need to 
reinforce those things taught by the DARE program, but that's a 
critical program that I think does help a lot in the schools. 
Those are those kind of life-styles that we truly as a 
community need to focus more on.
    Just a couple of other things, is we need to make sure that 
our kids know we care about them. We need to know where they're 
going, who they're hanging out with. We do want them to kiss us 
good night so we can smell their breath, know who they've been 
hanging out with, those kind of things. Don't be afraid to be a 
parent. That's been part of the concern too, we've stepped 
away, we wantindependent kids. But they need parameters, they 
need that guidance from us.
    Be alert to signs of trouble, and as a PTA, really step up 
our efforts to really give more information to our parents. We 
work with a lot of the different associations that you've 
mentioned in giving training to our parents so they're truly 
aware of what they should be looking for for their young people 
to help protect them.
    Appreciate you being here and all the efforts that you are 
making.
    Chairman Hatch. We appreciate you and your testimony.
    Mr. Allred, we'll turn to you.

                   STATEMENT OF STEVE ALLRED

    Mr. Allred. I'd also like to thank you, Senator Hatch, for 
inviting me. I'd also like to make you the offer of using my 
experience and my knowledge at any time in the future.
    Chairman Hatch. Thank you.
    Mr. Allred. As the Substance Abuse Prevention and Treatment 
Program manager for Utah County Division of Human Services I 
have recognized that the club drug problem is increasing in our 
community. The availability of GHB and MDMA or Ecstasy, 
methamphetamine and LSD has grown and our youth are finding it 
very easy to obtain. These specific drugs are popular in the 
rave scene due to the effects which keep one awake and alert 
allowing an individual to party longer and consume other drugs 
like alcohol and marijuana.
    Youth in our community have done their homework on the 
different drugs of abuse and are very sophisticated in knowing 
about drug effects and the effects of combined drugs. They know 
that when they take GHB they can experience a euphoric feeling 
without having to consume alcohol which can be smelled on the 
breath and tested for with a breathalyzer. They are very aware 
that these drugs are hard to detect through our current 
testing--hard to detect through our current testing methods.
    Those involved in the drug culture have networked and have 
amazing communication systems in place. When youth are referred 
to our office for a substance abuse assessment they are very 
informed in what they should and shouldn't admit to. They have 
been informed by peers that the admission of certain use 
patterns or chemicals will meet the criteria for a treatment 
placement. Those who are referred to treatment are informed 
about drug testing procedures and know that marijuana can be 
detected in a urine sample for up to 30 days. Knowing this they 
modify their use of drugs and take drug testing masking 
products or fluid load to increase the likelihood of a negative 
drug screen. Current drug testing procedures don't screen for 
GHB or MDMA.
    In a recent conversation with an attorney from the Utah 
State Attorney General's office he stated that we are having to 
constantly create new laws to keep up with the illegal 
manufacturing of drugs. Chemists find it very profitable to 
create drugs with a slightly altered molecular structure to 
avoid controlled substance laws. Once a drug is designated as a 
controlled substance, the chemist will alter the chemical 
structure slightly and we will begin the controlled substance 
process all over again. There are also several sources of 
information as to the manufacturing of these chemicals on the 
Internet and through other publications. A young girl in a 
group I was facilitating in the last month stated that there 
were books in her high school library that gave the 
instructions to manufacture GHB and methamphetamine.
    Date rape is another concern with these drugs. GHB, 
Ketamine, and Rohypnol can have an amnesia effect, decrease 
inhibitions, and an individual may have poor memory of 
incidents occurring while under their influence. In this case a 
date rape may not be reported due to a vagueness of memory or 
no memory at all. These drugs are tasteless and odorless and 
can be slipped to someone unknowingly. Realistically, alcohol 
is also a date rape drug which lowers inhibitions and judgment. 
People have been using alcohol to take advantage of others 
throughout history. In combination with GHB, Ketamine, or 
Rohypnol, the danger is magnified.
    Another concern that hasn't gotten much publicity yet is 
the use of Dextromethorphan, an ingredient in Robitussin and 
Coricidin, an over-the-counter cough medicine. Young people 
have reported that this common drug enhances the effect of 
other drugs and reduces the ``hangover'' effect of drinking. 
Youth are aware of Internet sites which give the reader 
instructions on how to and how much an individual needs to get 
the desired effect.
    I believe that it is clear that we have an ever growing 
substance abuse problem in our communities and that there are 
constant changes and new discoveries each day. It is almost 
impossible to keep up with these problems and we need to change 
the approach to dealing with substance abuse in our country. We 
have waged a war on drugs which is an interdiction approach to 
reduce the supply of illegal drugs. I need to make it very 
clear that I am not an advocate of legalizing drugs, but 
believe there needs to be a strong shift in the way we view and 
deal with this serious problem. Research outcomes during the 
Nixon administration showed that drug treatment at the local 
level is actually the most effective way to wage this war.
    The war on drugs began with a focus on cocaine and 
marijuana. We have not had a decrease in marijuana use in Utah 
but have had a significant increase. While the war on drugs 
focussed on marijuana, we had a decrease among youth in Utah--
from the Bahr surveys. From 1989 to 1997--excuse me--there was 
a slight decrease originally from 1989 to 1997. Marijuana has 
increased from 6 to 10 percent amongst our youth. Cocaine has 
shown a significant decrease as law enforcement efforts reduce 
the supply and increase the price. My observation as a 
substance abuse professional is that cocaine use decreased but 
the use of other drugs increased in their place. We as a 
society need to--tend to sensationalize current issues and 
limit our focus to ``big news'' issues and ignoring other 
consistent problems. Meth use and the busting of meth labs is 
big news and we are enacting stronger efforts in prevention, 
treatment and lawenforcement to deal with this issue. Are we 
neglecting to focus on other drugs again?
    It is obvious that when we focus on supply rather than 
demand we will always get the supply. No matter how many drug 
dealers you put in jail there's someone willing to take their 
place. I believe that when we make prevention and treatment a 
priority, not only in thought but also in funding, we will 
greatly increase our chances of winning the war on drugs.
    According to local and Federal surveys, Utah has the lowest 
rate of drug use prevalence in the country, Utah County being 
the lowest in the State. The numbers indicate that 9.8 percent 
of the youth in Utah County reported using an illegal substance 
in the 30 days prior to taking the survey, or abuse among Utah 
students in 1997, but when you break the percentage into actual 
youth, it adds up to 3,494 students. It appears that we are 
doing an effective job of prevention and treatment in our 
communities based on issues from 3 years ago. With the added 
problems of new drugs surfacing we are slowly slipping behind, 
which indicates the need of an increase of funding for these 
new issues. It is difficult to keep up with or even get ahead 
of substance abuse problems, and with new technology it is 
becoming increasingly more difficult. We are currently running 
awareness programs in our schools and community to help educate 
citizens on current issues, but need to reach a larger portion 
of our population.
    Our risk and protective factors for Utah County indicate 
that we have a strong religious community, which contributes to 
our low rate of substance abuse incidents. On the other hand, 
our risk factors indicate the need for developing a stronger 
attachment to the community, healthy family and parenting 
programs, and stronger rewards for positive behaviors. We 
facilitate these problems as best we can but we need greater 
resources, including funding, to continue to aid our youth in 
reducing substance abuse and other destructive behaviors.
    Thank you.

                 STATEMENT OF ANONYMOUS PERSON

    Chairman Hatch. Thank you.
    I'm going to just ask some questions, hopefully our mic 
system will work, ask some questions to our teenager who has 
had some experience with these matters, and then we can cover 
it this way and then I have some questions for your panelists.
    Now, let me ask you this question: This is an anonymous 
teenager, but someone who has experience in this area. In your 
experience just how prevalent are drugs such as 
methamphetamine, Ecstasy and GHB at our local clubs, is the 
situation worse at rave events?
    Anonymous Person. Well, Senator, my experience is that 
these drugs are everywhere. They're very prevalent in the clubs 
and they're easier to find in the rave events because there's 
no alcohol so there's a shift in focus just to drugs.
    Chairman Hatch. Would it be accurate to say drugs are 
available to anyone any time at these venues?
    Anonymous Person. Yes. Often times dealers walk around just 
telling kids, I have E, I have X, just saying that. They're a 
real comfortable environment, they either know the promoter or 
the security guards or they are in fact the promoter or 
security guards themselves.
    Chairman Hatch. You're saying security guards at the clubs 
and the rave parties that are looking for patrons who might be 
carrying these drugs, but you're saying some may be complicit?
    Anonymous Person. Exactly, synonymous. What better would it 
be than just throw a party just to sell your drugs. That's what 
these raves are basically for.
    Chairman Hatch. But you've heard the head of the PTA here 
today, some parties seem to give a discount for those who wear 
CTR rings.
    Anonymous Person. Yeah, I mean----
    Chairman Hatch. Are you familiar with that?
    Anonymous Person. No, I'm not. But I can see that that 
would be a good marketing move, because in our culture, I mean, 
in Utah there is a large LDS factor, and those people don't 
believe in alcohol, and so if a kid goes to a party, there's 
going to be no alcohol at, their parents are more inclined to 
let them go.
    Chairman Hatch. So choose the right----
    Anonymous Person. Right, yeah.
    Chairman Hatch [continuing]. Rings, they're actually 
exploiting that situation.
    Anonymous Person. Total exploitation.
    Chairman Hatch. In general how old are the youth that 
you're seeing using these drugs?
    Anonymous Person. I would say probably starting around 16, 
possibly even younger, but my experience between 16 and 18 and 
on.
    Chairman Hatch. Well, are these young people, are they from 
all walks of life?
    Anonymous Person. They would be from all walks of life, but 
more and more increasing from affluent kids, surprisingly, 
because they have money. Dealers will target children in upper, 
middle class to rich children because they have money. Their 
allowances are greater, they can afford to buy these kind of 
drugs.
    Chairman Hatch. In your experience how much does it cost to 
buy some of these drugs?
    Anonymous Person. For Ecstasy, between $20 to $25 in Salt 
Lake City. The going rate throughout the country is basically 
$20 per pill.
    Chairman Hatch. How about GHB?
    Anonymous Person. If you were to buy pills in greater 
amounts, you know, five to ten pills, you will get a price 
break. That's what happens. So GHB--I'm not sure how it's sold, 
probably bottled, most likely at raves. Most people purchase 
that before they're going, they'll just have that on hand in 
like a large bottle in their house and just put a smaller 
container for travelling.
    Chairman Hatch. Have you ever had any experience with GHB?
    Anonymous Person. Absolutely. I've tried all these drugs 
personally myself. I would find GHB probably the most 
dangerous, it's so hard to regulate. You have one cap, it's 
poured into an Avian bottle, you pour a cap in or you drink it 
by itself or put it into juice to cover up the taste, which is 
extremely----
    Chairman Hatch. You sound extremely intelligent.
    Anonymous Person. I'm not--I'm a little bit older than you 
had thought. I'm 25 years old so I've been around. I've worked 
in the club scene for 5 years as a bouncer, promoter and 
operations manager in other States, and have been here 
recently, in California and in New York. So I've had a pretty 
good reference point of what's going on, and I see Utah and we 
have a really interesting opportunity here where it's kind of 
just hitting now in the last half year to a year, the rave 
scene has really excelled here, started to take off. And if we 
were all to become informed and combat this intelligently, it 
would definitely--we'd be able to get rid of it or control it 
before it's out of control. Los Angeles is out of control. 
Ecstasy is everywhere. People don't even drink, there are clubs 
now that don't even sell beer.
    Chairman Hatch. Is that right?
    Anonymous Person. Yeah.
    Chairman Hatch. How long ago did you start using these 
drugs?
    Anonymous Person. Probably 4 years ago, sir, due to my 
involvement in the night club scene, just going out and you 
start just becoming desensitized to the fact that, you know, 
drugs are used.
    Chairman Hatch. How does it effect you today, are you using 
them still?
    Anonymous Person. Sir, I'm not using them today, very happy 
that I can attest. And I was deeply moved by the mother who was 
speaking about amphetamine addiction, and I wrote several 
rebuttals to different things I've heard and different ways 
that have effected my life. And I really believe there's no 
rehabilitation for amphetamine, it's habituation can be curbed, 
but the addiction will never be cured. And so that's scary. We 
need to reach these children before they're actually addicted, 
and that's to the DARE program. I feel that we need--just 
saying no is not enough. Why should I say no? I mean, we need 
to respect one another by offering explanations and reasonings 
for abstinence from drug use. Our kids are small, you know, 
back in the 1950's possibly kids would just obey their parents. 
But it's a difficult culture, it's a negative thing, but it's 
never too late. We need to inform our children what these drugs 
specifically do. They need to know if they take GHB this, this 
and this will happen. They need to know bout Special K, that it 
is not just--it's--Special K is just a word for Ketamine. 
That's a cat tranquilizer that's used by vets on a cat, you 
know.
    Chairman Hatch. Tell me what caused you to change.
    Anonymous Person. I just found my life deteriorating. 
Methamphetamine is so addicting and the feeling of euphoria 
brought about by that drug and GHB is--it's fun, basically, it 
is just fun and it feels good at first. But as you delve into 
the use and use more and more, the fun fades away and you just 
keep going after this feeling, this euphoric feeling, this up, 
talkative feeling.
    And that's what these partiers are doing, going to clubs 
and using these drugs and they're taking nine to ten pallets 
sometimes, but you know, that's very, very dangerous with MDMA 
and Ecstasy. Each tablet is 100 to 150 milligrams of MDMA. MDMA 
is fatal at 1,000 milligrams. If you're taking nine to ten 
you're risking your life and not even knowing it, because these 
pills, like the gentleman said, they're packaged in such a way 
to make them look like candy, they're colored pink, green, 
whatever. They're pressed with Nike swishes.
    Chairman Hatch. In your opinion do these young people know 
the danger they face from these drugs? What are some of the--if 
they do, what is some of the--what are some of the risky 
behaviors that you've observed?
    Anonymous Person. Basically the most risky in my opinion is 
GHB and just the uses involved with that. Let me just breakdown 
the scenario, how it all works. I think if we have a working 
knowledge of these drugs then we can understand them and then 
in turn through understanding, law enforcement can combat them. 
So can parents. Parents need to understand.
    GHB, you take and picture an Avian bottle, a clear 
solution, saline solution of GHB. You pour out a cap full and 
you mix it with a liquid or just shoot it, just like a shot, 
throw it back. To start, then they use more. Take two grams as 
initial dose, you drink that, then maybe in half hour, 45 
minutes you think about taking more. But as a club goer, a 
person used to drinking alcohol, they drink consistently, drink 
more and more drinks, so a user of GHB will continue to want to 
drink more and more, their habituation, you know.
    Chairman Hatch. How do the parents know what a club is, I 
mean, tell----
    Anonymous Person. Pardon me?
    Chairman Hatch. Where are these clubs, how do you know what 
the club is?
    Anonymous Person. A night club?
    Chairman Hatch. Yeah.
    Anonymous Person. Most of them are found in downtown Salt 
Lake. The two biggest would be Briggs and Axis, those two are 
both clubs. Those two clubs both have an 18 and up area where 
underage children can come and party until, you know, the wee 
hours of the evening. And the 18 is not something that parents 
can really feel safe about. If your child is under 18 they'll 
still get in. If you say you forget your ID and you look like 
you're over 12, the bouncer will let you in. Very possible. It 
happens every night. I see it at work.
    Chairman Hatch. Where do the rave parties occur?
    Anonymous Person. Rave parties will be held probably in 
more remote local due to their legality. If you don't have a 
permit your party can be busted, and the promoter makes more 
money by the party lasting longer, several days. There was just 
one last holiday weekend that went 2 days in Ogden Canyon, you 
know.
    Chairman Hatch. There was a rave party in Ogden Canyon for 
2 days?
    Anonymous Person. Yes, sir, because of the Fourth of July 
holiday.
    Chairman Hatch. You've been very helpful, I'm telling you--
--
    Anonymous Person. Thank you. I just wanted to thank you for 
this opportunity to share my knowledge about the night club 
scene and that culture infatuated with drug use.
    Chairman Hatch. Do these kids know that they're likely to 
be using this stuff?
    Anonymous Person. I think that the whole thing is just kind 
of in culturation as kids, you know, they turn 18, they start 
going to night clubs, maybe their friends go. They turn 21 and 
they go to the bar area, start drinking. As soon as they start 
drinking they realize people are doing other things, there's 
something else out there besides alcohol. They might try the 
drug. Drugs are fun, sir, initially. Amphetamine speeds up--it 
speeds up everything, just makes it more fun, initially, and 
that's where addiction comes.
    Chairman Hatch. Thank you. I appreciate it, you've added a 
lot to this hearing today.
    Anonymous Person. You're very welcome.
    Chairman Hatch. I've been told Patrick Flemming sent us 
advice that the average treatment time needed is 18 months. The 
cost is $8,000 for rehabilitation, and after care treatment is 
extremely necessary in these areas with regard to 
methamphetamine. And interesting to note that the number one 
meth users are women ages 18 to 25, according to this resource.
    Dr. Welch, is that consistent with what you believe?
    Dr. Welch. Yes. Sometimes I think they'll start out for 
other reasons, I've seen young girls do it to keep their weight 
down, start using crystal meth and fall into it more and more 
heavily.
    Chairman Hatch. I understand in recent months you've put a 
half a dozen people under the age of 20 on respirators to 
prevent death by GHB overdose. Could you please explain why 
people who take GHB can respond so differently to slight 
differences in strength of doses, and in your answer please 
tell us what the phrase ``narrow therapeutic range'' means and 
why young people experimenting with GHB should understand that 
phrase.
    Anonymous Person. Narrow therapeutic range will use that 
medicine we're talking about, a drug that the amount needed to 
go from the desired effect to a toxic effect is very, very 
small, and that's exactly the case with GHB. A half a teaspoon, 
you're dancing, euphoric, having a good time. A whole teaspoon 
and you're not breathing. That drug is comparable to like 
coumadin, which is a blood thinner. If you have any elderly 
family members on these drugs you know that they go to the 
doctor regularly for drug testing and drug levels to make sure 
we don't get them toxic. If this was a prescribed drug we would 
be following it very, very closely because it's that dangerous.
    Chairman Hatch. I see. Now also just so we understand, 
these young kids you have differing physical anatomies, and 
what may be safe for one young person may not be safe for 
another. Am I getting that right?
    Dr. Welch. That's exactly right.
    Chairman Hatch. So you can't be sure?
    Dr. Welch. It's not pure. Take a little bottle--I've 
actually seen kids carrying small mouthwash and small shampoo 
bottles with the liquid in it, they take a swig. One person's 
swig is not the same as another's, and very different effects 
based on body weight.
    Chairman Hatch. What may be somewhat safe for one person 
may be life threatening to another.
    Dr. Welch. Right. And don't forget----
    Chairman Hatch. You didn't tell----
    Dr. Welch [continuing]. They're often mixing it with a 
smorgasbord. We know nationwide 40 percent of the time alcohol 
is co-ingested. Another 25 percent of the time other harder 
drugs like amphetamine and cocaine are also ingested. All of 
these things strengthen GHB. Every single one down the line 
strengthens the potency of GHB, and so although you should wake 
up from an overdose, even the worst overdose, we have to put a 
respirator on. Statistics are being quoted roughly 5 hours you 
should be awake. We have one young girl that intubated in the 
ER at LDS and stayed on the respirator for 13 hours because she 
co-ingested other things.
    Chairman Hatch. Is it true there's no antedote for GHB?
    Dr. Welch. That's the other big problem with it. As you may 
know we have antidote for heroin overdose, I have something to 
treat you. If you take a sedative overdose, I have an antidote 
to treat you. GHB there is none.
    Chairman Hatch. Let me turn now to Ms. Taylor. I know we've 
run out of time, but this is a particularly important panel as 
well, and to your knowledge has an increase in rave parties 
accompanying club drugs, have they had an impact on student 
performances in school?
    Ms. Taylor. You know, that's difficult for us to figure out 
for sure. As we start putting some of this information together 
today the schools had already let out for the summer, but back 
to those folks who work with drug prevention and so on, not 
many parents know kids participate in some of these drugs. 
Parents don't call up and say my kid was on GHB last night, 
he's not coming to school.
    But I think more awareness if parents could understand, you 
know, some side effects and so on, he's got the flu or 
something, he's been on GHB, I think that's part of that 
awareness in that information that we have to get out to 
parents so that they will know the differences and so on. We 
don't, you know, so involved we can't----
    Chairman Hatch. Mrs. Bigelow describes----
    Ms. Taylor. Very well.
    Chairman Hatch [continuing]. Methamphetamine pretty well.
    Ms. Taylor. I thought she did too.
    Chairman Hatch. Let me go to Mr. Allred, and you might 
think about this as well, Ms. Taylor, and of course Dr. Welch. 
Do you think increasing the awareness of club drugs might 
entice more young people to use them or try them, or are the 
dangers so great and the problem so vast that this is not an 
issue?
    Mr. Allred. I believe the danger is so great that that's 
not an issue.
    Chairman Hatch. It's good to inform people about these 
things, get them so they realize?
    Mr. Allred. I believe in education we need to inform the 
kids of the consequences of these chemicals, what can happen to 
them, so forth and so on. One of the things that really bothers 
me as a prevention person are substance abuse people saying, 
well, if you tell my kid about meth they'll go out and try it, 
I believe kids going from just hearing about it there's already 
something in place that's wrong, and we need to look at that at 
an earlier stage.
    Chairman Hatch. You mentioned in your written testimony 
those drug networks have amazing communication systems in 
place. Could you give us just a little more detail on the 
nature of this network and networking on our school grounds, to 
your knowledge?
    Mr. Allred. Absolutely. That's where the kids meet,that's 
where they're all together.
    Chairman Hatch. Tell us what the teachers and parents 
should be aware of.
    Mr. Allred. Yes. If they're organizing a rave, like the 
young man talked about, they network and all of the kids know 
when and where it is. We don't. So that's an example of their 
networking.
    I sent a couple examples of web pages to your staff that 
was giving instructions on how to take Coricidin. The young man 
describing it started out by taking four milligrams at first. 
If that doesn't get you where you want to go, then try four 
more, and then increase it by doses of four until you get what 
you want. And he said, I've taken up to 16 at a time and that's 
a perfect high for me. And that's over the Internet.
    So they're networking through several methods. I think 
technology has its pluses and its minuses, and this is one of 
the down sides of technology, is it's given the kids a tool to 
network and pass on information that's not healthy for them.
    Chairman Hatch. You know, as somebody who has authored the 
Hatch Drug Prohibition Act I've worked with biochemical 
companies, I've worked with pharmaceutical companies, I've 
worked with the--really that legislation created the generic 
drug industry, the modern generic drug industry in the country. 
I've spent a lot of time on all of those issues. People don't 
realize that even with truly improved pharmaceuticals there are 
dangers. Imagine what it's like to be experiencing with these 
type of drugs we've been discussing here today.
    Chairman Hatch. Also you're talking dosages, if you're 
getting a chemical that's homemade the dosage is inconsistent, 
you don't know how strong the GHB you're taking is. Depends how 
somebody made it, whether I made it using a good recipe or a 
bad recipe.
    Chairman Hatch. This is an actual lab, methamphetamine lab. 
Look how filthy it is, and as we mentioned, it's an absolute 
bomb ready to go off, it's toxic, it's environmentally 
destructive, it's carcinogenic. Kids don't know that and yet in 
15 minutes over the net you can learn how to do it.
    Mr. Allred. The small children we were talking about are 
testing positive for methamphetamine. That's just breathing it 
in from the air. They're not actually taking the drug, they're 
just exposed to it.
    Chairman Hatch. Let me ask our anonymous witness just one 
more question. He left? OK. I guess we won't get any more 
advice from him.
    That was pretty astounding when you stop to think. He 
indicated he had taken meth and how it feels, but he said it's 
never going to leave, the desire for it, is that your 
experience?
    Mr. Allred. Absolutely. We've determined that addiction is 
a disease and it's a chronic disease. You have it until death. 
We can arrest it through treatments and we're quite successful 
at that now days if it's a good treatment program.
    I didn't want to bring this up but I'm going to. The DARE 
situation came up and with Mayor Anderson's comments in the 
Deseret News talked about the Salt Lake City Police Department 
had four DARE officers and the budget's $270,000 a year for 
them. My entire youth treatment budget is less than that for 
Utah County. I have an issue with that. I need funds.
    Chairman Hatch. We've got to change that. We've got to get 
more help to you, it's just that simple. The methamphetamine 
bill that I've got through the Senate unanimously hasn't gone 
through the House yet, has more money in it, so does the 
Juvenile Justice Bill, it had a billion dollars in it for 
rehabilitation, and you know, for treatments. So we--what we've 
got to do is get some of these things through. And I have to 
say that the original Juvenile Justice Bill, this has very 
little to do about guns, it really would have made a 
difference, but they've succeeded in making it a gun bill. Next 
thing you know we can't get anything passed, can't get either 
side together to get it done.
    Mr. Allred. If I may add one more comment, Senator, I've 
heard Mr. McCaufrey speak on several occasions, he's made the 
very scary statement that they are going to make the funds 
available to the communities that show the greatest need. Now, 
I've talked about Utah has the lowest rate of incidents in the 
country, Utah County the lowest in the State. If he follows 
through with that plan he is going to punish us for doing a 
good job and we're going to lose prevention dollars in Utah 
because we can't prove the need.
    Chairman Hatch. Of course we need to do it where the major 
problems are, but I think we can't ignore problems anywhere.
    Doctor, I want to thank you, all three of you, but I 
particularly wanted to thank you for your cogent scientific 
explanation here, they've been very important to us and you're 
right on the spot working with these kids and working with 
these problems.
    I just hope that the media in this State, they don't have 
to mention this hearing, I hope they'll get these ideas that 
you folks have been telling us about out there so parents will 
start to realize that, you know, the fast paced modern world 
we've got open to influence and so much opportunity to do wrong 
that they got to be watching out for their kids, just that 
simple. And then of course there are a lot of kids who don't 
have both parents which adds to the problem, and there are a 
lot of parents who aren't doing what they should as parents.
    So let me just end with this: I want to express my 
appreciation to our witnesses for taking the time to be here 
and share their insights with us today. I certainly learned a 
lot and I hope everyone who was able to come today did as well.
    I think clearly when we think about the things that could 
adversely effect our young people's health as well as their 
ability to learn and to make good choices, drug abuse and the 
health and learning problems that go with it rank pretty darn 
high on the list.
    We have already seen the tragic ramifications of gang 
activity, cocaine, crack, and other drugs. According to the 
experts we've heard today, we can now add these so-called club 
drugs to the growing list of threats to our children, to our 
kids.
    And we will leave the record open until July 21 for any 
additional questions from members of the Judiciary Committee or 
for additional statements from Utah's elected officials, 
educational, medical, or law enforcement communities. And I 
would like to invite all of you to submit short statements as 
well, any who desire to. I alsohope to include a limited number 
in the hearing record. Since such statements may contribute a 
constructive suggestion for action, a personal experience, or 
additional facts concerning the perils facing Utah's youth.
    I believe that continuing dialogue on these issues is 
essential if we are to develop strong alliances in the battle 
for our children's futures. Establishing this dialogue is one 
of the principal reasons for holding this committee hearing 
today. And when it comes to drug abuse, all of us, in every 
level of government, education, public health, law enforcement, 
and in the community at large, have key roles to play.
    Yet, this is not a problem that can be or will be solved 
overnight. It's certainly not a problem the Federal Government 
can solve by itself or with the one-size-fits-all approach. I 
don't think the Federal Government should even try to do that. 
I believe that the people who know best and care most about our 
young people are right here in Utah, and with all due respect, 
no bureaucrat at HHS or agent at the DEA is going to care as 
much as we do about the future of our own sons and daughters, 
although they do care.
    I intend to do my part and look forward to working with my 
fellow Utahns on effective ways not only to put the dealers and 
pushers out of business, but also to help make sure that our 
young people are aware of the dangers of using these drugs.
    And again, I'd like to thank you, everyone who attended 
this hearing, for being here. I welcome all of your insights 
and suggestions for ways we can work together to win this 
battle.
    Now for the record, I'm submitting the testimony prepared 
by Steve Branch of the Immigration and Nationalization Service, 
a videotape on methamphetamine created by the Health and Sanity 
Partnership. This videotape is entitled, Your Kid May Have a 
Secret, is available from Alta View Hospital in Sandy.
    Now, if people want to stay for a few minutes, I believe 
some of the DEA agents have agreed to explain how the meth lab 
here set up to my right operates, and so with that I would like 
to thank you all for being here and attending today's hearing. 
I think it's been a very good hearing, I hope you've all 
learned a lot. I hope you will get this videotape, a lot of you 
may want to get a hold of and watch this, this really is a very 
good thing.
    Thank you for being here, we appreciate it. With that we'll 
recess until further notice.
    [Whereupon, at 3:40 p.m., the committee adjourned.]


          EMERGING DRUG THREATS AND PERILS FACING UTAH'S YOUTH

                              ----------                              


                          FRIDAY, JULY 7, 2000

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Cedar City, UT.
    The committee met, pursuant to notice, at 2:00 p.m., at 
Southern Utah Univerty, 351 West Center, Cedar City, UT, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. If we could have you all come to attention, 
I'm going to move this up a little closer.
    We'll begin our hearing today. This is an important 
hearing, so I'm going to say good afternoon and welcome to this 
hearing of the Senate full Judiciary Committee. I'm holding 
these hearings both here and in Salt Lake to examine the 
existing and emerging threats posed by illicit drugs to Utah's 
young people. Our rural youth have not escaped the effects of 
such perils, and that is why I especially wanted to hold this 
meeting here in Cedar City.
    And I'm pleased to see so many people here who are 
committed, as am I, to focusing attention, as well as 
educational and law enforcement resources on combatting this 
problem.
    The goal of today's hearing is to begin a public dialogue 
on how we can work together to combat the too-little-known 
dangers of a growing substance abuse problem in our community.
    Some Utahns have heard of methamphetamine. We know that 
meth is a horrible drug and that the labs where it is 
manufactured are producing tremendous toxic chemicals that pose 
risks to whole neighborhoods. Meth's association with criminal 
gangs is also well known. The cycle of drug abuse and gang 
violence is readily apparent to our fellow Utahns. To deal with 
our gang problem, we must also deal with our drug problem.
    Fewer, however, are aware meth is just one of the so 
called, ``club drugs,'' that are beginning to attract a whole 
new group of young people in Utah. These drugs known as club 
drugs include methamphetamine, Ecstasy, GHB, and Rohipnol, and 
are often used at parties or nightclubs.
    The symptoms of this club drug use are showing up 
everywhere. Utah's emergency rooms, police departments, 
schools, and rape crisis centers have experienced increases in 
reported cases and the tragic consequences of drug club use or 
club drug use.
    Utah's Rape Recovery Center, for example, has received 
reports of 40 rapes so far this year that are specified--or, 
excuse me, that are suspected to involve the club drug called 
GHB. That figure represents 35 percent of rapes reported to the 
center this year. Meanwhile, last year 7.3 percent of Utah high 
school students reported having used methamphetamine at least 
once, and, according to the Drug Enforcement Agency--the DEA--
law enforcement authorities seized 266 meth labs in Utah in 
1999.
    A special danger inherent in these drugs is the fact that 
many users of club drugs would not consider taking cocaine, 
LSD, heroin, or marijuana drugs that are perceived by them to 
be more dangerous, although the opposite is the case. But 
because of misinformation about the risks, these young people 
knowingly ingest such substances as GHB, the so called date 
rape drug, and are experiencing the problems associated with 
illicit drugs abuse, including overdose addiction, amnesia, 
sexual assault, and permanent brain damage.
    The lack of public awareness about club drugs is luring a 
whole new population of Utah's young people into the horrible 
consequences of illicit drug use. For instance, we found that 
in one case they were allowing kids with CTR rings on to get 
into the club at half price. And these kids thought because 
there was no liquor served on the premises that this was going 
to be a nice family type of thing.
    Now, methamphetamine is a powerfully addictive stimulant 
that produces increased wakefulness, increasedphysical 
activity, decreased appetite, increased respiration, hyperthermia, and 
euphoria. It can cause convulsions and can result in death.
    Ecstasy is a synthetic mind-altering drug with amphetamine-
like and hallucinogenic properties. Ecstasy has no accepted 
medical use, and it causes health problems similar to those 
caused by the use of amphetamines and cocaine. Psychological 
difficulties including confusion, depression, sleep problems, 
drug cravings, severe anxiety, and paranoia. These effects may 
continue weeks later. Ecstasy users have also died from acute 
dehydration.
    GHB and Rohipnol are predominantly central nervous system 
depressants. Because they are common colorless, tasteless, and 
odorless, they can be easily added to beverages and ingested 
unknowingly, causing sedation, often rendering the victims, 
usually a young woman, helpless. They have become notorious for 
their use in crimes, particularly rape, because these drugs 
produce amnesia, making it very difficult to arrest and convict 
any perpetrator.
    The novelty, and that means in some cases petty rapists, in 
these drugs is undoubtedly one reason for the recent surge in 
their use. Because these drugs are relatively new, young people 
may not perceive that taking them is unsafe; rather, they 
believe that their reported adverse effects are rare or 
exaggerated, and that such reactions could never affect them 
personally.
    As is so often the case, when a newer drug arrives on the 
scene, young people hear much more about its so-called benefits 
than about its potential harms. Young people are attracted to 
the seemingly increased stamina and intoxicating highs these 
drugs purport to offer. As Utahns, we all need to understand 
that using these drugs can have serious, and potentially 
deadly, consequences. So we need to work on solving these 
problems.
    Over the last several years we have worked hard to obtain 
more resources for local law enforcement in Utah. The formation 
of the Rocky Mountain HIDTA, that's called High Intensity Drug 
Trafficking Area, for example, has brought additional DEA 
resources to Utah to stop trafficking and to close down these 
labs. Just this week a new DEA office in Utah was opened.
    Additionally, Congress enacted the Methamphetamine Control 
Act, which I sponsored, to toughen meth penalties and place 
greater restrictions on the chemicals from which meth is 
created and made. This important law has allowed the DEA and 
other law enforcement entities to stop large quantities of 
precursor chemicals from being purchased in the United States 
for the use in manufacturing methamphetamine in Utah and 
elsewhere.
    In our further effort to combat meth, we have also passed 
the Methamphetamine Trafficking Penalty Enforcement Act and my 
other bill, the Methamphetamine Anti-Proliferation Act of 1999. 
The latter bill, which passed the Senate unanimously last 
November, in addition to helping local law enforcement, 
contains several significant prevention and treatment 
provisions. We simply cannot just punish our way out of this 
problem.
    And, finally, we have enacted the Hillory J. Farias and 
Samantha Reid Date-Rape Drug Prohibition Act of 2000. This law, 
named for two victims of date rape, officially recognizes the 
harm caused by GHB and designates it specifically as a 
controlled substance.
    We have also worked to bring more Federal prosecutors and 
INS officers to Utah to facilitate action against those who are 
corrupting and endangering our youth.
    It is important that we all work together to respond to 
this new peril confronting our young people. The Federal 
Government can support State and local efforts, but it cannot 
be a substitute to those loving and dedicated parents, 
teachers, coaches, physicians, counselors, religious leaders, 
and police officers who serve daily on the front lines in the 
war against these life-threatening and life-ruining dangers 
facing our children and our grandchildren.
    We need to educate ourselves about these dangers, gangs, 
teen pregnancy, teen suicide, drugs, and now club drugs, so 
that we can better teach and guide our children and our young 
people. We love them and that's why we should do this.
    And, as your Senator and Chairman of the Judiciary 
Committee, I want to hear first hand from Utahns who have 
observed the impact from these drugs in our State. That's why I 
scheduled these hearings in Utah.
    And we have two panels of distinguished witnesses to 
testify about the work they are doing to reduce the threat 
posed by these drugs to our young people. So I want to welcome 
our witnesses and extend our appreciation to them for being 
here today. I look forward to their testimony.
    Now, some of the leaders that we are very happy to have in 
our audience are Representative Steve Bennion, the president of 
the university here and an old time friend and wonderful 
leader. And State Representative Bob Owen. Bob, where are you? 
Right there. Great.
    We've got Commissioner Lewis Bowen. Commissioner Bowen. 
Lois. Why am I saying Lewis? Lois Bullock. Good to have you 
here. Joe Greene, district director of the INS, we are really 
honored to have you here. Gary Davis of the school board. Gary, 
good to have you here. Glen Halterman, the mayor of Parowan 
right here. There he is right there. Patricia Sheffield of the 
Western County Children's Justice Center, we're happy to have 
you here as well.
    [The prepared statement of Mr. Greene follows:]

    Prepared Statement of Joseph R. Greene, District Director, U.S. 
     Immigration and Naturalization Service, Department of Justice

    Mr. Chairman, it is an honor and a pleasure to address you today on 
the subject of the INS support of narcotics enforcement efforts in 
Utah. My name is Joseph R. Greene, and I am the District Director for 
the Denver District Office of the Immigration and Naturalization 
Service. The Denver District is responsible for the states of Colorado, 
Utah and Wyoming.
    As you know, Mr. Chairman, the Salt Lake City Office of the INS has 
been deeply engaged in addressing the problem of criminal aliens in 
Utah. Our office has also consistently supported narcotics enforcement 
efforts in the state. For over a decade, INS has participated in the 
Organized Crime Drug Enforcement Task Force (OCDETF) in Salt Lake City. 
In addition, INS is a member of the Salt Lake City Pioneer Park Drug 
Task Force and the Pioneer Park bicycle patrol, whose efforts have led 
to a significant reduction in street-level narcotics dealing in Pioneer 
Park. We also participate with other local law enforcement agencies in 
the Salt Lake City Community Oriented Policing (COPS) Methanphetamine 
initiative.
    You will recall in 1997 that you convened the Crime Summit in Salt 
Lake City, which was attended by the Attorney General and the 
Commissioner of the Immigration and Naturalization Service, Doris 
Meissner. In 1998, Mark Reed, the Regional Director for the Central 
Region with jurisdiction over Denver and Salt Lake City, testified 
before the House Subcommittee on Immigration and Claims in Salt Lake 
City regarding the ongoing efforts of the INS against criminal aliens 
in Utah. I am proud to report today that our efforts have proven to be 
more effective since the Regional Director's testimony.
           identification and apprehension of criminal aliens
    In fiscal year 1997, the Salt Lake City INS office apprehended a 
total of 810 criminal aliens. In July, 1998, Mr. Reed reported that the 
Salt Lake City office would likely exceed 1,200 criminal alien 
apprehensions during that fiscal year. In fact, during fiscal year 
1998, this office apprehended 1,213 criminal aliens. In fiscal year 
1999, the total was 1,017. As of June, which ends the Third Quarter of 
fiscal year 2000, a total of 954 criminal aliens have been apprehended. 
At the current pace, the Salt Lake City office will likely exceed 1,200 
apprehensions this fiscal year.
               detention and removals of criminal aliens
    Since 1998, the INS has significantly increased its detention 
capabilities in the State of Utah. We have added detention space in 
Summit and Washington County jails and have access to detention space 
in the new Davis County facility. At present, we have 130 detention 
beds available, representing an increase of more than double the 
capability we reported in 1998.
    We remain convinced, however, that detention should be as brief as 
possible to allow resources to be better spent in other areas of the 
removal process. We have increased our transportation capabilities so 
that criminal aliens can be removed from Utah by a variety of means. 
The Justice Prisoner and Alien Transportation Service (JPATS) now flies 
into Salt Lake City once a week to remove criminal aliens from local 
detention. In addition, we remove criminal aliens using JPATS out of 
Las Vegas, Nevada, or by overland transportation to Denver, Colorado or 
El Centro, California. We are currently transporting criminal aliens on 
an average of five times a week using one or more of these 
transportation options. The average length of time a criminal alien 
spends in INS detention in Utah is three days.
                               deterrence
    Without meaningful deterrence, criminal aliens will be able to 
reestablish themselves in our communities and continue their unlawful 
activities. Since 1997, this office has worked closely with the United 
States Attorney's Office to establish and maintain a comprehensive 
prosecutions program directed against criminal aliens who have been 
deported and have reentered the United States illegally. I have 
attached to the written copy of this testimony a graph which shows the 
marked increase in prosecutions as a result of our joint efforts. I am 
sure that the United States Attorney will address this program in 
greater detail in his testimony.
    I would only comment on one aspect which these data illustrate. You 
will notice that monthly prosecutions peaked in calendar year 1998. 
During that year, the United States Attorney's Office indicted 313 
criminal aliens under federal immigration laws. In the subsequent year, 
the total number of indictments was 251. In the first half of calendar 
year 2000, 126 criminal aliens were indicted, which puts us on a pace 
to slightly exceed last year's total. There is some evidence in these 
numbers that some criminal aliens are either not returning to the 
United States after deportation, or at least are not returning to Utah. 
While the goal has certainly not yet been achieved, we believe there 
are grounds for cautious optimism that the deterrence program is 
working in Utah.
                          quick response teams
    As you know, Mr. Chairman, language in the 1999 Appropriation Law 
authorized the creation of INS Quick Response Teams (QRTs) in eleven 
states, including Utah. We now have Special Agents and Detention 
Enforcement Officers in Ogden, Provo and St. George, in addition to our 
law enforcement presence in Salt Lake City. Our presence in southern 
Utah fills a significant demand from local law enforcement agencies in 
that area for INS support. While we believe it is still too early to 
evaluate the performance and effect of the St. George QRT, I am pleased 
to report that since October, 1999, that office has arrested 791 
smuggled aliens destined to the interior of the United States, 
including a number of criminal aliens destined for Salt Lake City. In 
addition, in the last nine months, our agents in the QRT locations have 
responded to 714 requests for assistance from local law enforcement 
agencies and have presented 44 cases for prosecution.
    For the long term, we believe that the additional personnel we have 
received in Utah will permit us to build upon the current success by 
allowing us to support narcotics enforcement efforts more effectively. 
We are currently planning with local law enforcement agencies to 
support drug enforcement taskforces. Our role will be to target those 
criminal aliens involved in this activity and to ensure their 
apprehension, detention and deportation, as well as criminal 
prosecution for reentry where appropriate.
                               conclusion
    In conclusion, let me reaffirm the commitment of the Denver 
District and the Salt Lake City Office to support narcotics enforcement 
efforts in the State of Utah. I want to thank you, Mr. Chairman, for 
asking me to testify today, and for the support of INS law enforcement 
efforts you have shown us in the past, I will now be happy to answer 
any questions.

    Chairman Hatch. Well, let's move the panel in. I would like 
to introduce our first panel of witnesses. This panel will 
discuss what is being done to address the illegal drug problem 
in this area and ideas for solutions. First I'd like to welcome 
Paul Warner, who is our U.S. attorney for Utah. Mr. Warner and 
his representatives have prosecuted drug cases, gang crimes and 
criminal re-entry cases and is a significant reason why recent 
statistics show decreases in crime rates in our State.
    Next we'll hear from Don Mendrala. Don is the assistant 
special agent in charge of the Drug Enforcement Administration 
in Utah. These guys are really heroic figures; they really risk 
their lives for us. And Mr. Mendrala leads the front line DEA 
agents who are trying every day to reduce the trafficking and 
use of methamphetamine and other illegal drugs into our State.
    We're also very pleased to have our own Scott Burns, who is 
here today, as one of the Iron County attorneys who has a 
distinguished record of prosecuting those who violate drug laws 
in Iron County. There is no better prosecutor in the State, and 
we're very fortunate that you take time to be here with us.
    Next we'll be pleased to hear from Captain Russell Peck, 
who's a great guy, from the St. George Police Department. 
Captain Peck works not only on drug crimes in the State, but 
he's also worked on crimes that are drug related or caused by 
drugs. We commend your efforts and are pleased to have you here 
to share your perspective with us today.
    So we're happy to welcome you all to our hearing, it is 
entitled ``Emerging Drug Threats and Perils Facing Utah's 
Youth.'' And we'll turn to you, Mr. Warner, and take your 
testimony first.

   PANEL CONSISTING OF PAUL M. WARNER, U.S. ATTORNEY FOR THE 
   DISTRICT OF UT; DON MENDRALA, ASSISTANT SPECIAL AGENT IN 
  CHARGE, DRUG ENFORCEMENT ADMINISTRATION, UTAH; SCOTT BURNS, 
 IRON COUNTY ATTORNEY; CAPTAIN RUSSELL PECK, ST. GEORGE POLICE 
                           DEPARTMENT

                  STATEMENT OF PAUL M. WARNER

    Mr. Warner. Good afternoon, Mr. Chairman, and thank you 
very much for the kind introduction. I have the honor of being 
the U.S. attorney for the District of Utah, and I greatly 
appreciate the opportunity of being here and testifying today.
    And with your permission, Mr. Chairman, I would merely 
surmise my major points today and, as I understand, the 
committee has received my entire statement, and I would ask 
that that be made part of the record.
    Chairman Hatch. Without objection we'll make it part of the 
record.
    Mr. Warner. Thank you. Before I begin my more specific 
remarks, Mr. Chairman, I'd like to on behalf of all law 
enforcement in Utah to compliment you on your great efforts on 
behalf of law enforcement, not only here in the State but 
throughout the country, and for your leadership in the 
Judiciary Committee in terms of providing resources to law 
enforcement and the Department of Justice in enabling us to do 
our jobs much better because of those efforts.
    Chairman Hatch. Well, thank you.
    Mr. Warner. The focus of today's hearing, of course, is the 
drug problem here in Utah. Club drugs such as Ecstasy, GHB and 
others, although not perhaps reaching the attention that 
methamphetamine has recently in our State, are certainly 
becoming an increasing problem. Approximately 10 years ago I 
had the opportunity, if you want to call it that, of 
prosecuting perhaps the first Ecstasy case in the State. It 
involved a young man who was manufacturing Ecstasy and then 
trading it to support his cocaine habit. At that time such a 
case was a rarity, and unfortunately we can no longer say that 
today. The problem is real and it seems to be getting worse.
    We recently filed an importation case, an Ecstasy case, 
involving hundreds of thousands of tablets of Ecstasy that was 
being imported from Europe to the State of Utah using 
commercial private carriers such as Federal Express, DHL and 
UPS.
    This is not the only case we dealt with. There was a 
seizure here in Southern Utah by the highway patrol, it's 
currently under review for Federal charges, which clearly 
indicated that Ecstasy was headed for distribution here in our 
own State.
    Now, the target group for this terrible and powerful drug 
is the youth of our State, ages 16 to 25. Unfortunately, 
because of the nature of our people in Utah, we perhaps are 
more susceptible to a drug like Ecstasy because we accept the 
mistaken idea that it is a so-called safe drug or clean drug. 
According to reality, it is neither.
    We intend in my office to continue to aggressively work 
with State and local officials, of course our DEA, to do all in 
our power to combat these club drugs.
    I'd like to talk about methamphetamine for just a minute 
because that is truly an epidemic problem in the State of Utah 
and throughout the west, beginning to be throughout the entire 
United States. In my 25 years of experience as a prosecutor, in 
my estimate, methamphetamine is the top threat to public safety 
in our State today.
    There are two components to the methamphetamine problem in 
Utah, the first being the home-grown variety or the clandestine 
labs. As you correctly commented in your opening remarks, Mr. 
Chairman, there were 266 clandestine labs taken down last year 
in 1999 in our State. Unfortunately, we are on a similar pace 
this year, having taken down over 178 labs so far. These labs 
present a great threat to our public safety, not only because 
of the methamphetamine that they manufacture, but because often 
we find, or as we find, that when the DEA agents and other law 
enforcement agencies enter these labs they find minorchildren 
in these labs that are literally crawling about the paper--excuse me, 
the glass works and other chemicals, such as illustrated on your table 
over on the other side of the room, and as such, many very heart-
rendering stories about the total status of these children who are 
neglected and abused in these meth lab environments.
    The other aspect of our meth problem in Utah is the second 
component is what I call our Mexican meth. Mexican meth evolves 
from large commercial labs in Mexico and Southern California. 
It works its way here to Utah via network of criminal aliens 
and others who bring that meth to Utah for shipment throughout 
the United States because of our borders of I-15, I-70 and I-
80. This methamphetamine, unfortunately, doesn't always leave 
the State. Much of it is left right here in Utah to be 
distributed to our own citizens.
    We have seen a dramatic increase in our office in meth 
cases in the last 5 years. When I first came to the U.S. 
attorney's office over 10 years ago, cocaine was clearly the 
drug of choice. It was clearly the drug that we saw in most of 
our drug cases. Now, I would estimate that over 90 percent of 
our cases, drug cases, involve methamphetamine.
    We have tried to use the resources that through your 
efforts and the efforts of the Department of Justice have been 
given to us, we've increased our drug section in terms of 
numbers of prosecutors and, accordingly, the number of drug 
prosecutions are on the rise. Unfortunately, there seems to be 
no lack of cases to prosecute.
    One of the aspects of dealing with the meth problem in our 
State, Senator, is to deal with this criminal alien problem. I 
want to emphasize that they're not the sole problem here or the 
sole factor, and I also want to emphasize that we're not 
talking about law-abiding citizens or members of the Hispanic 
communities; we're talking about people who come to this 
country, who make a sole living of a criminal livelihood. 
Through your efforts, Senator, the Federal prosecutors, and a 
number of INS agents dramatically in the last few years, 
through those efforts we have prosecuted close to 1,000 
criminal aliens that have been involved in drug trafficking in 
our State, and that's 1,000 criminal aliens who are still in 
Federal prisons because of the substantial sentences that they 
received without any parole, and they are no longer on the 
streets distributing their methamphetamine.
    A second factor, another part of the problem that we've 
been trying to address, is that of guns. As the committee is 
well aware, there's been a great debate about gun control in 
our country, but there could be no debate about the fact that 
felons who use guns in crime have no business possessing those 
guns and they should be aggressively prosecuted. And we've been 
pursuing those people, particularly those who have been 
involved in drug trafficking when we find a gun on them, and we 
have opened a special project called CUFF, the Criminal Use of 
Firearms by Felons. We have put some new resources into that 
project, two new prosecutors. I'm happy to report that we filed 
over 80 cases this year.
    Chairman Hatch. Is that number 80?
    Mr. Warner. Over 80.
    Chairman Hatch. I've been pushing the administration for a 
gun project that came out of a project in Virginia that really 
became a very, very effective project where the Federal 
prosecutors working in collaboration with the local prosecutors 
were able to make a real dent.
    One of my criticisms of this administration they all want 
to make gun control laws, they're not enforcing over 20,000 
laws that are on the books today. That's where I have my 
difficulty there. You're citing that if we enforce those laws 
we don't have those guns.
    Mr. Warner. Exactly. And I would like to make a point, 
Senator, at least one U.S. Senator hears what you're saying 
loud and clear.
    Chairman Hatch. And that is a increasing number, in spite 
of these efforts.
    Mr. Warner. Indeed there are. I'm happy to report that U.S. 
attorneys around the country are beginning to aggressively 
pursue the Federal gun laws that we have on the books, and 
hopefully will make a difference, not only in the area of gun 
violence, but also in the area of drugs and drug distribution.
    Chairman Hatch. It will and will also protect the decent 
law-abiding gun owners.
    Mr. Warner. Absolutely. And I want to emphasize that we 
have no interest in prosecuting law-abiding citizens who want 
to exercise their right to keep and bear arms. This has nothing 
to do with those folks. This has everything to do with felons 
who are criminals and who are involved in violent crime and 
drug trafficking.
    Let me conclude today, Senator, by simply indicating that 
we are appreciative of your leadership and all that you do to 
provide us the resources to combat this scourge, this plague of 
drugs, and particularly methamphetamine, and the club drugs 
that are addicting the youth in our State. I pledge to you that 
we will continue to use our resources and our best efforts to 
combat this, and as we receive additional resources, they will 
be put to use in this battle.
    Thank you very much, and I'll be happy to answer any 
questions from the committee.
    [The prepared statement of Mr. Warner follows:]

                  Prepared Statement of Paul M. Warner

    Good morning, Mr. Chairman [and Members of the Committee]. And 
thank you, [Chairman Hatch] for that kind introduction. I have the 
honor of being the United States Attorney for the District of Utah, and 
I greatly appreciate the opportunity to testify before the Committee on 
the critical problem of drugs and related crime in Utah.
    With your permission, Mr. Chairman, I will summarize the major 
points I would like the Committee to understand, and I request that my 
entire statement be made a part of the record.
    Before I begin my more specific remarks on the drug crime problems 
in Utah, permit me to say, Senator Hatch, that I believe that few 
people serving in Washington are as well attuned to this issue as you 
are, and that few have done as much as you to address it. That support 
is needed and appreciated by law enforcement here in Utah, and I 
believe around the country.
    One focus of today's hearing is the explosion of so-called ``club 
drugs''--Ecstasy, GHB, and others. About ten years ago, I had the 
opportunity to prosecute what may have been the first Ecstasy case in 
Utah. It involved a young man who was manufacturing Ecstasy, and 
selling it to support his cocaine habit. At the time, the case was a 
rarity, and even today, we are fortunate that these club drugs have not 
yet emerged as strongly as they have in other areas of the country.
    Still, the problem is real, and poised to get worse. For instance, 
my office is prosecuting an Ecstasy importation scheme involving a 
significant quantity of the drug, which would have supplied thousands 
of users. These drugs were being imported fromEurope into the United 
States, through Provo, under a complex scheme using private carriers 
such as Federal Express, DHL, and UPS as apparently unwitting couriers. 
It appears the drugs were destined for the streets of California.
    Even though in this case the Ecstasy apparently was not intended to 
be distributed here in Utah, in my view, it is only a matter of time 
before we see increased use of these drugs by Utah's kids. In fact, I 
understand that the Utah Highway Patrol recently made a significant 
seizure of Ecstasy intended for distribution in Utah during an 
automobile stop in southern Utah. This matter is now being reviewed for 
federal charges.
    The target age group for Ecstasy is young people between the ages 
of 16 and 25. Our children here face most of the same pressures as 
youth across the country, so it is no surprise that these drugs would 
show up here. Indeed, because Utah still retains much of its small-town 
innocence from an earlier, less troubled era, our youth can be 
particularly susceptible to threats from invidious ``club drugs'' that 
are represented as ``safe,'' or ``clean''. My office, in conjunction 
with our law enforcement partners around the State, will aggressively 
prosecute cases involving these drugs, in an effort to prevent the 
threat from taking hold here, as have other drugs such as 
methamphetamine.
    I have been a prosecutor for almost a quarter of a century, and I 
have been a federal prosecutor for the past twelve years. Before the 
President nominated me to be the U.S. Attorney here in Utah, I had 
served in the Utah U.S. Attorney's office as First Assistant, as Chief 
of the Criminal Division, and as Violent Crimes Coordinator for the 
office. Based on my experience, I can tell you without exaggeration 
that the meth problem in Utah today is the most serious criminal threat 
we face to public safety and the safety and well-being of our children.
    There are two key components to the meth problem in Utah. While I 
believe that these components certainly exist in other areas of the 
country that are experiencing a serious meth proliferation problem, 
they also rest on factors somewhat unique to Utah. The first component 
is the home grown problem--the proliferation of clandestine meth labs. 
Indeed, Utah has the dubious distinction of having the highest per 
capita number of illegal methamphetamine manufacturing operations of 
any State in the Union, and ranks among the highest in the nation in 
the absolute number of labs.
    This part of the problem involves U.S. citizens operating small 
labs and producing comparatively small amounts of very pure meth. 
Approximately 241 such labs were taken down in Utah in 1999, and 
approximately 178 have been taken down so far this year. The prevalence 
of these clandestine labs--sometimes called ``tweaker'' labs, after the 
common term for meth addicts--is a function of two facts--the highly 
addictive nature of methamphetamine, and the ability of addicts to 
manufacture the drug themselves, a factor not present with respect to 
drugs such as cocaine and heroin, for example.
    As the Committee knows, meth can be made using chemicals, 
equipment, and over-the-counter drugs, all of which are fairly easy to 
get. With your leadership, Senator, as well as efforts in the Utah 
legislature, some key ingredients such as pseudoephedrine are now 
harder to get in large quantities than they once were. However, 
determined lab operators are still able to get what they need. For 
instance, a common method used by tweakers to obtain pseudoephedrine is 
to go to every store in the neighborhood and buy up to the legal 
limit--12 grams under Utah law. The recipe for meth is well-known among 
users, and I believe that as the purity of imported meth has decreased, 
the incentive for users to make their own has increased.
    The danger these labs pose to the community, and especially to 
children in the homes where labs are set up, cannot be overstated. 
First, while manufacturing meth is relatively simple--most of the 
tweakers operating these labs are not exactly rocket scientists--the 
process involves combining and heating very volatile chemicals, and 
produces highly toxic fumes and residue. Second, the very nature of the 
meth addiction unfortunately ensures that the children in the household 
will be ignored and abused. Our DEA agents can tell you heartrending 
stories about addicted children found in appalling conditions in many 
of the labs they respond to. In fact, there have even been reports of 
children in preschool and kindergarten playing make-believe games of 
cooking meth.
    The second component of the meth problem in Utah is what we call 
``Mexican meth''. It results in part form our geographic location as a 
convenient transshipment point. The result is a significant number of 
what we call pipeline cases. This component of Utah's problem, and our 
responses to it, bear directly on controlling 
methamphetamineproliferation in Utah and throughout the United States. 
Meth is being produced in massive quantities in large labs in Mexico, 
as well as in southern California and other western states. Utah's 
proximity to the national border, and the convergence of three primary 
travel corridors--I-70, I-80, and I-15--within the state combine to 
make Utah uniquely situated to serve as a major transshipment point of 
this Mexican meth.
    Unfortunately, we are finding that much of the drug is staying in 
Utah and other Inter-Mountain states as well. For example, after an 
eighteen month investigation by the FBI and other law enforcement 
agencies, just last week we broke up two major and interconnected drug 
trafficking organizations operating in Salt Lake City and Ogden. The 
take-down of the Olmedo and Sanchez drug trafficking organizations, or 
DTOs, resulted in the indictment and arrest of over 25 people and the 
seizure of at least ten pounds of methamphetamine that had been 
imported into Utah, as well as other drugs. These drugs were being 
distributed here in Utah, as well as in Idaho and possibly Wyoming.
    It is also an unfortunate fact that much of this particular 
component of Utah's meth problem is a direct result of illegal entry by 
criminal aliens into the United States, who then come to Utah. Again, 
as a case in point, most of the individuals involved in the Olmedo DTO, 
as well as many of those used by the Sanchez DTO as runners and 
suppliers, were criminal aliens.
    Additionally, let there be no mistake--these DTOs have an effect on 
children involved, as well. The most pernicious effect is in passing on 
the culture of drugs and lawlessness to another generation. And again, 
without wishing to prejudice either the investigation or the 
prosecution of the recently dismantled DTOs, an example can be found in 
those cases. Two persons in the Sanchez DTO have been charged under the 
federal law that provides additional penalties for anyone who employs 
or uses a minor in a drug trafficking crime. The children involved in 
these cases deserve a chance to have a different and better life than 
that of drug dealers.
    Let me take just a moment to describe some of what my office has 
been doing to address both the meth and the criminal alien problems, 
which are related. As you know, Senator Hatch, when I took office as 
U.S. Attorney, I established two prosecutive priorities. These 
priorities are meth and aggravated reentry immigration cases. With your 
support and the support of Main Justice, these initiative are bearing 
fruit.
    First, I was able to obtain two new drug prosecutors, which allowed 
me to establish within the office's Criminal Division a new drug 
section. Utilizing targeted resources provided by Congress and 
allocated by the Executive Office for U.S. Attorneys, this section is 
now staffed with 4 attorneys, including two who are dedicated to OCDETF 
cases. Even while still staffing up, the results of this section have 
been evident. For instance, in FY 1999, we indicated approximately 196 
defendants in about 105 drug cases. This represents a 64.7 percent 
increase in defendants and a 38 percent increase in cases over FY 1998. 
Yet these numbers alone do not tell the whole story. For in the last 
twelve months, we have successfully dismantled three major drug 
trafficking organizations, including the Sundowners Motorcycle Club 
DTO, and the recent bust of the Olmedo and Sanchez DTOs, which I 
already discussed.
    As a reflection of the growing problem with methamphetamine in Utah 
and the commitment by federal law enforcement to attacking the problem, 
allow me to provide a comparison of defendants indicted in OCDETF cases 
within the last two years. In FY 1998, a total of 32 defendants were 
indicted in the District of Utah through OCDETF investigations, many of 
whom were indicted for methamphetamine offenses. By comparison, in FY 
1999, OCDETF investigations resulted in the indictment of 91 
defendants, and nearly all of those defendants were indicted for a meth 
offense. In the first ten months of FY 2000, we have obtained 
indictments against 53 defendants in OCDETF cases, including the 31 
defendants indicted as a part of the Olmedo and Sanchez DTOs.
    The point of relating these numbers is not only to inform the 
Committee of what we are doing to tackle the meth problem in Utah, but 
also emphasize the severity of the problem. Even with the substantial 
and ever increasing number of defendants and cases we are handling, we 
are only scratching the surfafe of the problem--there is a seeming 
endless supply of new cases.
    The same can be said of the second prong of our initiative, which 
involves aggressively prosecuting criminal alien cases. I understand 
that this can be a sensitive subject, and that the link between these 
cases and the meth problem may not be readily apparent to some. It must 
be emphasized that the criminal alien initiative is not targeted at our 
law-abiding Hispanic population. It is that population we in large 
measure seek to protect. Indeed, the code name for the investigation 
into the Olmedo and Sanchez DTOs was ``Los Chacales,'' which in Spanish 
means ``the Jackals,'' and is a derogatory term within the law-abiding 
Hispnaic community for drug dealers. It is my view that because of the 
prevalence of Mexican meth, and the convenience of Utah as 
transshipment and distribution point, the criminal alien and drug 
trafficking cases are intimately intertwined, and that we cannot get a 
handle on the meth problem without also attacking the criminal alien 
problem as well.
    Thanks to your commitment, Senator Hatch, and the commitment of the 
Attorney General, we have added personnel resources in the U.S. 
Attorney's office as well as at the INS to aggressively pursue these 
cases. Again, we are showing results. In calendar year 1996, our office 
indicted 80 criminal alien cases. In 1997, we indicted 194 such cases, 
in 1998, 313, and in 1999, 251. So far in calendar year 2000, about 120 
such cases have been brought. The vast majority of the criminal alien 
cases we are doing involve defendants with drug trafficking 
convictions, as well as lengthy criminal histories. In addition to the 
immigration offenses, many of these are methamphetamine related cases. 
Our program has been successful.
    Finally, Mr. Chairman, let me briefly note a third aspect of our 
drug crime initative--the targeting of the illegal use and possession 
of firearms by criminals. The link between the illegal use and 
possession of firearms and drug crime is well known, and here in Utah, 
we have initiated Project CUFF--Criminal Use of Firearms by Felons--to 
aggressively prosecute these cases. I am pleased to say that both the 
name of the initiative and the resources to pursue it are a result of 
your efforts in the Senate. And let me be clear--we are not prosecuting 
law-abiding citizens exercising their constitutional right to keep and 
bear arms. Rather, we are targeting those felons who use guns to commit 
crimes, thereby endangering the whole community and denigrating the 
rights of everyone else. I have assigned a top AUSA to Project CUFF, 
and I am adding another one next month. The initiative has resulted in 
nearly eighty cases accepted for federal prosecution since January.
    In conclusion, Mr. Chairman, our drug problem in Utah is severe, 
and poses significant threats to our youth. And while some aspects of 
the problem are unique to my District, the meth problem--and the 
broader drug problem--certainly is not. Yet, we are taking steps to 
tackle the problem. It is a problem we are tackling on several fronts--
including the home-grown, clandestine lab, the so-called Mexican meth, 
and staying ahead of the curve on the threat posed by the new 
generation of club drugs. Your leadership, and the support of the 
Department of Justice, has given us many tools and resources to do 
this.
    Thank you, Mr. Chairman, and I would be pleased to answer any 
questions from the Committee.

    Chairman Hatch. Thank you, Mr. Warner. We're happy to have 
you. You're a wonderful U.S. attorney and one of the 
outstanding attorneys across the country.
    We turn to you, Mr. Mendrala, as head of the DEA in this 
state, and we're very honored to have you here to talk about 
these things.

                   STATEMENT OF DON MENDRALA

    Mr. Mendrala. Thank you. Senator, I've been here 4 years. 
When I first moved in a neighbor came over and introduced 
himself to me, I introduced myself back to him, and he said, 
I'm glad to know you, but I'm sorry that we need someone like 
you in this State.
    I wish we didn't need the DEA in here. Sadly we do. And I'd 
like to take this opportunity to thank you for the support you 
have given us. Our office has increased tenfold over the past 
few years.
    The cost, the meth cost, that we hear about in Utah costs 
this State $1 million. Without the funding that you helped us 
secure through hiring DEA agents and the pot shots recently and 
the new awareness, the DEA cleans up labs, this State would 
literally be brought to its knees due to the fiscal note 
attached to methamphetamine.
    One of the most painful questions that I'm asked all the 
time is why Utah. Why is Utah is so high in ranking when it 
comes to methamphetamine. It's truly----
    Chairman Hatch. High? What are we ranked?
    Mr. Mendrala. Right now we're eighth.
    Mr. Burns. Which is good news. We were third.
    Chairman Hatch. Two years ago. And that's a step down. 
That's outstanding.
    Mr. Mendrala. As you stated we closed down 266 meth labs 
last year. Our office responded to 246 of those.
    Our agents are very tired. When we talk about meth, it 
doesn't mean any of the other drugs here have stopped.
    Just to add on a little of what Mr. Warner said, Mexican 
trafficking is proliferating in this State. These traffickers 
are probably drug dealers, they bring in methamphetamine. 
They're bringing in marijuana, which we are seeing increasingly 
as a gateway drug to these others. They're bringing in heroin, 
and once heroin entrenches itself here, Senator, this is 
something that they need every day when they wake up and go to 
bed at night. This drug has to be supported by some type of 
financial means, generally the crimes that are associated with 
heroin across the spectrum.
    We've got the domestic meth problem which has just been 
highlighted in the media. We used to be very careful about what 
we said about how the drug was produced, what chemicals were 
used, the method of manufacture. We don't have to worry about 
that anymore, Senator, because the INS has taken away all the 
secrets. If there is law enforcement, if there's pending 
legislation, if there's a problem in the cook method that we 
don't know how to make it, they can get it on the chat room and 
find out anything they need to know. There are no longer any 
secrets when it comes to methamphetamine.
    We see that same carry over into GHB and Ecstasy, how to 
take the drugs, how to manufacture the drug, where to get it 
and what to do if you overdose. This is very, very disturbing 
to us.
    We work with highway patrol on Operation Pipeline. As Mr. 
Warner again stated, there was a stop made just outside of 
Beaver with Ecstasy. These highway patrol stops historically 
will be made on our highways, that they were going to points 
beyond. That's no longer the case. At least half of the 
pipeline stops now that are drugs are destined to stay in Utah.
    Chairman Hatch. So what you're saying is up until recently 
we were the crossroads with the transport system to drugs going 
to other states but now at least half of them are staying here?
    Mr. Mendrala. Yes. We were a trans shipment point and now 
we're consumer stable. That's not the trend we want in this 
State.
    With the resources you have given us and will give us we 
will put forward our best efforts to put them together 
productively.
    We appreciate you coming to us to our new facility. There 
would be nothing that we would like to have greater than to 
take all the resources that you have given us and let them be 
used in another State. We don't want this in Utah, we don't 
want the problem in Utah, and we don't have--we don't want to 
keep having to ask for more resources to deal with this 
problem. We want it to go away and we'll do everything we can 
to make it do just that.
    Chairman Hatch. Well, thank you. We thank you for doing a 
great job here. It's becoming a more increasing problem in this 
country, especially with methamphetamine. And now all these 
drugs.
    Mr. Mendrala. It's almost the other side of the double edge 
sword with the methamphetamine, these club drugs are not 
methamphetamine but accepted as such.
    Chairman Hatch. OK. Mr. Burns, let's turn to you. You're 
right here on the firing line.

                    STATEMENT OF SCOTT BURNS

    Mr. Burns. Well, first of all, Mr. Chairman, I want to 
thank you for the opportunity to provide some testimony today. 
I've been the elected county attorney since 1986, and I'm happy 
to report as of this morning one thing that is encouraging to 
me, that is for those that use drugs are, in my opinion, 
becoming dumber and dumber, which I think helps us.
    I had UHP Trooper Larry Orton call me this morning and 
said, Burns, what do you think about this? The requirements for 
road blocks are extremely strict now, so up the canyon up by 
Milt's the other night we set up a sign that said, ``Drug dog 
ahead,'' and about 20 yards further we had another sign that 
said, ``DEA agents in the area.'' And then we set up a garbage 
can with a sign and a light that said, ``If you have any 
illegal drugs, please deposit them in this garbage can,'' and 
three or four cars actually stopped and put drugs in the can, 
and then the trooper arrested them at the bottom of the canyon.
    He said, ``Can we charge them with something?''
    And I said, ``Felony stupid comes to mind right off the 
bat.''
    So that's encouraging to me. Those types of tactics are 
working and telling me that people who are using drugs aren't 
thinking too straight.
    In 1990 and 1991 a U.S. attorney stated marijuana and 
cocaine were what we dealt with, and those were insidious drugs 
to individuals, but nothing to compare with methamphetamine. 
And we had always set up a task force in 1997 with several 
counties, several law enforcement agencies, and I'm glad to 
report that with the seizure laws that you have so strongly 
supported, and I submit to you and testify that those are 
enforced sparingly and only when applicable, we have seized 
well over a million dollars. We've purchased equipment, we've 
trained law enforcement officers, we bought cameras, and we 
tried to do--but funded their programs throughout Iron County, 
which I think is a model throughout the county forfeiture 
monies from the bad guys.
    But what we haven't been able to do is deal with three 
things--or two things that I see emerging, and that is with 
respect to methamphetamine violence. I had never looked at the 
effect of methamphetamine with respect to violent crime, and I 
can tell you that we recently finished a death penalty case in 
this county where a women was literally butchered and butchered 
in front of three small children, and it is my opinion that at 
the conclusion of that investigation, that trial, that death 
penalty verdict that the cause of that senseless death and 
really the ruination of three young people was methamphetamine.
    I see Mr. Murphy from the local paper who sat through the 
preliminary hearing, but he could also testify that we're now 
prosecuting the case for a little baby that happened to be 
introduced to a methamphetamine party. There's no doubt about 
that methamphetamine was being used at the party, people deny 
having any contact, but this innocent little child came out of 
that party with her chest kicked in and with serious damage to 
the brain. Violence due to methamphetamine.
    The second issue that I would like to address is that I 
believe rural America is being hardest hit. I know you have 
legislation pending hopefully that will help us, and we 
appreciate that, but I think a lot of the methamphetamine 
traffickers, and I think Mr. Mendrala and Mr. Warner will 
support me on this, that, you know, they have the idea that, 
you know, Oppie and Goober are alive and well in rural Utah, 
and if you set up a lab out there, we're not as likely to get 
caught.
    We're becoming more sophisticated, we're catching them now, 
but we now end up with the clean-up cost. And I know the 
governor more recently talked about running out of funds for 
that, and maybe the rural communities have to deal with that. 
We're going to need help because it's not a rural problem, it's 
a Utah problem and it's a national problem.
    The third thing I want to say and to echo what has been 
said, is that we appreciate the enhancement of the DEA in 
Southern Utah. You have no idea how the regional office has 
helped us. And I work closely with Don and Paul and the agents 
that are down here, and that type of expertise is invaluable.
    I want to thank you for your legislation and for the Byrne 
grant monies, and I know that you know funds our task force 
every year. We spend it, I promise you, sparingly.
    And the last thing I wanted to do, and I promise I know 
politicians so I know it sounds like I'm lying and sucking up, 
but on May 19 we had a banquet and I had no idea that these 
hearings were going to be held. We had a plaque for you. I know 
your schedule wouldn't permit you to be here for our narcotics 
task force. And she's a politician, too, but she will vouch for 
me that that was our intent, and I will provide our Chairman of 
the Iron County Commission to present you that plaque, Lois 
Bullock.
    Chairman Hatch. Well, thank you. She might not want to do 
it after I called her Lewis. [Laughter.]
    Well, thank you so much.
    Ms. Bullock. I'm not a Lewis.
    Chairman Hatch. Isn't that nice.
    Mr. Burns. Thank you very much for the opportunity to be 
here.
    Chairman Hatch. Thank you, Scott. You don't suck up to 
anybody. I've known you for a long time. I worry about you. We 
appreciate you and we appreciate the work that you're doing.
    Captain Peck, I'm going to turn to you guys.

               STATEMENT OF CAPTAIN RUSSELL PECK

    Mr. Peck. Thank you.
    U.S. Senator Orrin Hatch, hearing members and fellow 
citizens, I appreciate this opportunity to appear before you 
today to discuss the issue of the drug problem in Washington 
County and in the State of Utah. My name is Russell Peck and 
I'm a captain with the St. George Police Department. I'm also 
the commander of the Washington County Drug Task Force. I have 
been the commander since the task force was first organized 3 
years ago under the direction of Bob Flowers, chief of the St. 
George Police Department, Eric Ludlow, Washington County 
Attorney, and Glenwood Humphries, former sheriff of Washington 
County. The current sheriff of Washington County is Kirk Smith, 
who along with Bob Flowers and Eric Ludlow, constitute the 
governing board of the Drug Task Force.
    In my 15 years of law enforcement experience, I have seen 
methamphetamine use increase dramatically in our area. 
Methamphetamine is our number one problem and focus of illegal 
drug use in Washington County and the State of Utah. 
Methamphetamine affects us all, both old and young alike. From 
children, victims whose parents care more about meth than their 
kids, to those youth who abuse drugs. This effects our whole 
society in such a negative way. Marijuana is the next biggest 
problem and is often used in conjunction with methamphetamine. 
It is also the primary gateway drug.
    The clandestine meth labs and the dangers associated with 
those labs and the clean-up of toxic chemicals has also been a 
major problem in our area. But through the support of 
government grants and awards, such as Byrne grants from the 
Commission on Criminal and Juvenile Justice and HIDTA (High 
Intensity Drug Trafficking Areas) awards, a great amount of 
progress has occurred in our local drug war. This assistance 
has made a huge impact in our area towards the quality of life 
for our citizens. The extreme dedication of those officers on 
the front line, who at times have worked 24 straight hours in 
the investigation, scouting, and tactically securing the 
suspects of a meth lab, and then processing the lab, must never 
be forgotten, but supported and applauded for the sacrifices 
they make. These police officers on the front line deserve the 
respect and the best support our country and government can 
give.
    Our task force consists of only four detectives, one 
sergeant, and myself as the commander. We also have one 
prosecutor from the Washington County Attorney's Office, Brian 
Filter, who has done a tremendous job assigned to prosecute all 
task force cases. We also have an intelligence analyst from the 
Utah National Guard assigned to our task force.
    And, Senator Hatch, I would like to recognize our drug task 
force and just ask them to stand momentarily, if they would.
    Chairman Hatch. I thought that's where those guys worked. I 
was looking at that group. Don't tangle with them.
    Mr. Peck. I have listed some items that have had a huge 
impact in our county and the State of Utah, and they are as 
follows:
    Again, funding for task forces provided by Commission on 
Criminal and Juvenile Justice and HIDTA (High Intensity Drug 
Trafficking Area). This provides much needed training, 
equipment, overtime, buy money, operating expenses, facilities, 
and financial support. Without this there would be no task 
force.
    The dedication of the police officers, the prosecutors, the 
support personnel, finance officers, and all the others who 
assist and care about fighting the drug war.
    Assistance from the DEA in our area, especially support 
from the special agent in charge, Mike DeMarte. Also, resident 
agent in charge Don Mendrala and DEA supervisors on Pat Dunn 
and Geno Corley. Each has been very supportive.
    The support and assistance from the Utah National Guard. 
They provide an intelligence analyst working full time for the 
drug task force.
    The establishment of trained officers to tactically take 
down meth labs in our area, as well as process and dismantle 
them. Prior to the establishment of the task force, the closest 
people were from Salt Lake City. We also utilize the St. George 
Special Emergency Response Team on all high risk drug search 
warrants and clandestine drug lab warrants. Also being able to 
obtain the necessary equipment to safely and effectively take 
down and dismantle meth labs.
    And the cost for the hazardous waste contractors to dispose 
of the meth labs taken care of by the DEA.
    The aggressive enforcement and prosecution of all involved 
with illegal drugs from simple possession to manufacturing and 
distribution of controlled substances. Many crimes on the 
periphery, such as theft, burglary, and crimes of violence are 
committed by drug users. Focusing on the drug problem 
eliminates many other crimes.
    Aggressive Utah legislation on possession of precursor 
chemicals such as pseudoephedrine, iodine crystals, and red 
phosphorous has been a tremendous help.
    Education about methamphetamine for retail establishments, 
specialized civic groups, youth groups, and citizens. This has 
been accomplished through classes taught by task force members, 
booths at health fairs, television, radio, and newspapers.
    Community involvement. Hitting the problem at all angles 
from police officers to teachers in the education system. This 
is a social problem and not just an enforcement problem.
    I have briefly touched on the drug problem in our area and 
items that have been a great benefit in our local battle. We 
are not losing this war. Our goal is to make it extremely 
dangerous for drug dealers and users to operate in our county, 
to reduce the availability of drugs, drive the price up of 
illegal drugs and simply make it not worth the consequences for 
those that would infect our society. We have made a lot of 
progress in the last 3 years and hope for even more.
    Senator Hatch, we deeply appreciate and feel your support 
and commitment to the drug war. We appreciate your leadership 
and thank you for this opportunity to talk about our area.
    I also have a short slide presentation I would like to show 
you, Senator Hatch.
    Chairman Hatch. Sure.
    Mr. Peck. I don't know if everyone can hear me. I'll go 
through this.
    This is a poster, basically was taken--or the photograph 
was taken at one of our drug houses. These are just some 
newspaper articles about some of our work.
    This is an interesting one where a man was arrested for not 
only child pornography, but also methamphetamine 
andparaphernalia and marijuana.
    This is, of course, methamphetamine. This is what it looks 
like.
    One of the precursors pseudoephedrine, it is easily bought 
at the stores. And Utah just in the last few years enacted 
legislation to make it illegal to possess more than 12 grams of 
this. This has been a great help again.
    Another precursor chemical iodine crystals, again the Utah 
legislature has enacted laws that make it illegal to possess 
more than two ounces, and that has been a great help.
    The other one, red phosphorous, same thing, Utah 
legislature now has made it illegal to possess any of this. 
This has been a great help.
    This is some of the glassware that we see with these 
clandestine labs. Some of the chemicals, these are some of the 
ingredients used to make methamphetamine that we see down in 
our area.
    Common ingredient Heat, we see some on the table there.
    These are some pictures of some meth labs down in our area.
    You can see some of the protective equipment that we 
utilize that we've been able to purchase through HIDTA and also 
Byrne grants that have been a great help to us.
    Some of our guys on the front lines of our drug task force 
that went through the training.
    There on the left is a suspect that was in possession of a 
meth lab. This individual actually came up from Las Vegas, much 
like County Attorney Scott Burns talked about, where they come 
into rural Utah. They think that we don't know anything about 
it and try to set up shop here.
    This is our meth lab trailer that we use to take down the 
meth labs.
    This is our Special Emergency Response Team. Through some 
of our grants and through the DEA we've been able to get these 
men trained in the site and how to take down a meth lab 
tactically. It's been a great help.
    This is some of our guys that are getting ready to go on a 
briefing, or ready to go on a raid, they're at a briefing right 
now.
    If you can see the gentleman in the back, right there in 
the white coat, he is one of our City Councilmen. We've had 
great support from our city leaders.
    There we have our chief of police Bob Flowers and also 
Mayor McArthur has also been at the site and seen some of these 
things first hand.
    This is the kind of places that we see the meth labs set up 
temporarily in rural Utah, from a trailer in the city to two 
nice homes in a nice residential area.
    These are some drug suspects that have specifically 
admitted having been on methamphetamine for quite a while. And 
as you can see it involves the youth.
    And I thought this was an interesting picture. It actually 
covers the whole age group. We have a gentleman here that's 
probably in his 50's, a man here in his 20's, and this young 
gal was 13 or 14 years of age.
    Another picture of our suspect that came from Vegas, set up 
shop. Went through one of our local IFA dealers to buy some 
crystal iodine, and we were able to, through an investigation, 
get a search warrant and take this lab down.
    More of our drug suspects.
    As you can see, too, we talked a little bit about the 
firearms and the weapons that are used in the drug world. We 
see a lot of this as well. The police scanners, the weapons. Go 
right along with methamphetamine.
    This particular gun right here was stolen with another 
group of guns, not this gun but another gun in that same group 
was used in a homicide over drugs over in the Monticello area.
    Again, they have counterintelligence, police magazines, 
scanners, frequency guides.
    I thought this was kind of ironic, there's marijuana and 
Tupak Shakur with marijuana leaves there and a scale to weigh 
out their drugs, and they mockingly say, ``Stop Crime.''
    This is a group of young adults that were at the scene of a 
search warrant where a lot of--actually marijuana was found.
    We're finding again a lot of the drug dealers want to 
protect what they have. This particular dog was a pit bull, a 
very vicious dog that attacked the officers and had to be shot.
    This is a drug suspect that was at the scene of a meth lab, 
he had actually been cooking for quite a while. We 
decontaminated his clothing and shortly after that picture was 
taken he decided to become violent, and we snapped some 
pictures while the officers had to basically wrestle him to the 
ground to contain him.
    Again, methamphetamine is our primary problem, but we also 
have marijuana which is a gateway drug. And we have, of course, 
growers down in our area. This young man is 18 years of age who 
was at the site of this marijuana area.
    This is sad to see the children that are involved in these 
kind of things.
    Several of our marijuana drills. And that's the end of the 
presentation. Thank you.
    [The prepared statement of Captain Peck follows:]

               Prepared Statement of Captain Russell Peck

    United States Senator Orrin Hatch, hearing members, and fellow 
citizens: I appreciate this opportunity to appear before you today to 
discuss the issue of the drug problem in Washington County in the State 
of Utah. My name is Russell Peck and I'm a Captain with the St. George 
Police Department. I am also the commander of the Washington County 
Drug Task Force. I have been the commander since the task force was 
first organized, three years ago under the direction of Bob Flowers--
Chief of the St. George Police Department, Eric Ludlow--Washington 
County Attorney, And Glenwood Humphries--former Sheriff of Washington 
County. The current Sheriff of Washington County is Kirk Smith, who 
along with Bob Flowers and Eric Ludlow, constitute the governing board 
of the Drug Task Force.
    In my 15 years of law enforcement experience, I have seen 
methamphetamine use increase dramatically in our area. Methamphetamine 
is our number one problem and focus of illegal drug use in Washington 
County and the State of Utah. Methamphetamine effects us all both young 
and old alike. From children victims whose parents care more about meth 
than their kids to those youth who abuse drugs. This effects our whole 
society in such a negative way. Marijuana is the next biggest problem 
and is often used in conjunction with methamphetamine. It is also the 
primary gateway drug.
    The clandestine meth labs, the dangers associated with those labs, 
and the clean up of the toxic chemicals, has also been a major problem 
in our area. But through the support of government grants and awards 
such as Byrne grants from the Commission on Criminal and Juvenile 
Justice and HIDTA (High Intensity Drug Trafficking Areas) awards, a 
great amount of progress has occurred in our local drug war. This 
assistance has made a huge impact in our area towards the quality of 
life for our citizens. The extreme dedication of those officers on the 
front line, who at times have worked 24 straight hours in the 
investigation, scouting, and tactically securing the suspects of a meth 
lab, and then processing the lab, must never be forgotten, but 
supported and applauded for the sacrifices they make. These police 
officers on the front line deserve the respect and the best support our 
country and government can give.
    Our task force consists of only four detectives, one sergeant, and 
myself as the commander. We also have one prosecutor from the 
Washington County Attorney's office, Brian Filter, who has done a 
tremendous job, assigned to prosecute all task force cases. We also 
have an intelligence analyst from the Utah National Guard assigned to 
our task force.
    I have listed some items that have had a huge impact in our county 
and the State of Utah. They are as follows:
    <bullet> Funding for task forces provided by CCJJ (Commission on 
Criminal and Juvenile Justice) and HIDTA (High Intensity Drug 
Trafficking Area). This provides much needed training, equipment, 
overtime, buy money, operating expenses, facilities, and financial 
support. Without this, their would be no task force.
    <bullet> Dedication of the police officers, prosecutors, support 
personnel, finance officers, and all others who assist and care about 
fighting the drug war.
    <bullet> Assistance from the DEA in our area, especially support 
from Special Agent in Charge, Mike DeMarte. Also, Resident Agent in 
charge Don Mendrala and DEA supervisors Pat Dunn and Geno Corley. Each 
has been very supportive.
    <bullet> The support and assistance from the Utah National Guard. 
They provide an intelligence analyst working full-time for the drug 
task force.
    <bullet> The establishment of trained officers to tactically take 
down meth labs in our area, as well as process and dismantle them. 
Prior to the establishment of the task force, the closest team was from 
Salt Lake City. We utilize the SERT (Special Emergency Response Team) 
team from the St. George Police Department on all high-risk drug search 
warrants and clandestine drug lab warrants.
    <bullet> Obtaining the necessary equipment to safely and 
effectively take down and dismantle meth labs.
    <bullet> The cost for the hazardous waste contractors to dispose of 
the meth lab taken care of by the DEA.
    <bullet> The aggressive enforcement and prosecution of all involved 
with illegal drugs from simple possession to manufacture and 
distribution of controlled substances. Many crimes on the periphery 
such as theft, burglary, and crimes of violence are committed by drug 
users. Focusing on the drug problem eliminates many other crimes.
    <bullet> Aggressive Utah legislation on possession of precursor 
chemicals such as pseudoephedrine, iodine crystals, and red 
phosphorous.
    <bullet> Education about methamphetamine for retail establishments, 
specialized civic groups, youth groups, and citizens. This has been 
accomplished through classes taught by task force members, booths at 
health fairs, television, radio, and newspapers.
    <bullet> Community Involvement. Hitting the problem at all angles 
from police officers to teachers in the education system. This is a 
social problem and not just an enforcement problem.
    I have briefly touched on the drug problem in our area and items 
that have been a great benefit in our local battle. We are not losing 
this war. Our goal is to make it extremely dangerous for drug dealers 
and users to operate in our county, to reduce the availability of 
drugs, drive the price up of illegal drugs and simply make it not worth 
the consequences for those that would infect our society. We have made 
a lot of progress in the last three years and hope for even more.
    Senator hatch, we deeply appreciate and feel your support and 
commitment in the drug war. We appreciate your leadership and thank you 
for this opportunity to talk about our area.

    Chairman Hatch. Well, thank you. That was very interesting. 
It gives people a first hand look at some of the things you're 
doing.
    A lot of people don't realize that Utah is a 
methamphetamine State. And if you look west of the Mississippi 
you see an awful lot of methamphetamine shutdowns and very few 
east of the Mississippi. And even in the new areas, in the far 
eastern part of the country, but it's moving rapidly there.
    Three years ago we were the third largest methamphetamine 
lab shutdown state, which was shocking to me. Now we make 
better records, we may have better law enforcement, and that's 
one reason why we were so high. Still it's shocking to find 
that they're having that kind of influence in Utah.
    And, as Mr. Mendrala said, you know, before they didn't 
stay, but now a good 50 percent of these drugs stay here.
    Well, let me just say this: The administration has decided 
that they have seen that drug use since 1997 has decreased by 
13 percent and appears to be leveling off for the first time 
since it began to increase in 1992; however, it should be 
pointed out that use among young age groups is remarkably 
higher now than in 1992.
    For me the problem is, and I hope that you will all agree, 
that even if teen use is leveling off, it is leveling off at an 
unacceptably high rate. For example, a study of drug use among 
eighth graders since 1992 has increased by 129 percent for 
marijuana, by 80 percent for cocaine use, and by 100 percent 
for crack and heroin; the use of crack and heroin. This is 
among our teenagers.
    Initially the perception was that youth drug use was 
described only in our urban areas and that, of course, has 
proven to have been mistaken, too. According to a recent report 
funded by the DEA, illegal drug use among teens is noticeably 
higher in rural America than in urban and suburban areas.
    Now, that's astounding to me. The report found that eighth 
graders living in rural areas compared to eighth graders living 
in urban areas, are 104 percent more likely to use 
amphetamines, including methamphetamine, 50 percent more likely 
to use cocaine, 30 percent more likely to smoke marijuana, and 
83 percent more likely to use crack cocaine.
    Now, this is particularly troubling to me representing a 
State that is considered a rural state.
    Now, let me ask you again, Mr. Warner, what do you think 
accounts for this drastic increase and what really, in addition 
to what you have already said, are the strategies for bringing 
this down?
    Mr. Warner. To be very candid with you, Senator----
    Chairman Hatch. You see, I'm really wondering what we can 
do to protect our teenagers.
    Mr. Warner. I think there's a couple things that need to be 
recognized. One's been alluded to here already, but I want to 
emphasize that one point. And this isn't a law enforcement 
problem, per se, this is a problem for all of us. And law 
enforcement isn't going to solve this problem alone. As good as 
the efforts are, and they have been wonderful in this State, in 
my opinion, and the cooperation between State, local, and 
several law enforcement officials and prosecutors has been 
outstanding in Utah and has been a model for the rest of the 
Nation. But, unfortunately, it is a problem that we can't 
prosecute out of existence.
    And so education and public awareness is a huge factor, in 
my opinion. We need to join forces with a variety of groups, 
church groups, schools, PTA, you name it, to help educate our 
youth, help them understand such things as we refer to 
marijuana as the gateway drug. I think our youth need to 
understand that. I think they need to understand that the 
dangerous effects of Ecstasy, as an example, that it's not a 
safe drug. There is no such thing as a safe drug, as one leads 
to another. And I think through that kind of a joint effort 
we're going to be making headway.
    But, unfortunately, from the law enforcement perspective I 
don't see us being able to turn the corner alone, because by 
the time we see these people and by thetime we see the cases, 
the damage is done.
    Chairman Hatch. Anybody else care to comment? I'll agree 
with that.
    Let me ask you a question specifically while we're with 
you, Paul, I know that you made a high priority of prosecuting 
criminals who illegally enter into our country after having 
been deported with a criminal record. Your office has handled 
hundreds of these so-called aggravated re-entry cases. Your 
efforts are very important to the Utah crime reports because 
the population of illegal aliens with criminal records is 
responsible for the significant percentage of the crime rate 
along the Wasatch Front.
    But I would like to know the link, if there is one, between 
these criminals who are re-entering the country and the 
emerging drug threat that we're talking about today, and I 
don't want to limit it to the Wasatch Front, I want to consider 
the rural areas as well.
    Mr. Warner. Well, there's no question there's a link, 
Senator, between criminal aliens and our drug problem. They are 
part of the distribution network, if you will. Much of the 
methamphetamine that I refer to the so-called Mexican meth is 
being brought to the United States and subsequently to Utah by 
these criminal aliens. They are part of the distribution 
network as well. So they're being used to bring it up from 
Mexico and they're being used to distribute it within Utah.
    We just indicted two major drug trafficking organizations 
last week involving over 25 individuals that were indicted. The 
majority of those individuals were criminal aliens that were 
involved in Salt Lake City and Ogden in the trafficking of 
methamphetamine and other drugs.
    This is a huge problem for us in Utah. The link is clear. 
Unfortunately, INS has brought in quick response teams for St. 
George, Provo and Ogden that will enable us to get out beyond 
just the Wasatch Front, if you will, in terms of our 
enforcement efforts on criminal aliens throughout the State.
    Chairman Hatch. Don, let me ask you this question: Utah has 
one of the largest per capita numbers of methamphetamine labs 
in the country. Now, that's an alarming statistic, but even 
worse there seems to be a large amount of methamphetamine being 
imported into the State of Utah from outside the State and the 
country, and Paul has alluded to that.
    What percentage of Utah's meth problem has come out of the 
State and what are its major sources? And keep in mind any of 
the other ones that care to comment.
    Mr. Mendrala. The major source for us is Mexico, Mexican 
traffickers. It's interesting.
    Chairman Hatch. Put that microphone a little closer.
    Mr. Mendrala. With the Mexican meth that comes up here, one 
pipeline stop, for instance, could count for 20 pounds, maybe 
more. We've had as high as 30, 40 pounds. That single seizure 
will account for more methamphetamine than all the 266 labs 
that were shut down.
    Chairman Hatch. What are you referring to, the worth value 
on the street?
    Mr. Mendrala. Right now at least $10,000 per pound, if it's 
sold at wholesale.
    Chairman Hatch. If you sell it at retail----
    Mr. Mendrala. Retail is in the millions.
    Chairman Hatch. In the millions?
    Mr. Mendrala. The percentage that we're seeing now Mexican 
meth versus the domestic meth is at least 50 percent of the 
seizures we're making, again because it's somewhat skewed, the 
Mexican traffickers are able to bring in so much more meth than 
these domestic labs are capable of producing. So although our 
resources a lot of times are devoted to the clandestine labs, 
which is a real local and community issue, for several reasons, 
toxic waste, and so forth, the real bulk of the drug is coming 
from Mexico.
    Chairman Hatch. Well, methamphetamine lab and seizures 
continue to rise dramatically here across the west as a whole. 
Increasing amounts of the drugs coming to the United States 
from Mexico, as you mentioned, and what was once a problem 
largely confined to the southwestern part of the country, is 
now rolling across the whole country and right into the east 
coast.
    Mr. Mendrala. Absolutely.
    Chairman Hatch. In Utah alone DEA lab seizures have risen 
from 29 in 1995 to over 200 last year, and that number does not 
even account for seizures at State and local offices. Now, this 
is occurring despite the fact that I and many other legislators 
at all levels of government have worked hard to draft laws to 
provide additional tools specifically directed to the 
methamphetamine problem. I'd like to know have these tools 
proved beneficial to you, if not, how can we to do a better job 
to get more tools to solve these problems? And I would like all 
four of you to respond to that question, if you would.
    Mr. Mendrala. They've been very helpful, especially in 
regard to the precursor chemicals. It's a simple formula, if 
you don't have the chemicals, you can't make the meth. So if 
we're able to shut down the supply of chemicals, limit the 
supply of chemicals that people can have lawfully, the 
methamphetamine problem is diminished.
    Chairman Hatch. I know that the DEA has been working very 
hard to stop these clandestine chemical manufacturers that are 
making with organized crime, for instance. Do you have anything 
to comment, Mr. Warner?
    Mr. Warner. Just to echo on what Don said, I think it's 
important to keep in mind that meth is different from other 
drugs that we have dealt with in the past because it's 
manufactured by the users often. Cocaine, heroin, it's not 
manufactured by the people that are using. But people because 
methamphetamine is a drug that is manufactured in these 
clandestine labs that this attack on the precursor chemicals is 
very, very important. And through your efforts, Senator, and 
through the efforts of the Utah Legislature to limit the 
amounts of availability on these precursors, labs--excuse me, 
the precursor chemicals make a big difference. It's helped a 
lot.
    And I think that the other thing that's important is our 
ability to punish adequately the difference between those who 
manufacture this chemical or this drug and those who simply use 
it, again, because it is a manufactured drug.
    And so I know that your meth bill that you provide a 
special penalty for those who manufacture and I think that was 
very important. Because I think there is a distinction in 
culpability between those who would actually produce the drug 
for others and those who are merely using. When I say merely, 
I'm not justifying, but I'm saying by way of comparison.
    Chairman Hatch. Scott, any comments?
    Mr. Burns. Just to echo what Paul was saying. As youmay 
recall, Utah was embarrassingly one of the last States in the country 
to control pseudoephedrine. We were the place. We were the Home Depot 
for the meth consumption of the United States of America. And they went 
up and down our freeways.
    Here in Iron County we finally started arresting them and 
attempted manufacturers of methamphetamine. That didn't go over 
well with Paul Van Dam, then the attorney general, the then 
U.S. attorney. But I would echo everything that they said and 
that is you cut off the chemicals, if they don't have the 
flour, they can't make the cake. I think we're doing a lot 
better in those efforts.
    Mr. Peck. I would agree, Senator Hatch. I think that some 
of the recent Utah legislation on the precursor chemicals has 
made a tremendous difference and helped us out a lot.
    And you asked the question a little bit about the tools 
that we've had available through the funding of HIDTA and the 
Byrne grants, that's been a tremendous help for us. Especially 
now in St. George, and I know for Cedar City as well, we're--we 
kind of have to stand on our own two feet. We can't rely on the 
bigger agencies from Salt Lake City or anywhere else. Las Vegas 
is a couple hours away, but they're in a totally different 
jurisdiction.
    So we have to be prepared, basically, to handle our own 
down here in the corner of the State. And those different 
programs have just been a tremendous help for us down here.
    Chairman Hatch. Well, thank you.
    Scott, tell me, a lot of young people think that they can 
just take methamphetamine and get right off of it if they want 
to, enjoy it for a little, or with Ecstasy or these other club 
drugs. What's your experience with that?
    Mr. Burns. Well, in part I would defer that. I understand 
that Bradley Davis is here. I want to commend him, he's a 
person that I even prosecuted on a couple of occasions, and I 
think he can better address that than I can.
    But, Senator, the people that I have talked to tell me 
literally that once addicted to this drug, and often times it 
takes one time, one Saturday night, one friend saying try this, 
one time, they will give up their children, they will leave 
their wives and husbands, they will miss house payments, they 
will not eat, they will miss car payments. They will give up 
everything in their life for that next fix. And it is--again, I 
think the studies bear out you talk about heroin, but my 
experience has been in talking to those people have been 
addicted to it, it is the most difficult drug to kick.
    Chairman Hatch. In Iron County here have you prosecuted a 
lot of meth cases here? Have you had a lot of problems in 
methamphetamine here in this area?
    Mr. Burns. You know, for rural Utah in comparison to the 
Wasatch Front, they might giggle, for us it is a huge problem. 
And tantamount to that we're finding that our burglaries and 
robberies, and a lot of crime are directly related to 
methamphetamine. You lose your job, you don't have money, you 
steal. So it's a tremendous problem for us.
    Chairman Hatch. Another pressing issue on this topic 
concerns the clean-up of the methamphetamine labs. You've all 
alluded to the fact how dangerous they are, with the record 
number of lab seizures in the State the DEA and the State are 
running out of resources to handle the clean-ups. In light of 
this I was amazed to learn the Clinton administration rejected 
our request in this year's budget for $21 million for lab 
clean-up. And despite this rejection of funds, there has been 
new money allocated to Utah for clean-up and recently I've been 
informed that the money will be distributed soon.
    But, nonetheless, we're going to end up with the same 
predicament in the future unless the administration takes the 
problem seriously.
    Now, Mr. Mendrala, has the DEA been able to discuss this 
issue with members of the administration or anyone else in the 
administration? Does the DEA have a backup plan where the 
administration fails again to fund any of those plans?
    Mr. Mendrala. Senator, originally that money lasted a lot 
longer than it did, but with the number of labs the money 
literally dried up overnight.
    We've been engaged in dialogue we're hoping for more money, 
because when that money is gone, I don't know what we're going 
to do.
    Chairman Hatch. It's dangerous to clean up labs.
    Mr. Mendrala. It's very dangerous.
    Chairman Hatch. The guy yesterday said it's a sitting time 
bomb, these labs can explode. They're environmentally very 
toxic, poisonous. They can affect children. They degrade a 
house or a rented house where it costs thousands and thousands 
of dollars to renovate it after one of these things.
    Anything else you care to say about that?
    Mr. Mendrala. No. That pretty well sums it up. It's the 
greatest law enforcement concern we have. If the money goes 
away, we won't have any means.
    Chairman Hatch. Mr. Warner and I worked on a case where a 
really nice young person and from a very decent family got 
convicted, went to Federal prison, promised he would get off of 
it, was in prison long enough to get off of it, came back out, 
and really good kids, decent, wonderful, supportive family, all 
of a sudden went right back to it.
    In this case the parents I know, since they have a child or 
son, I didn't know what to do and I chatted with them. As we 
got into this we found out that probably the best thing for 
that person was--he was convicted again. He was sentenced to a 
Federal rehabilitation facility. And the indication was--and 
correct me if I'm wrong, Paul, but the indication was it would 
take up to 3 years of intensive Federal rehabilitation and then 
they would be able to do to get the person sitting right. The 
desire will always be there.
    You young people need to hear these things as you see one 
time can cause them to be addicted to this drug.
    Let me just ask you, Scott, and Mr. Peck, in rural areas 
what is the extent that we are seeing methamphetamine use in 
teens and young adults?
    Mr. Peck. Senator, if I might answer that. Scott.
    Mr. Burns. Go ahead.
    Mr. Peck. Methamphetamine we see it run through the age 
gamut what we see through the young adults and marijuana. We do 
see a little bit of methamphetamine use by teenagers but more 
marijuana, which is the gateway drug that we send down the meth 
road, I would say. Most of our meth users are in their 20's and 
30's. But it usually starts out when they're a teenager with 
marijuana.
    Chairman Hatch. Would you agree with that, Scott?
    Mr. Burns. Yes.
    Chairman Hatch. I appreciate you giving us this information 
because it's time for your communities to realize how important 
it is. Most people don't hear about it. Most people don't--you 
know, you don't always put in the newspapers what's really 
going on. It's shocking. And it's happening right here in Utah, 
a State with good families and decent moral values, and a State 
where you think this isn't a problem.
    We haven't talked much about the problems where these kids 
they're going to places and they're selling these club drugs. 
They're putting our kids in danger. And young people are being 
raped, not knowing who raped them, because they're out cold and 
they have a form of amnesia, and after that they don't 
remember. This is a matter of great concern.
    I want to thank all of you for being here today and thanks 
for taking this time.
    Mr. Burns. Thank you, Mr. Chairman.
    Mr. Peck. Thank you.
    Chairman Hatch. Let me call our second panel in. I'll try 
to get back to you.
    I am pleased to introduce our second panel of witnesses. 
This panel will discuss the scope and effects of the drug 
problem currently facing our youth in Utah. And our first 
witness is an old friend, Tibby Milne, who works with Utah 
Crime Prevention to keep our kids off of drugs. We appreciate 
your work and your willingness to share your thoughts with us 
today.
    Our second panel member is Sandy Harmon, who is the program 
director for substance abuse treatment for the Southwest Center 
in St. George. Ms. Harmon, we welcome your thoughts and we're 
fortunate to have you here today as well.
    Next we'll hear from Barbara Corry from Cedar City the PTA 
regional director of Region 16. And we commend your efforts as 
well in the community to keep our youth away from harmful drugs 
and we look forward to your testimony.
    Then we'll hear from two people who have had personal 
experience with the dangers posed by illegal drugs.
    Next we'll hear from Bradley Davis, who is a convicted 
methamphetamine manufacturer and dealer who will tell us about 
his experience, then Jana Houston will tell her story about the 
devastation that methamphetamine caused to her and her family 
when her husband became involved with meth.
    I just want to say we appreciate the willingness of these 
witnesses, these two witnesses in particular, to share their 
personal stories here with us today. So I would like to welcome 
each of you to the hearing. And we'll start with you, Ms. 
Milne.

    PANEL CONSISTING OF TIBBY MILNE, UTAH COUNCIL FOR CRIME 
PREVENTION; SANDY HARMON, PROGRAM DIRECTOR FOR SUBSTANCE ABUSE 
TREATMENT, SOUTHWEST CENTER, ST. GEORGE UT; BARBARA CORRY, PTA 
  REGIONAL DIRECTOR, REGION 16, CEDAR CITY UT; BRADLEY DAVIS, 
  CONVICTED METHAMPHETAMINE MANUFACTURER AND DEALER; AND JANA 
         HOUSTON, FAMILY DEVASTATED BY METHAMPHETAMINE

                    STATEMENT OF TIBBY MILNE

    Ms. Milne. Before I begin my testimony today----
    Chairman Hatch. You better pick that mic up.
    Ms. Milne. Before I begin, and I first I have to figure how 
to turn this on. OK.
    Chairman Hatch. Use that one.
    Ms. Milne. OK. Before I begin my testimony today, there are 
a couple things I'd like to do and one is commend to you, Mr. 
Chairman, Senator Hatch. I have worked with you for many, many 
years and have watched as you have demonstrated unwavering 
commitment to the children and youth from families in this 
State and across the Nation. And I know that's why you're here 
today, and I just want to commend you for that.
    Chairman Hatch. Thank you very much.
    Ms. Milne. Our focus is on prevention because these drugs 
are waging a major war against our children and youth.
    On March 16, I was called by Don Mendrala to go to the 
dismantling of a methamphetamine lab that came about as a 
result of a tip that had been received on our hotline. We 
started a program with the Salt Lake Police Department so we 
could get people to call in and report these labs, and we, in 
turn, would report that information, and our goal was to reduce 
the problem in our community. But nothing prepared me for what 
I saw or what I experienced. There were two children in the 
home and they were living in a very contaminated environment, 
it was filthy.
    And I want to read this because according to the court 
documents, when the agents arrived, they found a boiling 
reaction vessel and condenser column near a child's training 
toilet. They found three guns, one loaded, and accessible to 
the children, I believe that was at the foot of the beds, the 
children's beds. They found a red phosphorous stained towel 
that was sitting on a tray that was to go on the high chair. 
And they found meth chemicals in the children's closet, and 
also a bowl of moist meth was found on the coffee table.
    Now, the day before this incident happened one of the 
children had been run over by a vehicle out in the play area 
out in front of the house. He had been left unattended and he 
was 1 year of age. He suffered two broken arms and legs, 
cracked ribs, plus severe head lacerations, and I understand 
required over a hundred stitches.
    In addition, the parents have refused to identify who the 
person was who was driving that vehicle. DFS workers went in, 
they removed the children from this home, but both of these 
children tested positive for meth and marijuana.
    And I followed the status of these children and have 
learned that the one that was injured has recovered but is in 
therapy, and that the 5-year-old is in a foster home, but still 
unable to even identify his colors. He's very slow 
developmentally.
    And then I think we need to state here that 60 percent of 
the meth labs have children involved, and they're generally 
young children under the age of 10. That really helped me begin 
to realize it's more than we see over here, it's children's 
lives. And these kids are going to cost this State many, many 
dollars in resources because of what happened.
    And then we go into our young mothers who are child bearing 
that are having these little babies and using meth. And the 
concern I have is for the youth that are using methamphetamine. 
They think of it as a diet drug. They think of it as an energy 
booster, this is a way to stay up late and get more 
accomplished and have a good time. They don't realize the 
addiction that can occur and what this is going to mean to 
them.
    I am worried about the use of the club drugs. I have taught 
two victims that have experienced this. These are girls that 
would not have taken drugs in any other situation. They thought 
what they were doing was safe and they were drinking drinks 
that had the drugs put in them.
    I just returned last night from a national DARE conference 
in Nashville, TN. They are focusing on club drugs in a big way 
because of the impact on our youth.
    So what we're committed to doing as a council is really to 
work together with parents, law enforcement, schools, and 
communities and we're trying to get persistent consistent 
messages out to our children and youth that we don't use drugs 
and here is why. And we're also trying to get these out to our 
parents. We work with the Partnership for Drug Free America. 
We're trying very hard and our media has been very supportive 
to print the ads, also put them on the electronic media to get 
messages to children and their parents.
    I brought a great poster for you. This is one of our youth 
posters, but this is ``Body by Crystal Meth.'' We're trying to 
get the message out to kids that this isn't how you get buff, 
as the guys like to call it, and this isn't how young women can 
lose weight.
    The Partnership for Drug Free America just released their 
PATS study in the spring of 1999 and they said that parents and 
the youth are listening and that there appears to be an impact, 
as was mentioned earlier, in reducing drugs. But they also 
indicate in this study that despite the more active role that 
many parents are overwhelmed by the scope of the drug problem. 
They don't know what to do. They're losing their confidence and 
their ability to safeguard children from drugs.
    We know that kids are 50 percent less likely to use it if 
parents give them the right messages about drug use. So we're 
going into several areas, and I just want to share a couple of 
them with you. A Let's Talk Utah campaign encouraging parents 
and kids to talk together, our DARE officers are going to be in 
the classrooms giving the lessons that need to be given to 
young people. We're excited about that. Because in this 
community we have seen a reduction in the use of drugs by those 
who have had all three levels of DARE.
    Now, I just want to close with something that I thought was 
powerful. In Nashville we released a new study that's done on 
DARE kids in Texas, and it showed some of the following by the 
kids that are getting these messages. These students have a 
more positive perception of police, greater sense of safety in 
the community and at home, greater family involvement and 
communication, increased mutual care and respect within the 
family. They are more involved in school activities. They have 
greater respect for authoritative figures. They are confident 
of peer intervention with drug and alcohol abuse and they show 
lower truancy rates.
    We're embarking on getting DARE officers to teach parents 
at the workplace, community centers, and churches, anyplace we 
can. We believe that working together, just as you have 
demonstrated, all of my life as I've been in crime prevention 
that we can protect children, our most precious resource. We 
welcome the opportunity.
    [The prepared statement of Ms. Milne follows:]

                   Prepared Statement of Tibby Milne

    Ladies and Gentleman of the Committee:
    On March 16, 2000, I was called by Don Mandrela, Resident Agent in 
Charge of DEA, to witness the dismantling of a Methamphetamine Lab 
immediately following a raid on a suspected meth lab at an apartment 
complex.
    On February 3rd of this year, in a joint effort with the Salt Lake 
City Police Department, we launched a new anti-meth educational 
campaign titled ``What's Cooking in Your Neighborhood?'' Our goal was 
to assist law enforcement with the possible locations of clandestine 
labs by providing an anonymous tip line for individuals to call and 
report suspicious meth drug activity in their neighborhoods. In 
addition to this tip line, we provided information to the public about 
what to look for in the way of materials and equipment, smells, etc. 
Our first lab was about to be dismantled as a result of information 
received on the tip line.
    Nothing prepared me for what I witnessed. All of the usual lab 
equipment and chemicals were there. However, there were also two 
children in this home, and they were living in a contaminated and 
filthy environment. According to court documents, when the agents 
arrived they found a boiling reaction vessel and condenser column near 
a child's training toilet. They found three guns, one of them loaded 
and accessible to thechildren. A red phosphorus stained towel was found 
in the eating tray for the high chair. Meth chemicals were found in the 
children's closet, and a bowl of moist meth was found on the coffee 
table.
    The day before, the year old child had been run over by a vehicle. 
He was apparently left unattended. He suffered two broken arms and 
legs, cracked ribs, plus severe head lacerations requiring many 
stitches. The parents refused to provide the name of the driver. DFS 
workers who were on the scene at the time of the raid, removed the 
second child from the home. Both children tested positive for 
methamphetamine and marijuana.
    I have followed the status of these two children since March 16th 
and have learned that the little one that was injured has recovered, 
but is still in therapy. The five-year old is in a foster home, but 
having much difficulty in his development.
    These children will more than likely need resources and support 
from the state for many years to come. I have learned that 60 percent 
of Meth labs are located where there are little children living. What 
does all of this mean? We have only begun to realize the impact that 
meth will have on the precious resources of this state for many years 
to come let alone the damage to these innocent children.
    We are seeing more and more youth becoming addicted to meth. In 
Utah, as in other states with meth production, we know our youth are 
choosing meth as a drug of choice, particularly our young women. They 
think of it as a `diet' drug or energy booster. Many are taking it 
innocently, only quickly to find themselves addicted. According to the 
Utah Division of Substance Abuse, the highest users of meth are young 
women in the 18-34 age group. These are also women of childbearing age 
and the mothers of little children.
    In addition, Utah is beginning to experience a rapid increased use 
of ``club'' drugs (GHB, Ectasy, Rohypnol, and others) by our youth and 
young adults. These drugs are often consumed at `raves' (all night 
dance parties attended by teens) and dance clubs frequented by teens 
and or young adults. They are sometimes diluted in a drink or ingested 
in some other fashion. These drugs, because of their newness on the 
scene, are dangerous due to the perception by our youth that they are 
`safe' drugs. Many of our youth who would not normally take drugs, are 
using the date drugs.
    Parents are often unaware that their children are attending events 
where these drugs are consumed. At the National D.A.R.E. Conference, 
being held in Nashville this week, club drugs are being addressed as a 
major concern facing our youth.
    The Utah Council for Crime Prevention is seriously committed to 
educating the community on the dangers of drugs facing our youth, and 
are conducting several programs that will empower parents, law 
enforcement, schools and community together in partnership to provide 
consistent and persistent anti-drug messages to our youth. We are about 
solutions. Through our partnership with the Partnership for Drug-Free 
America, we are increasing our efforts to provide anti-drug messages on 
radio, television, and in print media focusing on children, youth, and 
their parents.
    As we have already discussed, our ``What's Cooking in Your 
Neighborhood?'' campaign focuses on providing a means for people to 
report meth labs quickly and anonymously. Our goal is to reduce the 
amount of meth that is available. We are providing educational posters 
``Body by crystal meth'' and other electronic and printed materials to 
educate our youth on the dangers of meth. We are joining with others to 
educate parents about this Utah epidemic. The Utah PTA surveyed 
attendees at their Annual Convention in May and found that the number 
one item that parents identified was the need for more information on 
drugs.
    The Partnership for Drug Free America (PDFA) released their 
Partnership Attitude Tracking Study (PATS) in the spring of 1999. The 
study indicates that more parents, are talking with kids about drugs 
more often, and appear to be having an impact.'' Many parents however 
still struggle with what to say; one in three parents doubt they're 
getting through.''
    ``Parents are, in no small measure, one of the reasons why 
adolescent drug use is finally stabilizing and, in some measure is, 
declining,'' said Richard D. Bonnette, the president and CEO of the 
Partnership. ``With teenagers, many things go in one ear and out the 
other. But what parents are saying about drugs appears to be 
sticking.''
    The study indicates that ``despite their more active role, many 
parents are overwhelmed by the scope of the drug problem. This, 
according to the research appears to be extracting a price on parents' 
confidence in their own ability to safeguard children from drugs.''
    We are designing an educational campaign entitled ``Let's Talk 
Utah''--encouraging parental and child communication. These messages 
will be displayed on billboards, posters in schools and areas parents 
and youth congregate, and through PSA's that will receive playtime on 
the electronic and print media.
    Utah D.A.R.E. (Drug Abuse Resistance Education) Officers will 
continue to present quality substance abuse and anti-violence lessons 
in Utah schools. In Cedar City, we saw a marked reduction in the use of 
drugs by kids that had received D.A.R.E. lessons at the elementary, 
Middle or Jr. High, and Sr. High School levels.
    According to research conducted by Dr. Robert Landry of Research 
Education Services in Texas, students who participated in the D.A.R.E. 
Program provided some of the following core outcomes related to 
D.A.R.E. students.
    They have a more positive perception of police;
    They have a greater sense of safety in community and at home;
    There is greater family involvement and communication;
    There is increased mutual care and respect within the family;
    There is more involvement in school activities;
    There is greater respect for authority figures;
    They are confident of peer intervention in drug and alcohol use; 
and
    They show lower truancy rates.
    In addition to their regular teaching assignment, we will call upon 
D.A.R.E. officers to facilitate parenting classes at school, churches, 
community centers, and the workplace. The new D.A.R.E. Parent 
Curriculum emphasizes communication skills, shares updated information 
on drugs and violence in today's world, teaches coping skills, and ways 
to protect kids from violence. Our goal is to arm parents with 
knowledge so they will be competent and confident in their 
responsibility to help their kids to resist drugs.
    The war on drugs can be fought and won if together we work to 
protect our most precious resource, our children.
                                sources
    Dr. Robert Landry, D.A.R.E. in Texas (Seminar presentation), 
National D.A.R.E. Officers Convention, July 5, 2000.
    Partnership for a Drug Free America, 1999 Partnership Attitude 
Tracking Study, released 4-11-00.

    Chairman Hatch. Thank you for that. We're happy to have 
that testimony.
    Ms. Harmon, we'll turn to your testimony next.

                   STATEMENT OF SANDY HARMON

    Ms. Harmon. Thank you, Mr. Chairman.
    Chairman Hatch. Pull that a little closer.
    Ms. Harmon. I would like to on behalf of the Southwest 
Center, I'd like to welcome you to Southern Utah. We're 
thrilled to have this opportunity to testify before your 
committee today.
    Chairman Hatch. Thank you.
    Ms. Harmon. Fortunately as you heard earlier, Washington, 
Iron, Beaver, Kane, and Garfield Counties have not been--had a 
large impact yet by the GHB, Ecstasy, and club drugs; however, 
we continue to deal with the methamphetamine problem. 
Traditionally rural America has their drug of choice has been 
alcohol; however, since 1991 the number of people who have 
entered treatment because of alcohol abuse has steadily 
declined, while methamphetamine use has steadily increased. And 
this does not mean that we on the treatment side and prevention 
side are finding fault with the law enforcement officials; we 
believe that they're doing an excellent job. And we heard about 
how many drug labs that they continue to shut down in our area.
    However, we believe that we all need to work together with 
prevention, education, treatment, and law enforcement to solve 
this problem.
    Our agency offers treatment and prevention services 
throughout the five-county area. Prevention programs are 
designed to increase protective factors, conditions which 
decrease the likelihood of drug use, and decrease risk factor 
conditions which increase the likelihood of drug use.
    And we go into schools and educate the adolescents on what 
will happen to them if they use drugs, but we also try to have 
programs where that will increase their likelihood not to use, 
including self esteem programs, what to do instead, how to say 
no. And many of those programs do have good outcomes. The 
people, the adolescents that are participating in those 
programs, are less likely to use drugs.
    But, unfortunately, many young Utah residents still decide 
to use illicit drugs. A special concern is the trend for many 
young women in our communities use methamphetamine as a diet 
aid and produce energy as well as the high associated with use.
    The Arrestee Drug Abuse Monitoring, ADAM study, showed that 
Utah has the second and third highest number of positive urine 
screens for methamphetamine in the Nation, and that includes 
cities such as Las Vegas and San Diego.
    I wanted to address one of the questions that you asked 
earlier, and I know Officer Peck answered some of that. And I 
have statistics that show that youth age under 18 who are being 
admitted for treatment, 66 percent of the time they're being 
admitted for marijuana use. But by the time they reach age 18 
to 24 that's risen--methamphetamine--or excuse me, and 
methamphetamine is only less than 1 percent underage 18. By the 
time that they go to ages 18 to 24, they are using 24 percent 
of the time methamphetamine is their drug of choice.
    Women in our area have consistently since 1992 received 
more and more admissions. Traditionally men have been more 
likely to be admitted for substance abuse; however, that is 
changing with methamphetamine, and now females are more likely 
to be admitted for treatment for methamphetamine use than males 
are.
    I know that time is short. I just want to let you know that 
treatment does work and we need to work in partnership with law 
enforcement. Drug courts around the country are proving that 
treatment coupled with law enforcement does work.
    Addiction is a treatable disease, it's not a moral failing. 
We know that you will be willing to support, continue to 
support, those programs that allocate modified drug courts with 
respect to treatment and subsidize, because usually by the time 
someone is ready to go to treatment, they have exhausted all of 
their resources and they don't have money to pay for treatment 
and get treatment. If we don't charge something for treatment, 
we're not going to be around to be able to give treatment. 
There is some way that has to be funded.
    And I appreciate again your time, and if you have any 
questions I would glad to answer them later.
    Chairman Hatch. Thank you very much. We appreciate your 
testimony.
    Ms. Corry, we'll hear from you.

                   STATEMENT OF BARBARA CORRY

    Ms. Corry. First I would just like to thank Scott Burns 
because I was coming down the canyon on the day when they had 
the signs on the drug dogs and the signs about the drug dogs. I 
didn't see those, but I did see a drug stop, and I really 
wondered what it was. I'm glad that he--that my interest has 
been peaked now.
    But I would like to commend you, Senator Hatch, for 
providing a forum for pertinent information regarding emerging 
drug threats to our youth.
    As I did research into GHB, Ecstasy and other rave club 
drugs, I'm appalled by the availability of these drugs and the 
lack of understanding by most parents of their paraphernalia 
and possible fatal consequences.
    Once teens try these drugs, they turn to them as their main 
way of coping with stress and problems. These are feel good 
drugs. They enhance all of the senses. Our young people can't 
imagine that these drugs are bad when they make them feel so 
good. At the rave clubs the pushers are selling these drugs as 
similar to a caffeine pill that will just give them energy. But 
what the pushers aren't saying that these drugs raise body 
temperature, cause dehydration, grinding of teeth, seizures and 
possibly death. These gateway drugs limit a young person's 
ability to resist other drugs that are equally available at the 
parties.
    Parents need to know that some of the paraphernalia for 
these drugs are beaded necklaces, lip gloss containers, baby 
pacifiers, and dust masks.
    NIDA associate director, Timothy P. Condon stated that, 
``Accurate, credible information is the most powerful weapon we 
have to combat the increasing use of these dangerous drugs.''
    PTA's part as an advocate for children and youth is that 
this dialogue will allow parents to check into where and with 
whom our youth are spending their time. These insidious drugs 
are very prevalent in our State and Nation. Parents must work 
together in various ways to prevent the use of these drugs.
    PTA encourages parents to tell your youth not to ingest 
anything that is given to them by someone they don't know. Take 
time to listen to your teens. Talk to your teens about learning 
positive ways to handle peer pressure. Show your teens you care 
about them. Set a good example. Be alert to signs of trouble. 
Know your teen's friends.
    PTA, Utah PTA, will step up efforts to inform parents and 
act as a conduit between professionals and parents for 
awareness and active prevention measures for their youth.
    Thank you, Senator Hatch, for the efforts that you are 
making to counteract both the availability and the ignorance 
about these very destructive drugs.
    [The prepared statement of Ms. Corry follows:]

                  Prepared Statement of Barbara Corry

    I would first like to commend Senator Hatch for providing a forum 
for pertinent information regarding these emerging drug threats to our 
youth.
    As I did research into GHB, Ecstasy and other Rave Club drugs, I 
was appalled at the availability of these drugs and the lack of 
understanding by most parents of their paraphernalia and possible fatal 
consequences.
    Once teens try these `gateway' drugs, they may continue their drug 
use and turn to them as their main way of coping with stress and 
problems. These drugs are a ``feel good'' drug. They enhance all of the 
senses. So our young people can't imagine that these drugs are `bad' 
when they make them feel so good. At the Rave Clubs, the pushers are 
selling these drugs as similar to a caffeine pill--that will just give 
them energy--what the pushers aren't saying is that these drugs raise 
body temperature, cause dehydration, grinding of teeth, seizures and 
possibly death. These `gateway' drugs limit a young person's ability to 
resist other drugs that are equally plentiful at the clubs or home 
parties.
    Parents need to know that some of the paraphernalia for these drugs 
are beaded necklaces, lip gloss containers, baby pacifiers, and dust 
masks.
    NIDA's Associate Director, Timothy P. Condon states that 
``Accurate, credible information is the most powerful weapon we have to 
combat the increasing use of these dangerous drugs.''
    PTAs part as a advocate for children and youth is that this open 
dialogue will allow parents to check into where and with who their 
youth are spending their time. These insidious drugs are very prevalent 
in our state and nation.
    Parents must work together in various ways to prevent the use of 
these drugs. PTA encourages parents to:
    <bullet> Tell your youth not to ingest anything that is given to 
them by someone they don't know
    <bullet> Take time to listen to your teens
    <bullet> Talk to your teens about learning positive ways to handle 
peer pressure
    <bullet> Show your teens you care about them
    <bullet> Set a good example
    <bullet> Be alert to signs of trouble
    <bullet> Know your teen's friends
    PTA will step up efforts to inform parents and to act as a conduit 
between professionals and parents for awareness and active prevention 
efforts for their youth.

    Chairman Hatch. Well, thank you, Ms. Corry. That's 
excellent testimony.
    Ms. Houston, we'll turn to you.

                   STATEMENT OF JANA HOUSTON

    Ms. Houston. Thank you. The St. George Police Department 
asked me to share with you my story about how meth has affected 
my life.
    Last June I was picking up my husband's clothing and I 
noticed his socks were stuffed into his shoes. I pulled the 
socks out and inside the toe of his shoe I found a glass pipe, 
a lighter, and container of white crystals. I was absolutely 
shocked, and I wasn't quite sure what to do. I left the house, 
got in my car, I had drove around for a couple of hours. I 
cried, I was angry, and I was hurt. But even though I was so 
shocked, it also felt like the pieces of the puzzle that had 
finally come together, because even though I had just found 
drugs that morning, I had been feeling affects of 
methamphetamine for a long time.
    Jeff owned his own business, an Internet company, so he 
often worked at night, or he worked long hours. But recently he 
had been spending 3 or 4 days straight at the office without 
coming home, and when he would come home he would crash and 
sleep for 2 days straight, and I wouldn't be able to wake him 
up, and that scared me when he acted like that.
    He hardly ate anymore and he lost 20 pounds. The worst of 
it, though, was he just ignored me and he had never been like 
that. He would lose his temper and become so angry at the 
smallest things. For instance, one morning when he got up and 
he stumbled over his shoes he left beside the bed, and he just 
threw into a rage. He grabbed the lamp, threw it across the 
room, and it broke. He was yelling and went into the bathroom 
and tore apart the shower doors and destroyed them. I was 
terrified and so was my daughter Megan he was just out of 
control. And when his anger turned to me, I was very afraid 
what he might do. Once he threatened to push me out of a second 
story window. I was afraid, but I was also terribly worried 
about him. I was afraid he was suffering from depression, but 
he refused to go to a doctor. He had sores on his arms, on his 
neck, and on his face that had been there for at least 8 
months, never getting any better.
    I found the drugs and I drove around for hours, and I still 
didn't know what to do. I just went home and Jeff was waiting 
for me there. He knew I had found them, and he wanted to talk 
to me about it. At first he tried to just lightly dismiss it 
like it was no big deal. He also told me that he was relieved 
that I had found out his secret so he could quit lying to me 
and I could help him get off of the drug. And so then the 
nightmare of trying to get him to quit began.
    During the next few months I helped him through withdrawal 
4 times, and each time it was just awful. He made promises to 
me and he convinced me that he would be a new man, and every 
time he went back to meth. I wanted him to go to treatment and 
get help, but he refused; he thought he could quit on his own. 
He couldn't.
    With his life being such a chaotic mess he hardly went to 
work anymore and his business failed. I started a part-time job 
just at the first of the summer because we couldn't seem to 
make ends meet anymore. Later I found out he was spending 
between a $1,000 and $2,000 a month to buy meth.
    In October I realized that by my keeping his drug use a 
secret that I was part of the problem and I needed help dealing 
with it as well. So I told his family and my family and I told 
my bishop. He was very angry at me for letting people know that 
he was using drugs. I begged him to get treatment still, and 
his family and our church helped to offer to pay for the 
treatment, and still he refused, still thinking that he could 
get over it on his own.
    So I left him. I took my daughter and I went to my parents 
and I told him I wanted a divorce. He convinced me he had 
stopped again and asked me for another chance, so I went back 
to him. This was in December. I'm sorry.
    Chairman Hatch. That's OK.
    Ms. Houston. Things were much better for a while, a couple 
weeks. I found out he was using again on Christmas Eve. He had 
been spending an awful lot of time in his garage. He told me he 
was working on his truck, but it didn't feel right. And I went 
out one day when he was gone. I crawled up into the attic in 
the garage, and up there I found a meth lab.
    I immediately packed my bags and took Megan and we went to 
my parents house. I called my brother, who was a police 
officer, he came over and I told him and my parents what I had 
found. We called the Drug Task Force and two officers came over 
to the house.
    I knew that Jeff would hate me for having him arrested, and 
I knew that it was probably the end of my marriage, but I loved 
him and I wanted him to stop, and I knew that this was the only 
way.
    I described to the police what I had found and I gave them 
permission to search the house. Officer Randall asked me if my 
daughter or I had been sick lately, and I told her we had both 
had severe headaches the last couple months. He told me it was 
probably caused by the chemicals used in making meth.
    Jeff was arrested that afternoon and the Drug Task Force 
cleaned up the lab. I wasn't allowed to go back home until the 
Health Department said it was OK. When I did go back home, I 
found yellow police tape around my house and the quarantine 
sign on the garage. The whole neighborhoodhad watched. It was 
front page in the newspaper. I was embarrassed. And even though I had 
done nothing wrong, I was ashamed.
    The whole point in having Jeff arrested was to get him into 
rehabilitation. He needed a wake-up call to realize that he was 
destroying his life and he was losing everything that was 
important to him because of meth. When he was using, meth was 
the only thing that mattered to him. It consumed every minute 
of the day, when he could take another hit, how long his supply 
would last, when he could get some more, how would he pay for 
it, what if I found out. It was all he cared about. He was out 
of control. I was afraid he would die from it.
    Like when you throw a rock into water, the ripples go far 
and the rippling effects of meth are just as far-reaching.
    Jeff once told me that it was his choice to use meth and 
that it was his body and it only affected him, but he has hurt 
so many people. First of all myself and our daughter Megan. I 
think of the terrible way he treated us. I cry when I think 
about what my little girl has gone through. When I married him 
it was for eternity, and now our family is broken.
    Megan and I had to move out of our home because we were 
left with nothing. We had to sell most of our things, and now 
we live with my parents. Megan has lost her daddy for a while 
and she has also to deal with a mom who works full time now.
    Besides the financial hardship, I've had to go--I'm going 
through the pains of divorce and the very real struggles of 
being a single mom. Jeff's parents, my parents, our brothers 
and sisters, they're all heartbroken and hurt. My brother 
worked for Jeff, he believed he had a future with the Internet 
company, he bought a house, his wife had just had a baby, and 
then suddenly he had no job. The men who invested a great deal 
of money into the business they lost everything. My neighbors 
felt very hurt and betrayed and scared that their very lives 
were in danger by the meth lab.
    When I bump into friends they often ask me how could 
someone as smart as Jeff could do something so stupid. I don't 
know the answer to that. He seemed to have everything, his 
family, a successful business, and good friends, and meth took 
all of that away from him.
    Jeff spent 132 days in jail. He entered a treatment program 
in Salt Lake City last Friday. When he has completed the 
program he still has to face sentencing and probably more jail 
time. I hope that he can recover from meth. I love Jeff and I 
want him to get better, but the odds are against him. As an 
addict he will have to battle meth every day for the rest of 
his life, and his family and the people who love him have to 
deal with the consequences of being a victim of his meth use.
    Chairman Hatch. I wish everybody in the country could have 
heard your story because it's typical of so many people that 
have had their lives ruined. And applaud you for being able to 
pick up and go on.
    Ms. Houston. Thank you.
    [The prepared statement of Ms. Houston follows:]

                    Prepared Statement Jana Houston

    Last June, I was picking up my husband's clothes. His socks were 
stuffed into his shoes. I pulled the socks out and found a lighter, a 
glass pipe, and a container of white crystals. I was stunned. I left 
the house, got in my car and just drove around for several hours. I 
cried. I was angry. I was hurt. But as shocked as I was, it also was 
like a puzzle that had finally fit together. Even though I had just 
found the drugs that day, I had been feeling the effects of 
methamphetamine for a long time. Jeff's behavior and his whole 
personality had changed over the past few years.
    Jeff owned his own business, an Internet company, so he often 
worked at night. Putting in a 12-hour day was not unusual. But, he 
began spending 3 or 4 days at the office with no sleep. Then he would 
come home and crash and sleep for 2 days straight. It scared me when he 
was like that. I couldn't wake him up. He said he just had so much to 
do. He hardly ate anymore. He had lost 20 pounds. And he was just plain 
mean sometimes. He had never been like that before.
    He would get so angry over the smallest thing. For instance, one 
morning when he got out of bed, he stumbled over his shoes that he had 
left there, and he flew into a rage! Yelling, he grabbed the lamp on 
the nightstand and flung it across the room, breaking it. Still making 
an awful noise he went into the bathroom and completely destroyed the 
shower doors. I was terrified and so was my daughter, Megan. He would 
go crazy like this every week or two. I was scared of him. When his 
anger was directed at me, I was afraid of what he would do. He seemed 
so out of control. Once he threatened to throw me out the second-story 
window. Besides being scared, I was terribly worried about him. I 
thought he was suffering from depression, but he refused to see a 
doctor. His mom finally convinced him to go to the doctor about the 
sores he had all over his arms, neck and face. They had been there for 
8 months, never getting any better.
    After driving around for hours, I didn't know what else to do, so I 
finally just went home. Jeff was waiting for me. He knew I had found 
the drugs. He tried to explain it away--he was a master at 
rationalizing. He said he was relieved that I finally knew his secret, 
and he could quit lying to me, and I could help him get off of meth. He 
convinced me that he wanted to quit, so then the nightmare of trying to 
help him quit began.
    Over the next few months, I helped him through withdrawal 4 times. 
It was horrible. But he made promises and convinced me that he would be 
a new man. And every time he went back to meth. I begged him to go to a 
rehabilitation program, but he was sure he could kick it on his own. He 
couldn't.
    With his life being so chaotic, he hardly ever worked anymore. His 
business failed. I had started a part time job at the first of summer 
because we just couldn't seem to make ends meet anymore. I later found 
out he was spending $1000 to $2000 a month on meth.
    In October I realized that by my keeping his drug use a secret, I 
was part of the problem. And I needed help dealing with it as well. So 
I told my family, his family and my bishop. I wanted him to get help. 
But he still refused treatment. So I took my daughter and left him--
telling him I wanted a divorce. Over the next month he convinced me he 
had stopped, and he asked for one last chance.
    I gave him another chance, and went back in December. Things were 
much better--for a while. On Christmas Eve I found out he was using 
again.
    He had been spending most of his time in the garage--supposedly 
working on his truck. But something wasn't right, and on December 28, 
1999, I climbed up in the attic over the garage and found a meth lab.
    I packed my bags, and Megan and I went to my parents. I called my 
brother who is a police officer. I told him and my parents what I had 
found. We called the drug task force and two officers came over. I knew 
that Jeff would probably hate me for having him arrested, and it was 
probably the end of my marriage, but I loved him and knew that this was 
the only way to get him to stop.
    I described to the police what I had found and gave them permission 
to search the house. Officer Randall asked if my daughter or I had been 
sick lately. I told her that both of us had been experiencing severe 
headaches the past few months. She said the headaches were probably 
caused from the chemicals. She advised us to see a doctor because the 
chemicals used in making meth can cause serious health problems.
    Jeff was arrested that afternoon and the Drug Task Force cleaned up 
the lab. I wasn't able to go back to my house until the health 
department said it was ok. When I went back home, I found yellow police 
tape around my house and a quarantine notice on the garage. The whole 
neighborhood had watched, and it was front page in the newspaper. I was 
embarrassed. Even though I had done nothing wrong, I felt ashamed.
    The whole point of having Jeff arrested was to get him into 
rehabilitation. He needed a wake up call to realize that he was an 
addict and he couldn't quit on his own. He had destroyed his life and 
lost all that was important to him because of meth. While he was using, 
the only thing that mattered to him was getting high. Meth consumed 
every minute of his day--when he could take another hit, how long his 
supply would last, when he could get some more, how he was going to pay 
for it, what if I found out. He was out of control, and I was afraid he 
would die from it.
    Like a stone thrown into water, the rippling effects of meth are 
far reaching. Jeff once told me it was his choice, his body and he 
could do whatever he wanted to it. He believed it only affected 
himself, but he has hurt so many people. First of all what he's done to 
Megan and myself--I think of the horrible way he acted toward us. I cry 
when I think of what my little girl has gone through. When I married 
him, it was for eternity. Now because of meth our family is broken. 
Megan and I moved out of our home, had to sell most of our things and 
move in with my parents. Megan has lost her daddy for a while, and she 
also has to adjust to having her mom work full time.
    Besides the financial hardships, I am going through the pain of 
divorce and the struggles of being a single mom. Jeff's parents and my 
parents are heartbroken. His brothers and sisters as well as my 
brothers and sisters feel hurt and betrayed. My brother worked for 
Jeff. He believed he had a future with the company. He bought a house; 
his wife had just had a baby. Then suddenly he had no job. The men who 
had invested a great deal of money into Jeff's business lost it all. 
Our neighbors felt betrayed to find out their very lives were in danger 
living next to a meth lab. When I bump into friends they always ask me, 
``How could someone as smart as Jeff do something so stupid?'' I don't 
know the answer to that. He had everything: a wonderful family, a 
successful business, good friends, and meth destroyed it all.
    Jeff spent 132 days in jail. He entered a treatment program in Salt 
Lake city last Friday. When he has completed the program, he still has 
to face sentencing and possibly more jail time. I hope he can recover 
from meth. I love Jeff and want him to get better, but the odds are 
against him. As an addict, he will have to battle meth everyday for the 
rest of his life.

    Chairman Hatch. We're very grateful for your testimony.
    We're going to turn to you, Bradley, and I think your 
testimony is going to be like that. Can we get a mic over 
there?

                   STATEMENT OF BRADLEY DAVIS

    Mr. Davis. Hello, I'm Brad Davis. I would like to say it's 
a privilege to be here. I would like to thank my family for 
being here.
    I'll tell you a little story how it came on me. I'm 43 
years old now. I've spent 4 years in prison because of drugs. I 
feel it all started with my friends who I was running around 
with when I was younger, started with tobacco, alcohol in grade 
school. By the time I got to eighth grade I was smoking 
marijuana. By the time I reached high school I got into speed, 
downers, PCP, cross tops. I did LSD by the time I was in high 
school. I did all kind of hallucinogenics.
    When I got out of high school I kept on partying. I did get 
busted a few times. But seriously nothing ever happened, 
really.
    And then I started stealing anything I could to get drugs. 
I was stealing pills from my mom and dad, stealing pills from 
my grandpa. It was just a never ending thing to get the drugs, 
any kind of drugs at the time.
    And then I ended up getting married when I was 23 years 
old. I was married for 11 years, had four wonderful children. 
But the drugs were still in my life. I still smoked marijuana, 
doing speed. I wasn't really into the methamphetamine that 
much; I was using cross tops. Went into cocaine, marijuana a 
lot, and alcohol.
    And, like I say, I was married for 11 years. I ended up 
getting divorced because of drugs and alcohol.
    And then about 6 years ago, July 3, I lost my son in a car 
accident; he got hit in an auto accident. I kind of blame 
myself because I was on drugs at the time. I know it was an 
accident, but I still blame myself for it because I know--I 
don't know if I could have done anything wrong, but I know I 
was on drugs.
    At the time I was doing methamphetamine, then like the lady 
said methamphetamine that's my whole--it was my whole life.
    Then I met a Mexican, illegal Mexican, where what I was 
doing was selling drugs, and he started bringing me in a pound 
to 2 pounds of meth a week, 3 to 4 pounds a week. And it was an 
ongoing thing. I was supplying all of Cedar mainly. Cedar, St. 
George, all of Southern Utah. And I finally ended up getting 
busted.
    Like I say, I didn't really care about life that much 
anymore. I started using more and more drugs. I was using about 
an eight ball a day, which was probably $200, $250 a day habit.
    I went to prison. Well, I got out--first I got busted here 
in Cedar and I got out, did 30 days and got out. And them 30 
days was some of the toughest days of my life because I was so 
strung out on meth then and being in jail without it, it was 
hard for me. I was 3 or 4 days I didn't even get out of bed, 
you know.
    And then I got out and got right back with my friends, old 
friends again, old playmates and playground, and I was out 2 
weeks out of jail and I got busted in St. George for 
methamphetamine again, half a pound of weed, marijuana. I did 
another 30, 40 days of jail down there and I finally got bailed 
out. Got right back out, got right back into with old friends 
again, and stuff ended up getting worse.
    Three months later after the first time I got busted, I got 
busted again up in Vernal for methamphetamine and stuff again, 
another ounce of methamphetamine.
    To make a long story short, I ended up getting convicted. I 
did 2 years in prison then for possession with intent, cocaine, 
marijuana and heroin--I mean, not heroin, but methamphetamine. 
And I got out, was doing pretty good at the time, but I thought 
I could use it again. I thought I could do a little bit again. 
I got with some old friends again. That first time I was right 
back into it again. I was hooked again. It didn't--it didn't 
take no time at all.
    I couldn't really afford it at the time and I didn't have 
that much money, I was working--you know, money was tough. I 
run into a friend showed me how to make it. It was a lot easier 
for me to make it and do it, and then, you know, some of the 
friends I made it for and they ended up wanting it, and I got 
right back in. I was full board again.
    And I had only been out of prison for about a year is all, 
and I ended up getting busted again for manufacturing. And now 
I'm doing 2 years. I'll go back to the board of pardons in 
November. I'll have 2 years then.
    Chairman Hatch. You've been through this. What advice would 
you give to our young people who are tempted to use 
methamphetamine? What would you tell our young people?
    Mr. Davis. It's not on the right road. To me I think a lot 
to do with the friends, your acquaintances. I mean, I take 
responsibility for what I have done. I've hurt a lot of people. 
I've hurt--like she said, a ripple, you know. It hasn't hurt 
me, it's hurt my family. It's hurt my kids. It's hurt people I 
have sold to down the line.
    I really think it's the family. I mean, family and friends, 
if you can keep them away from them, if you're going to do it. 
That's up to you. I really believe it's friends.
    Chairman Hatch. And you're in jail for another 2 years?
    Mr. Davis. I get out--well, I go to the board in November. 
This November.
    Chairman Hatch. Are you getting any rehabilitation while 
you're in prison?
    Mr. Davis. That's another thing I would like to talk about. 
Where I'm at now, I'm in St. George Purgatory Facility. They 
really have no correctional facility for substance abuse. I've 
taken life skills three times now. That's the only class I've 
got that they've got there.
    What I would like to see is since I've been in prison and 
in and out now, I would like to see like a jail for nothing but 
drug offenders where we can get help. There was one substance 
abuse class in St. George that lasted a couple months and the 
lady quit. She's a voluntary lady, she was really good, but she 
quit. And there hasn't been no substance abuse nothing in there 
for now. I think there should be like some kind of a jail where 
they have--down there right now it's sex offenders and they 
have therapy, and anything like that, but they have nothing for 
drug offenders.
    You know, I'm going to get out some time and I would like 
to have some kind of a trade, you know. I do heavy equipment, 
but I would like to have maybe some fall back on electrician, 
plumbing, anything, because when I get out, you know, times get 
tough, I hate to say it but who knows as time gets tough, I 
need money, I don't want to fall back and have to make drugs 
and do drugs again. I know I can make money there. It's a bad 
thing. That's why I would like to see maybe a trade or get some 
kind of other trade, or something, while I'm in prison. I think 
there should be something to look at there, you know.
    Chairman Hatch. Well, you told the story, it's a pretty sad 
story, abusing story. And you got my money working on what we 
can do to help. There's got to be some way to help people who 
really want to get out of this thing.
    I would like to say, in addition, welcome to Alan Gardner, 
Washington County Commissioner, and H.C. Deutschlander, Mayor 
of Brian Head. We're happy to have them here as well.
    Let me just ask a couple of questions. Excuse me, I can't 
tell you how much we appreciate your testimony here today, your 
willingness to share the stories of your family's tragedy. And 
you've been one of the most articulate witnesses I've had.
    Ms. Houston. Thank you.
    Chairman Hatch. And I've seen thousands of thousands of 
witnesses in my years in the Senate. I applaud your courage and 
welcome your courage to recognize the signs of drug use and 
addiction.
    In your opinion, what are some of these telltale signs that 
family members should be on the lookout for ?
    Ms. Houston. Well, in retrospect I feel a little stupid for 
not recognizing them sooner. But I really wasn't aware that 
those were the signs of meth. First of all, the way he would go 
through days without sleep, I think that that's some--a very 
common symptom, and it's one that is easily noticeable. He 
really would stay awake 3 or 4 days, and then he would have to 
sleep for a long time.
    Second is the sores. Often people who do meth will pick at 
their skin because they think there's imaginary bugs there. 
It's just one of the symptoms. And like I told you, he had 
sores up his arms and they spread to his face and neck. And 
they never went away. And even now he has scars left because 
they were such bad sores.
    I think that those are two symptoms that people could look 
at and really question if there was drug use going on.
    Chairman Hatch. Ms. Harmon, is there any way you can tell 
whether a person is on drugs by looking in their eyes?
    Ms. Harmon. Well, pupils are dilated on some drugs and some 
drugs constrict the eye. So I don't think it's a really good--
--
    Chairman Hatch. Not a sure way?
    Ms. Harmon. No.
    Mr. Davis. I would like to say----
    Chairman Hatch. Go ahead.
    Mr. Davis [continuing]. Something. A lot of people don't 
eat on drugs. The nervousness, you can't sit still that long, 
you got to be doing something.
    Chairman Hatch. Mr. Davis, what point in your life did you 
know that drugs had taken effect and what, if anything, do you 
think could have been done, or what, if anything, could have 
been done to break this down on meth?
    Mr. Davis. I was addicted right off the first thing. And 
drug addicts, such as myself, we won't go get help. I wouldn't. 
I had to be forced to get into substance abuse some help.
    You know, I could tell myself and stuff. When I was on 
probation at first, I was really hoping they make me go through 
counseling, some kind of a treatment program, because I 
wouldn't--I wouldn't ever commit myself.
    Chairman Hatch. Well, methamphetamine has many social 
causes in addition to the cause of users and bringing dealers 
to justice. It ruins lives, it ruins families, property, as we 
just heard from today's witnesses.
    Let me just ask you this, you four women and leaders, from 
what you have seen if you could describe more of the 
devastation that comes from this particular drug. Ms. Milne.
    Ms. Milne. We have lived with our family we adopted a young 
man and he has chosen the route of drugs, and it's probably 
been the reason that I have tried so hard in prevention. I 
believe we've got to get to these young people at an early age 
with persistent, consistent messages on antidrug use, because 
what happens is that these youth, as Mr. Davis alluded to, it 
may be one, it may be several times that they have to use, but 
you don't know who is the addict.
    This young man came from a family where both mom and dad 
were addicts. We thought we could change all of that just by 
cleaning up and loving him, and you can't. You can't take away 
some of those things. And it leaves its scars forever.
    When you look at these children that are harmed, when they 
are put in foster care and protected, can they function in 
school? Not generally. Can they function in their social 
skills? Not generally.
    So we've got to look at keeping it from happening, in my 
opinion, if we're really truly going to make a difference.
    Chairman Hatch. Ms. Corry, do you have any comments on 
that?
    Ms. Corry. Just one second. My husband and I were 
discussing drugs the other day, and we have a nephew who's a 
fetal alcohol syndrome child, and I also have a nephew who's a 
Downs child, and we were contrasting the care that this Downs 
individual is getting in the schools and in the community, how 
well he's accepted and how people go out oftheir way to make 
him respectable and feel like a useful member of the community, and yet 
this fetal alcohol person youth is shunned and has been in trouble with 
the law and the courts because there's no system where he needs to be 
in a home. He needs to be in a situation where he's under control all 
the time.
    And, you know, we have taken drugs and criminalized them 
and not worked to help the individuals, because, you know, 
drugs a lot of times they take over. I mean, they do. They take 
over who you are, and you are no longer that individual. You 
have no control. And to me it is very heart breaking to see 
that people that get on drugs and cannot get off do not have 
any support, support against society, to get them off and keep 
them under control to where they are in control of their lives.
    Chairman Hatch. Thank you.
    Ms. Harmon.
    Ms. Harmon. I think she's right. There's definitely the 
social stigma that goes with some youth. Ms. Houston alluded to 
that even though she wasn't a substance abuser, she felt 
ashamed and her neighbors shunned her.
    I think that we as a society need to address that and 
accept that when people begin using drugs they have a choice, 
but when that--eventually some place in that progression they 
lose their free choice and it becomes an obsession. I've even 
heard people that I have treated describe it as a possession, 
they no longer have free will. They are possessed by their 
obsession to get drugs and they'll do anything to do that.
    Chairman Hatch. Mr. Davis has certainly indicated that's 
the case. Ms. Houston, where is your husband now? Is he----
    Ms. Houston. He's in the treatment center in Salt Lake.
    Chairman Hatch. Is he in jail?
    Ms. Houston. No, he was released from jail to go to 
treatment.
    Chairman Hatch. So he's voluntarily trying to at a house?
    Ms. Houston. Yes, sir. He wants to quit now.
    Chairman Hatch. I see. Do you stay in contact with him now?
    Ms. Houston. I do. He calls me once a week or writes 
letters.
    Chairman Hatch. I take it that he is a graduate from 
college?
    Ms. Houston. Yes, he is.
    Chairman Hatch. And he's skilled in computers?
    Ms. Houston. Yes, he is.
    Chairman Hatch. And Internet type work?
    Ms. Houston. (Nods head.)
    Chairman Hatch. He really has the world on the tail with 
this addiction.
    Ms. Houston. He certainly does. And that is a part of the 
tragedy of his story and that he could have so much, and he did 
have so much before he became a meth addict.
    Chairman Hatch. There are some people, Mr. Davis, that 
think that we ought to shoot the manufacturers of drugs 
influencing our children. Would that help solve the problem?
    Mr. Davis. Say that again.
    Chairman Hatch. If you were threatened to be shot or 
executed, do you think that would help stop the drugs?
    Mr. Davis. In a way.
    Chairman Hatch. You can see that question causes a lot of 
problems. I just wanted to hear your reaction.
    Let's say that there was a capital penalty, let's say there 
was a capital penalty for manufacturers of drugs, would that 
play a role and would that help you give up the----
    Mr. Davis. Well, yeah, maybe. If the money and the demand 
is there, it's something--somebody is going to be available and 
supplying it. As far as the chemicals you were talking about 
earlier, getting rid of some of the chemicals, it seems like 
they try to get rid of like some of the pseudoephedrine, and 
stuff. They tried to get rid of the iodine crystals, and stuff 
like that. Cultured iodine, they make their own iodine 
crystals. Now they're trying to do it. Now it's lithium. It 
seems like somebody is going to find a way to do it if the 
money is still there.
    Chairman Hatch. I see. Just a question I wanted to ask you 
because some people I really feel that it's just a scourge to 
our society.
    Mr. Davis. It really is.
    Chairman Hatch. It would be an element on those people. I'm 
not sure, but I wanted to ask the question.
    Ms. Harmon. Senator.
    Chairman Hatch. Yes.
    Ms. Harmon. Also when you are using drugs your thinking is 
diluted so you're not thinking rationally. You believe that 
your 10 feet tall and bullet proof. And even though you're 
doing something illegal, you're not likely to get caught.
    Chairman Hatch. You don't suffer the consequences.
    Ms. Harmon. And you believe you're not going to get caught; 
somebody else will get caught.
    Chairman Hatch. The arguments of why we might do anything 
about the--you know, the people who are already hooked, but it 
might wake up everybody who is thinking of getting into it. And 
I just--I would look at everything to find an answer, or some 
answer.
    There's no question we need to do more in prevention. 
That's something I'm getting from these hearings and that's why 
we're holding hearings.
    I just have to say, you know, the treatment on juvenile 
justice bill that we worked so hard on in the Senate, there was 
really nothing in there about guns. It was mainly--it was one 
of the few times when both parties had more convention money 
than they had law enforcement money, so there was plenty for 
both, and they succeeded in making it a gun bill and making it 
a politicized bill. I can't even bring up a conference because 
all it would lead to is a bunch of political talk and screaming 
and shouting for political purposes.
    But if we could pass that juvenile justice bill we would go 
a long way of solving these problems, providing the money that 
is essential for these areas. And I'm really almost bitter that 
this has become a gun bill rather--hardly anything about guns. 
It's all juvenile justice prevention and law enforcement. 
There's a lot of information in here that deals with it and how 
to avoid this type of things.
    And I don't think we'll get anything through this Congress. 
But I'm hopeful the start of the next session I'm hopeful 
people on both sides who won't politicize and get something 
done that will be in the best interest of our children and 
people like all of you who spend more of your time to help your 
society get by.
    Well, I am very thankful of the people who spoke here 
today, it's been very meaningful for me, and I'm glad that 
we've had all of you here.
    You have a question back there.
    Participant. I would just like to share my testimony, if I 
could, for just a minute.
    Chairman Hatch. Why don't you come up and do so.
    Participant. I wish not to disclose my name.
    Chairman Hatch. You can pick up a microphone.
    Participant. I wish not to disclose my name to the area 
that I live in, or the people that this circumstance happened 
under that I would like to take you on a journey for our 
daughter that was gang raped. She believed she had been raped 
by four people. She went to four houses and couldn't get help. 
The person at the fourth house called, insisted that she be 
called. They took her in.
    My concern is the recovery efforts of these young women 
when they have been raped. I think it's very, very important 
that when somebody undergoes such tragedies that there is 
policies in place and laws that they might get the assistance 
that they need. The American Medical Association states very 
clearly to the doctors one person comes under those 
circumstances that a person for administrative functions it 
costs that person in their lifetime three times more than it 
does to support a man or a woman in prison for the rest of 
their life. Administrative fees include the procedures they go 
through, mental health counseling.
    I want to share what's happened to our family who did not 
receive the assistance that should have been there, because I 
believe rape isn't something to be ashamed of, and I think our 
society in Utah especially we have a very big concern. I was 
willing to talk on campus to groups because I was in a 
communication class, I sense my daughter went through the 
trauma and the tragedies that we have for women I took to the 
health center. None of these were required.
    The statistics and the facts are not there. What's 
happening in our community is inaccurate, and it is not being 
properly accounted for.
    We are $7,000 in the hole. The promises made to my family 
that if they were willing to sign papers the State would help 
cover medical expenses, that didn't happen. We didn't get help. 
We lost three scholarships, lost our insurance, coverage for my 
daughter. She's not a full-time student. She can't go to--she 
can't have insurance coverage. She couldn't even function. She 
had freeze fright so bad. She couldn't function. She slept--did 
not sleep for near 8 months. It caused discord in our family 
and pain we will never understand.
    It can be proven medically what happened to her. She--and 
nothing was ever mentioned that I heard drugs. Alcohol is one 
of our bigger issues. We believe date rape drugs were used. She 
was paralyzed. She had no voice, she had no speech. She 
couldn't resist.
    Eighteen years I taught and supported the young women, and 
every year we have police officers and DARE officers come in 
and tell our young how to prevent rape. They weren't even 
talked to.
    Where is our support? Four women on the campus that we did 
get some assistance through the health department couldn't go 
to their parents because they would have been disowned, 
freshmen in college. There's no statistical accounting for 
that. All of the promises that Utah State gave and Federal aid 
did not exist.
    Our family has been near destroyed. And all we wanted was a 
protocol, a procedure that was lawfully and respectfully put in 
place that one might survive rape, because the devastation one 
undergoes when you have to witness people standing taking turns 
and you can't do anything about it and then you see your family 
maybe lose their home because nobody cared and nobody helped. I 
think it's appalling and we need the utmost care.
    Who cares if they catch the bad guy at that point. First 
thing should be medical priority. The drug she had been given 
by her own doctor itself along with the medical--the alcohol 
she had taken is a 100 percent provability that she had--that 
convulsions and all the things that stated she had. Everything 
she said to those people were true and factual and can be 
proved.
    My concern is who cares? I hope you do. And I hope we can 
get some changes in place that our women are no longer accused 
and shamed and blamed because rape's horrifying anyway. But to 
be disowned, to have friends walk away from her, no longer want 
to associate with the label with a rape victim is appalling to 
me. Took near a year and a half for her to even get a job.
    Chairman Hatch. Ma'am, I want to thank you for showing up, 
and I'd like to urge you to contact my office here in Cedar 
City and we'll follow-up with what's happened, what we can do 
for your family.
    Let me just finish today. I learned a lot here today, and I 
hope everybody who came here learned as much as well.
    Clearly, when we think about these things that could 
adversely affect our young people's health as well as their 
ability to learn and to make good choices, drug abuse and the 
health and learning problems that go with it rank high on the 
list.
    Now, we've already seen the tragic ramifications of gang 
activity, cocaine, crack, and other drugs. According to the 
experts we have heard today, we can now add these so-called 
club drugs to the growing list of threats to our kids.
    I'm going to leave the record open for this hearing and for 
those who want to make additional statements until July 21 for 
any additional questions for the members of Judiciary 
Committee, or for additional statements from Utah's elected 
officials, educational, medical, or law enforcement. And I 
would like to invite all of you to submit short statements as 
well, in writing if you will. I hope to include a limited 
number in the hearing record. Such statements may contribute a 
constructive suggestion for action, a personal experience, or 
additional facts concerning the perils facing Utah's youth.
    I want to have a continual dialogue in these issues. I 
think it's essential that we do that. This is not a problem 
that can be solved overnight. And I'll do everything I can to 
try and resolve some of these problems that have been brought 
up here today.
    So with that we'll recess until further notice. Thank you 
all for coming.
    [Whereupon, at 4:12 p.m., the committee adjourned.]

                                <greek-d>
</pre></body></html>
